NO.
IN THE SUPREME COURT
OF THE UNITED STATES
HAROLD SHURTLEFF and
CAMP CONSTITUTION,
Petitioners
v.
CITY OF BOSTON and
ROBERT MELVIN, in his official capacity as
Commissioner of the City of Boston
Property Management Department,
Respondents
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
PETITION FOR WRIT OF CERTIORARI
Mathew D. Staver, (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

i
QUESTIONS PRESENTED
“Where possible, the [City] seeks to
accommodate all applicants
seeking to take advantage of
the City of Boston’s public forums.”1
The City of Boston designated its City Hall Flag
Poles as one of several “public forums” for “all
applicants,” and encourages private groups to hold
flag raising events at and on the Flag Poles “to foster
diversity and build and strengthen connections
among Boston’s many communities.” Over the
course of twelve years, the City approved 284 such
flag raisings by private organizations, with zero
denials, allowing them to temporarily raise their
flags on the City Hall Flag Poles for the limited
duration of their events. But when Petitioners’
Christian civic organization, Camp Constitution,
applied to raise its flag during a flag raising event to
celebrate the civic contributions of Boston’s
Christian community, the City denied the
request
expressly
because
Camp
Constitution’s proposed flag was called
“Christian” on the application form but, other
than a common Latin cross on the flag itself,
there is nothing to identify the flag as a
“Christian” flag.

Guidelines for any Person or Group Requesting the Use
of Faneuil Hall, Sam Adams Park, City Hall Plaza, City Hall
Lobby, North Stage or the City Hall Flag Poles, infra pp. 7–
8 (emphasis added).
1

ii
The questions presented are:
1. Whether the First Circuit’s failure to apply
this Court’s forum doctrine to the First Amendment
challenge of a private religious organization that
was denied access to briefly display its flag on a city
flagpole, pursuant to a city policy expressly
designating the flagpole a public forum open to all
applicants, with hundreds of approvals and no
denials, conflicts with this Court’s precedents
holding that speech restrictions based on religious
viewpoint or content violate the First Amendment or
are otherwise subject to strict scrutiny and that the
Establishment Clause is not a defense to censorship
of private speech in a public forum open to all
comers.
2. Whether the First Circuit’s classifying as
government speech the brief display of a private
religious organization’s flag on a city flagpole,
pursuant to a city policy expressly designating the
flagpole a public forum open to all applicants, with
hundreds
of
approvals
and
no
denials,
unconstitutionally expands the government speech
doctrine, in direct conflict with this Court’s decisions
in Matal v. Tam, 137 S. Ct. 1744 (2017), Walker v.
Texas Div., Sons of Confederate Veterans, Inc., 576
U.S. 200 (2015), and Pleasant Grove City v.
Summum, 555 U.S. 460 (2009).
3. Whether the First Circuit’s finding that
the requirement for perfunctory city approval of a
proposed brief display of a private religious
organization’s flag on a city flagpole, pursuant to a
city policy expressly designating the flagpole a

iii
public forum open to all applicants with hundreds of
approvals and no denials, transforms the religious
organization’s private speech into government
speech, conflicts with this Court’s precedent in
Matal v. Tam, 137 S. Ct. 1744 (2017), and Circuit
Court precedents in New Hope Family Servs., Inc. v.
Poole, 966 F.3d 145 (2d Cir. 2020), Wandering Dago,
Inc. v. Destito, 879 F.3d 20 (2d Cir. 2018), Eagle
Point Educ. Ass'n/SOBC/OEA v. Jackson Cnty.
Sch. Dist. No. 9, 880 F.3d 1097 (9th Cir. 2018), and
Robb v. Hungerbeeler, 370 F.3d 735 (8th Cir. 2004).

iv
PARTIES
Petitioners are Harold Shurtleff and Camp
Constitution.
(Unless
otherwise
indicated,
Petitioners are referred to collectively herein as
“Camp Constitution.”)
Respondents are the City of Boston and
Robert Melvin, in his official capacity as
Commissioner
of
the
City
of
Boston
Property Management Department. (Unless
otherwise indicated, Respondents are referred to
collectively herein as “Boston” or the “City.”)
CORPORATE DISCLOSURE STATEMENT
Petitioner Shurtleff is an individual, and
Petitioner Camp Constitution is an unincorporated
association and public charitable trust. Neither
Petitioner has a parent corporation or publicly held
stock owner.
DIRECTLY RELATED PROCEEDINGS
HAROLD
SHURTLEFF
and
CAMP
CONSTITUTION, a public charitable trust,
Plaintiffs, Appellants, v. CITY OF BOSTON and
GREGORY T. ROONEY, in his Official Capacity as
Commissioner of the City of Boston Property
Management Division, Defendants, Appellees,
No. 20-1158 (1st Cir. Judgment Jan 22, 2021).
HAROLD
SHURTLEFF,
and
CAMP
CONSTITUTION, a public charitable trust,
Plaintiffs, v. CITY OF BOSTON, and GREGORY T.
ROONEY, individually and in his official capacity as

v
Commissioner of the Property Management
Department for the City of Boston, Defendants,
No. 1:18-cv-11417-DJC (D. Mass. Judgment Feb. 4,
2020).
HAROLD
SHURTLEFF,
and
CAMP
CONSTITUTION, a public charitable trust,
Plaintiffs–Appellants v. CITY OF BOSTON, and
GREGORY T. ROONEY, in his official capacity as
Commissioner of the City of Boston Property
Management
Division,
Defendants–Appellees,
No. 18-1898 (1st Cir. Judgment June 27, 2019).

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED ..................................... i
PARTIES ................................................................. iv
CORPORATE DISCLOSURE STATEMENT ........ iv
DIRECTLY RELATED PROCEEDINGS............... iv
TABLE OF CONTENTS ......................................... vi
TABLE OF CITED AUTHORITIES....................... xi
DECISIONS BELOW .............................................. 1
JURISDICTION ....................................................... 1
RELEVANT
CONSTITUTIONAL
AND
STATUTORY PROVISIONS ................................... 1
STATEMENT OF THE CASE ................................. 2
FACTUAL BACKGROUND ............................ 2
Camp Constitution’s Flag Raising
Request. .................................................... 2
The City’s Flag Raising Approvals
Under Its Policies and Practices
Designating the City Hall Flag Poles a
Public Forum. ........................................... 4
The
City’s
Denial
of
Camp
Constitution’s Application to Use the
City Hall Flag Poles Forum. .................. 14

vii
The City’s Subsequent Written Flag
Raising Policy. ........................................ 19
PROCEDURAL HISTORY ............................ 20
REASONS FOR GRANTING THE PETITION .... 22
THE FIRST CIRCUIT’S FAILURE TO
APPLY FORUM ANALYSIS TO THE
CITY’S
POLICY
AND
PRACTICE
INTENTIONALLY
CREATING
A
DESIGNATED PUBLIC FORUM AT AND
ON THE CITY HALL FLAG POLES,
THEREBY EXCUSING THE CITY’S
VIEWPOINT AND CONTENT-BASED
CENSORSHIP IN RELIANCE ON THE
ESTABLISHMENT CLAUSE, CONFLICTS
WITH
THIS
COURT’S
FIRST
AMENDMENT PRECEDENTS. ................... 22
The
First
Circuit’s
Novel
“Summum/Walker Test” Is Not
Supported by Summum or Walker and
Conflicts With This Court’s Forum
Doctrine. ................................................. 22
This Court’s precedents require
forum
analysis
when
the
government excludes protected
expression
from
government
property designated a “public
forum” for “all applicants.” ............ 23
a.

The City Hall Flag Poles are
a designated public forum ..... 26

viii
b.

The City’s exclusion from its
public forum of the Camp
Constitution
flag
solely
because it was called a
“Christian flag” on the
application does not satisfy
the requisite standard. .......... 29

The First Circuit’s application of
its novel and rigid “three-part
Summum/Walker test” to Camp
Constitution’s requested flag
raising conflicts with this Court’s
forum
precedents
and
unconstitutionally expands the
government speech doctrine. ......... 29
The First Circuit’s Opinion Conflicts
With This Court’s First Amendment
Precedents
Regarding
Viewpoint
Discrimination. ...................................... 34
The First Circuit’s Opinion Conflicts
With This Court’s First Amendment
Precedents Requiring Content-Based
Speech Restrictions to Satisfy Strict
Scrutiny. ................................................. 37
The First Circuit’s Opinion Conflicts
With This Court’s Precedents Holding
That the Establishment Clause Is Not
a Defense to Private Speech In a Public
Forum. .................................................... 39

ix
THE FIRST CIRCUIT’S FAILURE TO
APPLY FORUM ANALYSIS TO THE
CITY’S
POLICY
AND
PRACTICE
INTENTIONALLY
CREATING
A
DESIGNATED PUBLIC FORUM AT THE
CITY HALL FLAG POLES, THEREBY
EXCUSING THE CITY’S VIEWPOINT
AND CONTENT-BASED CENSORSHIP IN
RELIANCE ON THE ESTABLISHMENT
CLAUSE, CONFLICTS WITH THE FIRST
AMENDMENT DECISIONS OF NEARLY
EVERY OTHER CIRCUIT. ........................... 41
A.

The First Circuit’s Opinion Conflicts With
the Second, Eighth, and Ninth Circuits
Regarding Application of the First
Amendment Forum Doctrine. ........................ 41

B.

The First Circuit’s Opinion Conflicts With
the Second, Third, Fourth, Sixth, Seventh,
Eighth, Ninth, and Tenth Circuits
Regarding Viewpoint and Content-Based
Discrimination Against Protected Speech. ... 42

C.

The First Circuit’s Opinion Conflicts With
the Decisions of the Fourth, Sixth, Seventh,
Eighth, and Eleventh Circuits Holding the
Establishment Clause Is No Defense to
Viewpoint or Content-Based Discrimination
Against Protected Speech. ............................. 44

CONCLUSION ....................................................... 45
APPENDIX ............................................................. 1a

x
FIRST CIRCUIT OPINION AFFIRMING
SUMMARY JUDGMENT FOR RESPONDENTS
AND DENIAL OF SUMMARY JUDGMENT
FOR PETITIONERS, FILED JANUARY 22,
2021 ........................................................................ 1a
DISTRICT COURT ORDER GRANTING
SUMMARY JUDGMENT FOR RESPONDENTS
AND DENYING SUMMARY JUDGMENT FOR
PETITIONERS, FILED FEBRUARY 4, 2020 .... 41a
FIRST CIRCUIT OPINION AFFIRMING
DENIAL OF PRELIMINARY INJUNCTION,
FILED JUNE 27, 2019 ........................................ 60a
DISTRICT
COURT
ORDER
DENYING
JUDGMENT ON THE PLEADINGS, FILED
MAY 3, 2019 ......................................................... 83a
DISTRICT
COURT
ORDER
DENYING
PRELIMINARY
INJUNCTION,
FILED
AUGUST 29, 2018...............................................103a
JOINT STATEMENT OF UNDISPUTED
FACTS, FILED JANUARY 22, 2021 ..................128a
THE BOSTON GLOBE ARTICLE, WHY IS
BOSTON CITY HALL THE WAY IT IS? FILED
JULY 29, 2019.....................................................161a
CITY
OF
BOSTON
FLAG
RAISINGS
2005–2017, FILED JULY 8, 2019 ......................173a
EXCERPTS OF GREGORY T. ROONEY
DEPOSITION TRANSCRIPT, FILED JULY 8,
2019 .....................................................................188a

xi
TABLE OF CITED AUTHORITIES
Cases
Americans United for Separation of Church &
State v. City of Grand Rapids,
980 F.2d 1538 (6th Cir. 1992) ......................43,44
Archdiocese of Washington v. Washington Metro.
Area Transit Auth., 140 S. Ct. 1198 (2020) ..... 36
Ark. Educ. Television Comm'n v. Forbes,
523 U.S. 666 (1998)........................................... 28
Ariz. Free Enter. Club’s Freedom Club PAC v.
Bennett, 564 U.S. 721 (2011) ............................ 38
Bd. of Airport Comm’rs of City of L.A. v. Jews
for Jesus, Inc., 482 U.S. 569 (1987) .................. 38
Bd. of Educ. of Westside Cmty. Schs. v. Mergens,
496 U.S. 226 (1990)........................................... 40
Burson v. Freeman, 504 U.S. 191 (1992) ............... 37
Byrne v. Rutledge, 623 F.3d 46 (2d Cir. 2010) ...... 43
Child Evangelism Fellowship of Minn. v.
Minneapolis Special Sch. Dist. No. 1,
690 F.3d 996 (8th Cir. 2012) ............................ 43
Child Evangelism Fellowship of N.J., Inc.
v. Stafford Twp. Sch. Dist.,
386 F.3d 514 (3d Cir. 2004) .............................. 43

xii
Church on the Rock v. City of Albuquerque,
84 F.3d 1273 (10th Cir. 1996) .......................... 44
City of Boerne v. Flores, 521 US. 507 (1997) ......... 37
Cornelius v. NAACP Legal Def. & Educ. Fund,
Inc., 473 U.S. 788 (1985) .......... 24,26,27,28,29,35
Eagle Point Educ. Ass’n/SOBC/OEA v. Jackson
Cnty. Sch. Dist. No. 9, 880 F.3d 1097
(9th Cir. 2018) ............................................... iii,42
Good News/Good Sports Club v. Sch. Dist. City
of Ladue, 28 F.3d 1501 (8th Cir. 1994) ............ 45
Good News Club v. Milford Cent. Sch.,
533 U.S. 98 (2001)....................................35,36,39
Grossbaum v. Indianapolis-Marion Cnty. Bldg.
Auth., 63 F.3d 581 (7th Cir. 1995) ..........43,44,45
Hill v. Colorado, 530 U.S. 703 (2000) ................37,38
Hills v. Scottsdale Unified Sch. Dist. No. 48,
329 F.3d 1044 (9th Cir. 2003) ......................43,44
Int'l Soc. for Krishna Consciousness, Inc. v. Lee,
505 U.S. 672 (1992) [ISKCON] ...............23,24,28
Lamb’s Chapel v. Ctr. Moriches Union Free Sch.
Dist., 508 U.S. 384 (1993) ................................. 36
Lubavitch of Ga. v. Miller,
5 F.3d 1383 (11th Cir. 1993) ............................ 45

xiii
Matal v. Tam,
137 S. Ct. 1744 (2017)...................... ii,iii,32,34,41
McCullen v. Coakley, 573 U.S. 464 (2014) ............ 38
Minnesota Voters Alliance v. Mansky,
138 S. Ct. 1876 (2018).........................23,24,25,35
NAACP v. Button, 371 U.S. 415 (1963) ................. 38
New Hope Family Servs., Inc. v. Poole,
966 F.3d 145 (2d Cir. 2020) ..................... iii,41,42
Peck v. Upshur Cnty. Bd. of Educ.,
155 F.3d 274 (4th Cir. 1998) ............................ 44
Pleasant Grove City v. Summum, 555 U.S. 460
(2009)..................ii,21,22,26,29,30,31,32,33,35,41
Reed v. Town of Gilbert, 576 U.S. 155 (2015) ....... 37
Robb v. Hungerbeeler, 370 F.3d 735
(8th Cir. 2004) ............................................... iii,42
Rosenberger v. Rector & Visitors of the Univ. of
Va., 515 U.S. 819 (1995) ................ 35,36,39,40,43
Sable Commc’ns of Cal., Inc. v. FCC,
492 U.S. 115 (1989).......................................38,39
Shurtleff v. City of Boston, 337 F. Supp. 3d 66
(D. Mass. 2018) ................................................... 1
Shurtleff v. City of Boston, 928 F.3d 166
(1st Cir. 2019) [Shurtleff I] ............................ 1,21

xiv
Shurtleff v. City of Boston, 385 F. Supp. 3d 109
(D. Mass. 2019) ................................................... 1
Shurtleff v. City of Boston, —F. Supp. 3d.—, No.
18-cv-11417-DJC, 2020 WL 555248
(D. Mass. Feb. 4, 2020) ....................................... 1
Shurtleff v. City of Boston, 986 F.3d 78
(1st Cir. 2021) [Shurtleff II] ....... 1,21,23,31,33,34
United States v. Playboy Entm’t Grp., Inc., 529
U.S. 803 (2000).................................................. 38
United Veterans Memorial & Partiotic Ass’n of
the City of Rochelle v. City of New Rochelle,
72 F. Supp. 3d 468 (S.D.N.Y. 2014) ................. 31
United Veterans Memorial & Patriotic Ass’n of
the City of New Rochelle v. City of New
Rochelle, 615 F. App’x 693 (2d Cir. 2015) ........ 31
Walker v. Texas Div., Sons of Confederate
Veterans, Inc., 576 U.S. 200
(2015)....................... ii,21,22,29,30,31,32,33,3441
Wandering Dago, Inc. v. Destito,
879 F.3d 20 (2d Cir. 2018) ....................... iii,31,42
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943)........................................... 25
Constitutional Provisions
U.S. Const. amend. I ....................................... passim
U.S. Const. amend. XIV ...................................... 2,21

xv
Statutes
28 U.S.C. § 1254 ....................................................... 1
28 U.S.C. § 1291 ....................................................... 1
28 U.S.C. § 1331 ....................................................... 1
Other Authorities
S. Ct. R. 35.3............................................................. 4

1
DECISIONS BELOW
Shurtleff v. City of Boston,
986 F.3d 78 (1st Cir. 2021) (affirming summary
judgment) (App. 1a);
—F. Supp. 3d.—, No. 18-cv-11417-DJC, 2020 WL
555248 (D. Mass. Feb. 4, 2020) (granting summary
judgment) (App. 41a);
928 F.3d 166 (1st Cir. 2019) (affirming denial of
preliminary injunction) (App. 60a);
385 F. Supp. 3d 109 (D. Mass. 2019) (denying
judgment on the pleadings) (App. 83a);
337 F. Supp. 3d 66 (D. Mass. 2018) (denying
preliminary injunction) (App. 103a).
JURISDICTION
The First Circuit issued its decision on January
22, 2021. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1). The First Circuit had jurisdiction
pursuant to 28 U.S.C. § 1291. The District of
Massachusetts had jurisdiction pursuant to 28
U.S.C. § 1331.
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
“Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech
. . . .” U.S. Const. amend. I.

2
“No State shall . . . deprive any person of life, liberty,
or property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV.
STATEMENT OF THE CASE
FACTUAL BACKGROUND
Camp Constitution’s Flag Raising
Request.
Petitioner Camp Constitution is an allvolunteer association formed in 2009, offering
classes and workshops on subjects such as U.S.
History, the U.S. Constitution, and current events.
(App. 129a.) Petitioner Harold Shurtleff is the
founder and Director of Camp Constitution. (Id.)
Camp Constitution’s mission is to enhance
understanding of the country’s Judeo-Christian
heritage, the American heritage of courage and
ingenuity, the genius of the United States
Constitution, and free enterprise. (Id.)
In connection with the September 17, 2017
observance of Constitution Day and Citizenship
Day, Camp Constitution2 desired to commemorate
the historical civic and social contributions of the
Christian community to the City of Boston, the
Commonwealth
of
Massachusetts,
religious
tolerance, the Rule of Law, and the U.S.

Unless otherwise indicated, Petitioners are referred to
collectively herein as “Camp Constitution,” and Respondents
as the “City” or “Boston.”
2

3
Constitution, by hosting an event at Boston’s City
Hall Plaza to feature “short speeches by some local
clergy focusing on Boston’s history” and “to raise the
Christian Flag” on one of Boston’s City Hall Flag
Poles. (App. 130a–132a.) On July 28, 2017, Shurtleff
telephoned and e-mailed Lisa Menino,3 the City’s
senior special events official, seeking approval for
the flag raising event. (App. 131a–132a.)
Shurtleff’s e-mail included a picture of the
proposed flag:

In record e-mail correspondence Lisa Menino’s name
appears as Lisa Lamberti, but her name officially had been
changed to Menino prior to July 2017. (App. 131a n.2.)
3

4
(Id.) Menino requested approval from Gregory T.
Rooney, Commissioner of the City of Boston
Property Management Department,4 which she
expected to receive. (App. 132a, 151a.)
The City’s Flag Raising Approvals
Under Its Policies and Practices
Designating the City Hall Flag Poles a
Public Forum.
The City has designated some its properties to
be available to private persons and groups for
events, including Faneuil Hall, Samuel Adams Park,
City Hall Plaza, City Hall Lobby, City Hall Flag
Poles, and North Stage. (App. 132a–133a.) The City
Hall Flag Poles comprise three flag poles on City
Hall Plaza, near the entrance to City Hall, as shown
here:

Petitioners originally sued Respondent City and Rooney,
in his official capacity as Commissioner of Property
Management. Respondent Robert Melvin is Rooney’s successor
in office and automatically substituted for Rooney herein. See
S. Ct. R. 35.3. Rooney, however, was Commissioner of Property
Management at all material times, including when he gave his
deposition testimony on March 20, 2019. (App. 130a.)
4

5

(App. 141a, 161a.) The City generally raises the
American Flag and the POW/MIA flag on one pole,
the Commonwealth of Massachusetts flag on the
second pole, and the City of Boston flag on the third.
(App. 141a–142a.) But the City regularly allows
private groups to raise their own flags on the third
flagpole in connection with their flag raising events.
(App. 142a–143a.) The City of Boston website states
the City’s goals for flag raising events:
We commemorate flags from many
countries and communities at Boston
City Hall Plaza during the year.
We want to create an environment in
the City where everyone feels
included, and is treated with respect. We
also want to raise awareness in Greater
Boston and beyond about the many
countries and cultures around the world.
Our goal is to foster diversity and
build and strengthen connections
among Boston’s many communities.

6
(App. 143a (bold emphasis added).)
The City posts on its website written policies
and an application process for use of its public fora.
(App. 133a–135a.) The online policies provide, in
part: “You need our permission if you want to hold a
public event at certain properties near City Hall.
These locations include . . . the City Hall Flag
Poles . . . .” (Id. (emphasis added).) The policies also
provide content-neutral reasons for denying an
application, including incompleteness, capacity to
contract, unpaid debt to the City, illegality, danger
to health or safety, and misrepresentations or prior
malfeasance. (Id.)
The website allows completion of an application
online, or by fax or mail using a printable application
form
titled,
“Property
and
Construction
Management Department City Hall and Faneuil
Hall Event Application.” (App. 135a–136a.) The
printable application identifies the City Hall Flag
Poles as one of several public forum options:

7

(Id.)
The application also incorporates “Guidelines
for any Person or Group Requesting the Use of
Faneuil Hall, Sam Adams Park, City Hall Plaza,
City Hall Lobby, North Stage or the City Hall Flag
Poles,” stating that the “application applies to any
public event proposed to take place at [inter alia] the
City Hall Flag Poles.” (App. 136a (emphasis added).)
The guidelines further provide, in part:

8
Where possible, the Office of Property and
Construction Management seeks to
accommodate all applicants seeking
to take advantage of the City of
Boston’s public forums. To maximize
efficient use of these forums and ensure
the safety and convenience of the
applicants and the general public, access
to these forums must be regulated.
(App. 136a–140a (emphasis added).) The form
promises a response within ten days and provides
eleven possible reasons for denial of a request
(similar to the online policies), such as schedule
conflict, illegality, danger to health or safety,
misrepresentations or prior malfeasance, and
various procedural defects. (Id.; see App. 133a–
135a.) Prior to October 2018, the City had no other
written policies for use of the City’s public forums.
(App. 140a.)
The City’s Property Management Department
receives and processes all applications for public
events on City properties, including flag raising
events at the City Hall Flag Poles, through the same
system. (App. 140a.) The Commissioner has final say
over approvals for all events. (App. 141a.)
For the twelve years preceding Camp
Constitution’s request, from June 2005 through
June 2017, the City approved 284 flag raising
events, with no record of a denial. (App. 142a–
143a, 149a–150a, 173a–190a.) During the one-year
period immediately preceding Camp Constitution’s
request the City approved 39 flag raisings—

9
averaging more than three per month. (App.
142a–143a.)
Approved flag raisings have included ethnic
and other cultural celebrations, the arrival of foreign
dignitaries, the commemoration of independence or
other historic events in other countries, and the
celebration of certain causes such as “gay pride.”
(App. 142a–143a, 173a–187a.) And, while it would
be illegal for the City itself to “display[] the flag or
emblem of a foreign country upon the outside of a . .
. city . . . building ,” Mass. Gen. Laws ch. 264, § 8,
the City has approved private groups’ flag raisings
for celebrations of the countries of Albania, Brazil,
Ethiopia, Italy, Panama, Peru, Portugal, Puerto
Rico, Mexico, as well as China, Cuba, and Turkey,
and for the flags of the private Chinese Progressive
Association, National Juneteenth Observance
Foundation, Bunker Hill Association, and Boston
Pride. (Id.)
The City has allowed flags on the City Hall Flag
Poles that contain religious language and symbols.
(App. 143a–146a.) For example, the City of Boston
flag, which is usually raised on one of the Flag Poles,
depicts the City Seal, containing the inscription
“SICUT PATRIBUS, SIT DEUS NOBIS” which
means “God be with us as he was with our fathers”:

10

(App. 143a–144a.) The Turkish flag, which the City
has approved at least thirteen times, in 2005, 2006,
and 2009–2019, depicts the star and crescent of the
Islamic Ottoman Empire:

(App. 144a–145a.) And for at least three years
(2016–2018) the City allowed the Bunker Hill
Association to raise the Bunker Hill Flag to
commemorate the Revolutionary War Battle of
Bunker Hill and Bunker Hill Day. (App. 145a–146a.)

11
The Bunker Hill Flag contains a red cross against a
white field on a blue flag, as shown here:

(Id.)
The City partnered with a promoter for events
on City Hall Plaza, including events approved
through the Department of Property Management

12
application process. (App. 146a–147a.) Flag raisings
and other events were featured on the promoter’s
website, subject to the City’s editorial direction. (Id.)
Commissioner Rooney approved a June 2017
Portuguese Flag Raising Ceremony at City Hall
Plaza, involving the raising of the Portuguese flag on
the City Hall Flag Poles. (App. 147a–149a.) The
promoter’s website posted guidance for the flag and
ceremony:
The dots inside the blue shields
represent the five wounds of Christ
when crucified. Counting the dots
and doubling those five in the center,
there are thirty dots that represents
the coins Judas received for having
betrayed Christ. . . .
....
Come and join us in honoring the flag of
Portugal in what represents the official
recognition of the Portuguese community’s
presence and importance in the State of
Massachusetts. Your presence is of key
importance to pay this solemn homage to
Portugal and the Portuguese emigrant
community with grandeur.
(Id. (emphasis added).) As described above, the
Portuguese flag appears as follows:

13

(Id.)
At the time of Camp Constitution’s request in
July 2017, the City had no written policies for
handling flag raising applications, and Rooney had
never denied a flag raising application. (App.
149a–150a.) The Department “never really had a lot
of discussion prior to [Camp Constitution’s] request
related to flag raisings in any way.” (Id.) According
to Rooney, “[f]or the most part, [the City] will allow
any event” to take place on City Hall Plaza. (App.
149a.)
It was Rooney’s usual practice not to see a
proposed flag before approving a flag raising event,
and Rooney never requested to review or change a
flag in connection with approval. (App. 150a.) The
City does not require any applicant to give
possession or ownership of its flag to the City as a
condition for approval. (Id.) Rooney has no
knowledge of any person believing Boston has

14
endorsed any organization or subject matter as a
result of approving a flag raising event. (Id.)
The
City’s
Denial
of
Camp
Constitution’s Application to Use the
City Hall Flag Poles Forum.
Rooney was “concerned about” Camp
Constitution’s request because he considered it the
first “related to a religious flag.” (App. 150a–151a.)
Rooney “didn’t know whether or not it was
appropriate to put a religious flag on a public
building, so [he] wanted to inquire a little bit more.”
(Id.) After “a couple of weeks” he consulted with the
City’s law department for guidance “[d]ue to the fact
that the flag in question was described as a
religious flag.” (App. 151a (emphasis added).)
In the meantime, Menino updated Shurtleff, “I
am just waiting for the approval from my bosses I
just sent them another e-mail.” (Id.) Three weeks
after Camp Constitution’s request, Shurtleff sent
another e-mail inquiry, prompting Menino to e-mail
Rooney, “has there been any decision made on
Christian flag raising[?]” (Id.) Rooney replied, “The
Law Department is reviewing our flag raising
protocols. Do we have a complete list of
organizations that have held flag raisings on the
Plaza in recent years?” (Id.)
Rooney ultimately decided to deny Camp
Constitution’s request because “we didn’t have a
past practice of allowing religious flags, and we
weren’t going to allow this flag raising.” (App. 152a.)
On August 25, 2017, Rooney e-mailed Menino,

15
“Please let them know that the request has been
denied. Thanks.” (Id.) Rooney had no intention of
providing an explanation for the denial to Menino or
Camp Constitution. (Id.) Rooney did not create any
record memorializing his reasons for denial. (Id.)
On September 5, 2017—more than five weeks
after
Camp
Constitution’s
request—Menino
e-mailed Shurtleff that the request was denied. (Id.)
Shurtleff requested a reason, prompting Rooney to
advise the Boston Mayor’s press office and other
officials that he would prefer the Law Department,
not Menino, to draft a response to Camp
Constitution’s request for a reason. (App. 152a–
153a.)
On September 8, 2017, Rooney e-mailed
Shurtleff an explanation for the denial:
I am writing to you in response to your
inquiry as to the reason for denying your
request to raise the “Christian Flag”. The
City of Boston maintains a policy and
practice of respectfully refraining from
flying non-secular flags on the City Hall
flagpoles. This policy and practice is
consistent with well-established First
Amendment jurisprudence prohibiting a
local government from “respecting an
establishment of religion.” This policy and
practice is also consistent with City’s legal
authority to choose how a limited
government resource, like the City Hall
flagpoles, is used.

16
According to the above policy and practice,
the City of Boston has respectfully denied
the request of Camp Constitution to fly on
a City Hall flagpole the “Christian” flag, as
it is identified in the request, which
displays a red Latin cross against a blue
square bordered on three sides by a white
field.
The City would be willing to consider a
request to fly a non-religious flag, should
your organization elect to offer one.
(App. 153–154a.)
Where Rooney referred to Boston’s “policy and
practice of respectfully refraining from flying nonsecular flags on the City Hall flagpoles,” he “was
referring to past practice” because “up to this point,
there had not been any formal written policy
regarding flying non-secular flags on the flagpoles.”
(App. 154a–155a.) By “non-secular” Rooney meant
“a religious flag that was promoting a specific
religion.” (Id.) Rooney did not mean he “had
determined that the city had declined to fly nonsecular or religious flags in the past,” but meant that
he “had no record of ever having one had been
approved.” (Id.) Rooney did not work from any
formal definition of “non-secular” or “religious” when
he denied Camp Constitution’s request. (App. 155a.)
Rooney admitted that excluding “religious”
flags serves no goal or purpose of the City in
allowing flag raising events on the City Hall
Flag Poles, except “concern for the so-called

17
separation of church and state or the constitution’s
establishment clause.” (App. 157a.) Rooney was
concerned Camp Constitution’s flag “was a flag that
was promoting a specific religion” and “didn’t think
that it was in the city’s best interest to necessarily
have that flag flying above City Hall.” His concern
was not with the flag itself, but that on the
application it was called a “Christian flag.”
Rooney would not have been concerned if the
same flag was called “the Camp Constitution flag”
because then “it would have been the flag of the
organization and not a religious symbol.” (App.
155a.)
Rooney’s concern with allowing the Christian
flag was not based on the visual content of the flag
(“a red cross on a blue field on a white flag”). If Camp
Constitution had not called it the “Christian” flag on
the application, Rooney would have treated it no
differently from the Bunker Hill flag (“a red cross on
a white field on a blue flag”) which he had approved.
(App. 156a.) Rooney did not consider the Bunker Hill
flag a “religious” flag, despite its depiction of a red
cross, because “it’s to commemorate the Battle of
Bunker Hill.” (Id.) If the Bunker Hill flag had been
presented to Rooney as “the Christian flag or a
Christian flag, then [Rooney] would . . . have had the
same concerns that [he] had about Camp
Constitution’s flag.” (Id.)
Rooney would not have been concerned about
approving the Portuguese flag raising, had he
known about the religious content of its flag, because
Portugal is a “sovereign nation.” (App. 156a.)
Rooney, however, would weigh and think differently

18
of a request to raise the Vatican flag “because of the
fact that although it’s a sovereign nation, it’s also the
Catholic church . . . .”5 (App. 156a–157a.) Rooney
does not know whether the text of the Boston City
Seal on the City’s flag, translated, “God be with us
as he was with our fathers,” is a religious statement.
(App. 160a.)
On September 13, 2017, Shurtleff submitted to
the City a new, written City Hall and Faneuil Hall
Event Application, requesting use of City Hall Plaza
and the City Hall Flag Poles for the event “Camp
Constitution Christian Flag Raising,” and proposing
dates of October 19, 2017 or October 26, 2017. (App.
157a–158a.) Shurtleff described the event as follows:
Celebrate and recognize the contributions
Boston’s Christian community has made
to our city’s cultural diversity, intellectual
capital and economic growth. The
Christian flag is an important symbol of
our country’s Judeo-Christian heritage.
During the flag raising at the City Hall
Plaza, Boston recognizes our Nation’s
heritage and the civic accomplishments
and social contributions of the Christian
community to the Commonwealth of
Massachusetts, religious tolerance, the

The City previously had allowed the Vatican flag to be
raised over Boston Common, alongside the United States and
Massachusetts flags, in connection with the 1979 visit to
Boston of Pope John Paul II, four years prior to diplomatic
recognition of the Vatican by the United States. (App. 156a–
157a.)
5

19
Rule of Law, and the U.S. Constitution,
which together gave our Nation an
unprecedented history of growth and
prosperity. The event program includes a
speech by Rev. Steve Craft . . . on the need
for racial reconciliation, a speech by Pastor
William Levi, formerly of the Sudan, on
the blessings of religious freedom in the
U.S. and an historical overview of Boston
by Hal Shurtleff . . . .
(Id.)
On September 14, Camp Constitution’s counsel
sent a letter to the Boston Mayor, with copies to
Rooney and others, enclosing the new Application
and requesting approval on or before September 27,
2017. (App. 158a.) The City did not respond to either
the new application or counsel’s letter. (Id.) Only
Rooney
could
have
reconsidered
Camp
Constitution’s new request, but Rooney did not
respond because the first request “was asked and
answered.” (Id.)
The City’s Subsequent Written Flag
Raising Policy.
In October 2018 the City committed its past
policy and practice to a written Flag Raising Policy.
(App. 159a.) The new Policy does not require the
City to handle requests differently from how they
were handled when Camp Constitution submitted
its request in July of 2017. (Id.) Under the new
policy, as in July 2017, the Commissioner of
Property Management has final approval authority

20
for all flag raising requests, “such decision to be
made in the City’s sole and complete
discretion.” (Id. (emphasis added).)
The written Policy incorporates seven Flag
Raising Rules. (Id.) If an application for a flag
raising event satisfies all seven of the Flag Raising
Rules, the Flag Raising Policy still reserves to the
Commissioner “sole and complete discretion” to deny
the application for a reason not reflected in the Flag
Raising Rules. (Id.) The Flag Raising Policy also
reserves to the Commissioner the discretion to
approve a flag application even if it does not meet
one or more of the Flag Raising Rules. (Id.)
The first Rule provides, “At no time will the
City of Boston display flags deemed to be
inappropriate or offensive in nature or those
supporting discrimination, prejudice, or religious
movements.” (App. 160a.) Whether a flag is deemed
“inappropriate or offensive in nature,” supporting
“discrimination” or “prejudice,” or supporting
“religious movements” is a determination to be
made at the Commissioner’s discretion, and
there are no separate guidelines or criteria for
the Commissioner to use to make any such
determination. (Id.)
PROCEDURAL HISTORY
Camp Constitution commenced this action on
July 6, 2018, suing the City for preliminary and
permanent injunctive relief, declaratory relief, and
damages, on the grounds that the City’s denial of
Camp Constitution’s flag raising request violated

21
Camp Constitution’s right to free speech under the
First Amendment, as well as the Establishment
Clause of the First Amendment and the Equal
Protection Clause of the Fourteenth Amendment.6
(App. 46a–48a.) Camp Constitution also moved for a
preliminary injunction, which the district court
denied. (App. 103a.) The First Circuit affirmed the
denial. See Shurtleff v. City of Boston, 928 F.3d 166
(1st Cir. 2019) (App. 60a.)
After discovery the parties filed cross motions
for summary judgment. (App. 47a.) Following a
hearing the district court denied summary judgment
for Camp Constitution and granted summary
judgment for the City (App. 41a–59a).
The First Circuit affirmed, holding that
notwithstanding
the
City’s
express
policy
designating the City Hall Flag Poles a public forum
for private speech to all comers and its practice of
never denying any private request to raise a flag
during the twelve years prior to the instant denial,
the City was justified in denying Camp
Constitution’s flag under this Court’s government
speech cases in Pleasant Grove City v. Summum,
555 U.S. 460 (2009), and Walker v. Texas Div., Sons
of Confederate Veterans, Inc., 576 U.S. 200 (2015).
See Shurtleff v. City of Boston, 986 F.3d 78 (2021).
(App. 1a.) The First Circuit ignored the express
public forum policy and the unbroken history of
approvals, and instead created a new “three-part

Camp Constitution also pleaded the City’s violations of
the cognate provisions of the Massachusetts Constitution.
6

22
Summum/Walker test” (App. 16a), thus expanding
this Court’s government speech cases to swallow up
private speech in a public forum.
REASONS FOR GRANTING THE PETITION
THE FIRST CIRCUIT’S FAILURE TO
APPLY FORUM ANALYSIS TO THE
CITY’S
POLICY
AND
PRACTICE
INTENTIONALLY
CREATING
A
DESIGNATED PUBLIC FORUM AT AND
ON THE CITY HALL FLAG POLES,
THEREBY
EXCUSING
THE
CITY’S
VIEWPOINT
AND
CONTENT-BASED
CENSORSHIP IN RELIANCE ON THE
ESTABLISHMENT CLAUSE, CONFLICTS
WITH
THIS
COURT’S
FIRST
AMENDMENT PRECEDENTS.
The
First
Circuit’s
Novel
“Summum/Walker
Test”
Is
Not
Supported by Summum or Walker and
Conflicts With This Court’s Forum
Doctrine.
This should be a simple case, but the First
Circuit abandoned this Court’s forum doctrine, and
instead crammed Camp Constitution’s Free Speech
challenge into a novel and rigid government speech
test, relying on Pleasant Grove City v. Summum, 555
U.S. 460 (2009), and Walker v. Texas Division, Sons
of Confederate Veterans, Inc., 576 U.S. 200 (2015).
Canonizing just three of the many factors considered
in Summum and Walker, the First Circuit debuted
its very own “three-part Summum/Walker test” as

23
“controlling.” Shurtleff v. City of Boston, 986 F.3d 78,
88 (2021). This innovation conflicts with this Court’s
First Amendment forum doctrine decisions in
Minnesota Voters Alliance v. Mansky, 138 S. Ct.
1876 (2018), and its progenitors.
The First Circuit’s government speech finding
cannot be correct under this Court’s precedents
because (1) the City’s flag raising application form
designates the Flag Poles as a “public forum” for the
private speech of “all applicants;” (2) the City never
censored a flag from 284 applications over 12 years
prior to Camp Constitution’s application; (3) the City
approved 39 flags (averaging over three per month)
in the year prior to Camp Constitution’s application;
and (4) the raising of other country’s flags cannot be
the City’s speech because it would be a crime under
state law for the City to raise another country’s flag
on City Hall.
This Court’s precedents require
forum
analysis
when
the
government excludes protected
expression from government
property designated a “public
forum” for “all applicants.”
When the government excludes from its own
property private expression subject to the
protections of the First Amendment, this Court’s
precedents require a “forum based approach” for
assessing the constitutionality of the speech
restriction. Minn. Voters All. v. Mansky, 138 S. Ct.
1876, 1885 (2018) (cleaned up); see also Int'l Soc. for
Krishna Consciousness, Inc. v. Lee, 505 U.S. 672, 678

24
(1992) [hereinafter ISKCON] (“These cases reflect,
either implicitly or explicitly, a ‘forum based’
approach for assessing restrictions that the
government seeks to place on the use of its
property.”); Cornelius v. NAACP Legal Def. & Educ.
Fund, Inc., 473 U.S. 788, 800 (1985) (“[T]he Court
has adopted a forum analysis as a means of
determining when the Government's interest in
limiting the use of its property to its intended
purpose outweighs the interest of those wishing to
use the property for other purposes.”).
When considering a challenge to a speech
restriction on government property under the forum
doctrine, a court must first decide whether the
desired speech is protected by the First Amendment.
Cornelius, 473 U.S. at 797. Assuming the speech is
protected, the court “must identify the nature of the
forum, because the extent to which the Government
may limit access depends on whether the forum is
public or nonpublic.” Id. Then the court “must assess
whether the justifications for exclusion from the
relevant forum satisfy the requisite standard.” Id.
As to “the nature of the forum,” the Court’s
forum doctrine generally recognizes traditional
public forums, designated public forums, and
nonpublic forums, each with its own “requisite
standard”:
In a traditional public forum—parks,
streets, sidewalks, and the like—the
government may impose reasonable time,
place, and manner restrictions on private
speech, but restrictions based on content

25
must satisfy strict scrutiny, and those
based on viewpoint are prohibited. The
same standards apply in designated public
forums—spaces
that
have
not
traditionally been regarded as a public
forum but which the government has
intentionally opened up for that purpose.
In a nonpublic forum, on the other hand—
a space that is not by tradition or
designation
a
forum
for
public
communication—the government has
much more flexibility to craft rules
limiting speech. The government may
reserve such a forum for its intended
purposes, communicative or otherwise, as
long as the regulation on speech is
reasonable and not an effort to suppress
expression merely because public officials
oppose the speaker's view.
Minn. Voters All., 138 S. Ct. at 1885 (cleaned up).
This Court recognized decades ago that flags
are expressive: “The use of an emblem or flag to
symbolize some system, idea, institution, or
personality, is a short cut from mind to mind. Causes
and nations, political parties, lodges and
ecclesiastical groups seek to knit the loyalty of their
followings to a flag or banner, a color or design.” W.
Va. State Bd. of Educ. v. Barnette, 319 U.S. 624, 632
(1943). Thus, under the Court’s forum doctrine,
Camp Constitution’s flag is speech protected by the
First Amendment, and the constitutionality of
Boston’s exclusion of the flag from the City’s Flag
Poles forum depends on “the nature of the forum”

26
and whether the City’s “justifications for exclusion
satisfy the requisite standard.” Cornelius, 473 U.S.
at 797. The Flag Poles are a designated public
forum, and the City’s exclusion of Camp
Constitution’s flag is unconstitutional under this
Court’s forum doctrine that was disregarded by the
First Circuit.
a.

The City Hall Flag Poles are
a designated public forum.

Camp Constitution sought the City’s approval
for a flag raising event at the City Hall Flag Poles
pursuant to the City’s “public forums” for “all
applicants” policy. Under this Court’s forum
doctrine, determining the constitutionality of the
City’s exclusion of Camp Constitution from the Flag
Poles forum requires proper characterization of the
forum based on the access sought by Camp
Constitution. See Cornelius, 473 U.S. at 801.
As used for displaying the private flags of all
comers, the City Hall Flag Poles are a designated
public forum. “[A] government entity may create a
designated public forum if government property that
has not traditionally been regarded as a public
forum is intentionally opened up for that purpose.”
Summum, 555 U.S. at 469 (cleaned up). Thus, “[a]
public forum may be created by government
designation of a place or channel of communication
for use by the public at large for speech or assembly,
for use by certain speakers, or for the discussion of
certain subjects.” Cornelius, 473 U.S. at 802. Courts
look to the “policy and practice of the government to
ascertain whether it intended to designate a place

27
not traditionally open to assembly and debate as a
public forum,” as well as “the nature of the property
and its compatibility with expressive activity.” Id.
Under these well-settled principles, the City’s
express, written policies and documented practices
demonstrate that the City intentionally opened a
public forum for flag raisings on the City Hall Flag
Poles.
The City’s official written policies and
application forms demonstrate it has intentionally
designated several City-owned venues to be public
forums for expressive activities and events,
including the City Hall Flag Poles. (App. 132a–
133a.) The City’s printable application guidelines for
using the venues—i.e., “the Use of Faneuil Hall, Sam
Adams Park, City Hall Plaza, City Hall Lobby,
North Stage or the City Hall Flag Poles”—
document that the City “seeks to accommodate all
applicants seeking to take advantage of the City of
Boston’s public forums.” (App. 136a–140a
(emphasis added).) Both the City’s online and
printable applications expressly identify the City
Hall Flag Poles as a separate and distinct public
forum for events (App. 135a–136a), and the City’s
website for scheduling flag raising events documents
the City’s intentionally open policy “to create an
environment in the City where everyone feels
included” and “to foster diversity and build and
strengthen connections among Boston’s many
communities.”
(App.
143a.)
This
explicit
identification of the City Hall Flag Poles as one of
Boston’s “public forums” for “all applicants”
demonstrates the City has intentionally opened the
Flag Poles for protected private expression through

28
flag raising events. See Ark. Educ. Television
Comm'n v. Forbes, 523 U.S. 666, 677 (1998) (“To
create a forum of this type, the government must
intend to make the property generally available to a
class of speakers.” (cleaned up)); ISKCON, 505 U.S.
at 678 (“property that the State has opened for
expressive activity by part or all of the public”).
Thus, by both name and range of expression
permitted, the City has intentionally designated the
City Hall Flag Poles a public forum.
In addition to its written policy designating the
Flag Poles among its “public forums” for “all
applicants,” the documented practices of the City
pursuant to that policy further demonstrate the
City’s intent. See Cornelius, 473 U.S. at 802. The
undisputed factual record shows the City’s
acceptance of all flag raising applications, consistent
with its stated “all applicants” intention: During the
twelve years preceding its denial of Camp
Constitution’s flag raising request, the City
approved 284 flag raising events at the Flag
Poles with no record of a denial. (App. 136a–
140a, 142a–143a, 149a–150a, 173a–187a.) And in
the
year
immediately
preceding
Camp
Constitution’s denial, the City approved 39 flag
raising events—averaging more than three per
month. (Id.) This history and frequency of flag
raising events with no denials (prior to Camp
Constitution’s request) also demonstrate that the
Flag Poles are compatible with expressive activity.
See Cornelius, 473 U.S. at 802. Thus, the City’s
express policies and documented practices establish
that the City intended to open a designated public
forum for flag raisings on the City Hall Flag Poles.

29
b.

The City’s exclusion from its
public forum of the Camp
Constitution
flag
solely
because it was called a
“Christian flag” on the
application does not satisfy
the requisite standard.

The final step of this Court’s forum analysis is
determining whether the government’s justification
for exclusion of protected speech satisfies the
requisite standard based on the nature of the forum.
See Cornelius, 473 U.S. at 797. As will be shown
below (infra Pts. I.B–D), the City’s offered
justification for exclusion of Camp Constitution from
the Flag Poles forum does not satisfy the requisite
standard for a designated public forum because this
Court’s precedents do not allow the City to use the
Establishment Clause as a defense to its viewpoint
and content-based discrimination against Camp
Constitution’s “religious” flag.
The First Circuit’s application of
its novel and rigid “three-part
Summum/Walker test” to Camp
Constitution’s requested flag
raising conflicts with this Court’s
forum
precedents
and
unconstitutionally expands the
government speech doctrine.
The
First
Circuit’s
rigid
“three-part
Summum/Walker test” is not faithful to Summum
or Walker and conflicts with this Court’s forum
doctrine precedents. To be sure, in both Summum

30
and Walker, this Court expressly recognized that
forum analysis, rather than government speech
analysis, applies to nontraditional forums
intentionally designated by the government for
private expression: “a government entity may create
‘a designated public forum’ if government property
that has not traditionally been regarded as a public
forum is intentionally opened up for that purpose,”
and “may create a forum that is limited to use by
certain groups or dedicated solely to the discussion
of certain subjects.” Summum, 555 U.S. at 469–70;
see also Walker, 576 U.S. at 215–16. In Summum,
however,
the
Court
also
reasoned
that
“[p]ermanent monuments displayed on public
property typically represent government speech,” id.
at 470 (emphasis added), while contrasting
nontraditional forums that were compatible with
and intentionally designated for private speech, and
therefore subject to forum analysis. See 555 U.S. at
478, 480.
The importance of the permanent nature of
the monuments at issue in Summum was again
highlighted in Walker: “in Summum, we
emphasized
that
monuments
were
‘permanent,’ and we observed that public parks
can accommodate only a limited number of
permanent monuments.” Walker, 576 U.S. at
213–14. Indeed, the Court “believed that the speech
at issue was government speech” because it
“found it hard to imagine how a public park could be
opened up for the installation of permanent

31
monuments by every person or group.” Id.
(emphasis added).7
The Walker Court also highlighted some of the
other
nonexclusive
considerations
deemed
relevant to the government speech finding in
Summum, and in so doing clarified that Summum
did not provide a formulaic test for government
speech. See Walker, 576 U.S. at 210 (“In light of
these and a few other relevant considerations,
the Court concluded that the expression at issue was
government speech.” (emphasis added)), 213 (“That
is not to say that every element of our discussion
in [Summum] is relevant here.” (emphasis added));

Although this Court concluded the permanence factor
important in Summum was not relevant to the Texas specialty
license plates under consideration in Walker, see 576 U.S. at
213–214, it does not follow that the permanence factor is
irrelevant to the nature of the Boston Flag Poles forum as
posited by the First Circuit. See Shurtleff II, 986 F.3d at 90. If
Summum has any application at all to the instant case, then
the lack of permanence of the myriad private flags flown on the
City Hall Flag Poles militates against any government speech
finding. Compare United Veterans Memorial & Partiotic Ass’n
of the City of Rochelle v. City of New Rochelle, 72 F. Supp. 3d
468, 475 (S.D.N.Y. 2014) (“United Veterans’ flags are displayed
for long periods of time (until they become tattered) and then
promptly replaced [such that] their presence at the Armory is
nearly as constant as that of the park monuments in
Summum.” (emphasis added)), aff’d, 615 F. App’x 693 (2d Cir.
2015), with Wandering Dago, Inc. v. Destito, 879 F.3d 20, 35
(2d Cir. 2018) (“[D]rawing on the Court's reasoning
in Summum, which also involved the use of public land—we
find it significant that the food vendors participating in the
Lunch Program are a merely temporary feature of the
landscape, and quite visibly so.”).
7

32
cf. Matal v. Tam, 137 S. Ct. 1744, 1759 (2017)
(“Holding that the monuments in the park
represented government speech, we cited many
factors.” (emphasis added)).
Importantly, the Walker Court found no
intention by Texas to create a public forum in its
specialty license plate program because “the State
exercises final authority over each specialty license
plate design,” and “takes ownership of each
specialty plate design,” and because “license plates
have traditionally been used for government speech,
are primarily used as a form of government ID, and
bear the State’s name.” 576 U.S. at 216 (emphasis
added). Likewise, in Summum, the government
“took ownership of the monument,” “[a]ll rights
previously possessed by the monument’s donor
[were] relinquished,” and the government
maintained the permanent monuments placed in the
park. 555 U.S. at 473.
By contrast, Boston does not take ownership
and control of any private flag approved for a flag
raising, nor did Commissioner Rooney even look at
any proposed flag before approving it (or denying it
in Camp Constitution’s case). (App. 150a, 156a.)
Moreover, the City’s flag raising policies include a
critical component missing from Summum’s
permanent monument policy and Walker’s state
license plate policy: an express, written “public
forums” designation for “all applicants.” (App. 137a.)
Boston’s express statement of intent combined with
an unrebutted record of approving as many flag
raisers as apply compel both consideration—using
forum
analysis—of
whether
Boston
has

33
intentionally designated the Flag Poles as a public
forum for private expression, and the conclusion
that it did.8
By subjecting Camp Constitution’s requested
flag
raising
to
its
rigid,
“three-part
Summum/Walker test” for government speech in
the first instance, the First Circuit’s opinion conflicts
not only with this Court’s forum doctrine precedents
(see supra Pt. I.A..1), but also with Summum and
Walker because they disclaim any such formulaic
application of “the recently minted government
speech doctrine,” Summum, 555 U.S. at 481
(Stevens, J., concurring), and affirm that forum
The First Circuit’s error in disregarding forum analysis
was compounded by its fallacious conclusions based on madeup facts. For example, the court imagined that an up-close
observer of a flag raising would “see a city employee replace the
city flag with a third-party flag.” Shurtleff II, 986 F.3d at 88.
But Commissioner Rooney disclaimed any knowledge of
whether a city employee ever raised a private flag. (App. 191a.)
The court also imagined that “[a] faraway observer (one
without a view of the Plaza)” would necessarily attribute a
temporary private flag to the City because it would be flying
next to the U.S. and Massachusetts flags. 986 F.3d at 88–89.
But City Hall and other buildings surrounding the Plaza are
taller than the Flag Poles, so there is no realistic vantage point
from which an observer could see the private flag without also
seeing the associated flag raising event on the Plaza. (App.
161a.) Finally, it is a crime to “display[] the flag or emblem of
a foreign country upon the outside of a . . . city . . . building.”
Mass. Gen. Laws ch. 264, § 8. No reasonable observer of the
regular and frequent occurrence of foreign nations’ flags on the
Flag Poles would conclude Boston—the Capital City of the
Commonwealth—is violating the Commonwealth’s criminal
law, as opposed to merely accommodating the private speech of
the flag raising organizations.
8

34
doctrine applies to intentional designations of
government property for private speech.9 To be sure,
the First Circuit’s opinion expands the government
speech doctrine beyond its constitutional bounds.
See Matal v. Tam, 137 S. Ct. 1744, 1760 (2017)
(“Walker . . . likely marks the outer bounds of the
government speech doctrine.”). “[W]hile the
government-speech doctrine is important—indeed,
essential—it is a doctrine that is susceptible to
dangerous misuse. If private speech could be
passed off as government speech by simply
affixing a government seal of approval,
government could silence or muffle the
expression of disfavored viewpoints.” Matal,
137 S. Ct. at 1758 (emphasis added); cf. Walker, 576
U.S. at 221 (Alito, J., dissenting) (“The Court's
decision passes off private speech as government
speech and, in doing so, establishes a precedent that
threatens private speech that government finds
displeasing.”).
The First Circuit’s Opinion Conflicts
With This Court’s First Amendment
Precedents Regarding Viewpoint
Discrimination.
The final step of this Court’s forum analysis is
determining whether the government’s justification

The First Circuit ultimately paid lip service to forum
analysis, but with circular reasoning, having already
committed to its formulaic government speech finding. See
Shurtleff II, 986 F.3d at 93. (“[A] conclusion that the City has
designated the flagpole as a public forum ‘is precluded by our
government-speech finding.’”).
9

35
for exclusion of protected speech satisfies the
requisite standard based on the nature of the forum.
See Cornelius, 473 U.S. at 797. The First Circuit’s
opinion excusing the City’s exclusion of Camp
Constitution’s flag from the Flag Poles forum
conflicts with this Court’s First Amendment
precedents holding viewpoint discrimination in a
public forum unconstitutional.
Because the City’s explicit policies designate
the City Hall Flag Poles a “public forum” for private
expression (supra Pt. I.A.1.a), the City’s restrictions
on speech in that forum are subject to the same level
of First Amendment scrutiny applicable to
traditional public forums. See Summum, 555 U.S. at
479. Indeed, in a designated public forum,
“restrictions based on content must satisfy strict
scrutiny, and those based on viewpoint are
prohibited.” Minn. Voters All., 138 S. Ct. at 1885.
The City’s exclusion of Camp Constitution’s
“religious” flag from the Flag Poles forum is contrary
to long-standing precedent that religion is a
viewpoint on multiple subjects, and that the
exclusion of all religious speech on otherwise
permissible subjects is unconstitutional viewpoint
discrimination. See, e.g., Good News Club v. Milford
Cent. Sch., 533 U.S. 98, 112, n.4 (2001) (“Religion
is the viewpoint from which ideas are
conveyed. . . . [W]e see no reason to treat the Club's
use of religion as something other than a viewpoint
merely because of any evangelical message it
conveys.” (emphasis added)); Rosenberger v. Rector
& Visitors of the Univ. of Va., 515 U.S. 819, 831
(1995) (“[V]iewpoint discrimination is the proper

36
way to interpret the University’s objections to
[religion as a subject matter].”); Lamb’s Chapel v.
Ctr. Moriches Union Free Sch. Dist., 508 U.S. 384,
393–94 (1993) (holding exclusion of religious speech
from forum is viewpoint discrimination); cf.
Archdiocese of Washington v. Washington Metro.
Area Transit Auth., 140 S. Ct. 1198, 1199 (2020)
(statement of Gorsuch, J.) (“[O]nce the government
allows a subject to be discussed, it cannot silence
religious views on that topic.”).
Here, the City’s reason for denying Camp
Constitution’s flag raising event was precisely and
only because the City deemed the flag
objectionable because it was called a
“Christian flag” on the application (App. 150a–
151a, 153a–156a), even though Camp Constitution’s
purpose—to commemorate the contributions of one
of Boston’s diverse communities to the City and the
Commonwealth—otherwise fit perfectly with the
City’s express purposes for allowing flag raisings on
the City Hall Flag Poles (App. 130a–131a, 143a).
The flag itself was not objectionable to
Rooney, but the word “Christian” on the
application triggered the denial. (App. 155a–
156a.) If the flag had not been referred to as
“Christian,” Rooney would have approved it.
(Id.) Given that religion is itself a viewpoint from
which other subjects are discussed, see Good News
Club, 533 U.S. at 112 and n.4, the City’s denial of
Camp Constitution’s application was viewpoint
discrimination and unconstitutional in any forum.

37
The First Circuit’s Opinion Conflicts
With This Court’s First Amendment
Precedents Requiring Content-Based
Speech Restrictions to Satisfy Strict
Scrutiny.
Even if the City’s exclusion of Camp
Constitution’s flag from the designated Flag Poles
forum was not viewpoint discriminatory (which it
was), the City’s restriction of Camp Constitution’s
religious speech was content based. The First
Circuit’s excusal of the City’s content-based
discrimination without subjecting it to strict
scrutiny conflicts with this Court’s First
Amendment precedents.
“Content-based laws—those that target speech
on its communicative content—are presumptively
unconstitutional and may be justified only if the
government proves that they are narrowly tailored
to serve compelling government interests.” Reed v.
Town of Gilbert, 576 U.S. 155, 163 (2015). Such strict
scrutiny is “the most demanding test known to
constitutional law,” City of Boerne v. Flores, 521 US.
507, 534 (1997), which is rarely passed. See Burson
v. Freeman, 504 U.S. 191, 200 (1992).
The City’s sole reason for denying Camp
Constitution’s flag raising was because the City
deemed the message communicated by Camp
Constitution’s flag to be religious. (App. 150a–151a,
153a–156a.) “Regulation of the subject matter of
messages, though not as obnoxious as viewpointbased regulations, is also an objectionable form of
content-based regulation.” Hill v. Colorado, 530 U.S.

38
703, 721 (2000). Even if Camp Constitution’s request
was not denied based on the Christian viewpoint of
its flag raising event (which it was; see supra Part
I.B), it undoubtedly was denied based on the
religious “subject matter” of its flag, which is a
content-based restriction on speech that is
presumptively unconstitutional and subject to strict
scrutiny. In his denial, Rooney stated he would only
approve “non-religious” flags. (App. 153a–154a.)
It is the City’s burden to prove narrow tailoring
under strict scrutiny. See, McCullen v. Coakley, 573
U.S. 464, 495 (2014); Ariz. Free Enterprise Club’s
Freedom Club PAC v. Bennett, 564 U.S. 721, 734
(2011); United States v. Playboy Entm’t Grp., Inc.,
529 U.S. 803, 816 (2000). The City cannot because,
even if it could articulate a compelling interest for
censoring private religious speech (which it cannot),
the City’s exclusion of private religious speech from
its Flag Poles forum otherwise open to “all
applicants” would still fail strict scrutiny because
the City’s policies and actions are not narrowly
tailored. “It is not enough to show that the
Government’s ends are compelling; the means must
be carefully tailored to achieve those ends.” Sable
Commc’ns of Cal., Inc. v. FCC, 492 U.S. 115, 126
(1989). “Because First Amendment freedoms need
breathing space to survive, government may
regulate in the area only with narrow specificity.”
NAACP v. Button, 371 U.S. 415, 433 (1963). Total
prohibitions on constitutionally protected speech are
substantially broader than any conceivable
government interest could justify. See Bd. of Airport
Comm’rs of City of L.A. v. Jews for Jesus, Inc., 482
U.S. 569, 574 (1987). A narrowly tailored regulation

39
of speech is one that achieves the government’s
interest “without unnecessarily interfering with
First Amendment freedoms.” Sable Commc’ns, 492
U.S. at 126. By prohibiting all “non-secular speech”
(App. 153a–156a), the City’s policies and practices
completely prohibit and unnecessarily interfere with
the speech of religious organizations. Such policies
are not narrowly tailored and therefore cannot pass
strict scrutiny.
The First Circuit’s Opinion Conflicts
With This Court’s Precedents Holding
That the Establishment Clause Is Not
a Defense to Private Speech In a
Public Forum.
The City’s ostensible interest in avoiding an
Establishment Clause violation provides no
compelling interest justifying its prohibiting private
speech in a public forum otherwise open to all
comers. The First Circuit’s opinion excusing the
City’s censorship of Camp Constitution’s religious
speech on Establishment Clause grounds conflicts
with these precedents.
“It does not violate the Establishment Clause
for a public university to grant access to its facilities
on a religion-neutral basis to a wide spectrum of
student groups, including groups that use meeting
rooms for sectarian activities, accompanied by
some devotional exercises.” Rosenberger, 515 U.S. at
842 (emphasis added); see also Good News Club, 533
U.S. at 114–15. The same is true of Boston’s
designated Flag Poles forum that has been made
generally available to a wide spectrum of private

40
organizations
expressing
private
messages
associated with their private events. “[T]here is a
crucial
difference
between government speech
endorsing religion, which the Establishment Clause
forbids, and private speech endorsing religion,
which the Free Speech and Free Exercise Clauses
protect. Bd. of Educ. of Westside Cmty. Sch. v.
Mergens, 496 U.S. 226, 250 (1990).
Moreover, “a significant factor in upholding
governmental programs in the face of an
Establishment Clause attack is their neutrality
towards religion.” Rosenberger, 515 U.S. at 839
(emphasis added). Such a “guarantee of neutrality is
respected, not offended, when the government,
following neutral criteria and evenhanded policies,
extends benefits to recipients whose ideologies and
viewpoints, including religious ones, are broad
and diverse.” Id. (emphasis added).
The Establishment Clause simply provides no
justification for suppressing the religious content of
Camp Constitution’s speech in a forum that is
available to similarly situated private speakers and
organizations expressing content from non-religious
perspectives. See id. (noting this Court has “rejected
the position that the Establishment Clause even
justifies, much less requires, a refusal to extend free
speech rights to religious speakers who participate
in broad-reaching governmental programs neutral
in design”). The City Hall Flag Poles are available to
a broad range of speakers on a variety of topics, as
at least 284 different applications were approved
without any denial before Camp Constitution’s
application. (App. 142a–143a, 149a.) Thus, the

41
City’s pretextual interest in avoiding an
Establishment Clause violation by granting equal
access to Camp Constitution on a neutral basis is not
compelling or even legitimate. The First Circuit’s
opinion acceding to the City’s Establishment Clause
excuse conflicts with this Court’s precedents, supra.
THE FIRST CIRCUIT’S FAILURE TO
APPLY FORUM ANALYSIS TO THE
CITY’S
POLICY
AND
PRACTICE
INTENTIONALLY
CREATING
A
DESIGNATED PUBLIC FORUM AT THE
CITY HALL FLAG POLES, THEREBY
EXCUSING THE CITY’S VIEWPOINT AND
CONTENT-BASED
CENSORSHIP
IN
RELIANCE ON THE ESTABLISHMENT
CLAUSE, CONFLICTS WITH THE FIRST
AMENDMENT DECISIONS OF NEARLY
EVERY OTHER CIRCUIT.
A.

The First Circuit’s Opinion Conflicts
With the Second, Eighth, and Ninth
Circuits Regarding Application of the
First Amendment Forum Doctrine.

The First Circuit’s pinning its government
speech finding on the City’s purely perfunctory
review of flag raising applications (with no review of
the flags themselves) conflicts with the forum
doctrine precedents of the Second, Eighth, and
Ninth Circuits. Noting that Matal v. Tam, 137 S. Ct.
1744 (2017), limited Summum and Walker, the
Second and Ninth Circuits refused to allow the
government speech doctrine to swallow up private
speech. See New Hope Family Servs., Inc. v. Poole,

42
966 F.3d 145 (2d Cir. 2020) (“[T]he mere fact that
government authorizes, approves, or licenses certain
conduct does not transform the speech engaged
therein into government speech.”); Wandering Dago,
Inc. v. Destito, 879 F.3d 20, 34 (2d Cir. 2018)
(“[S]peech that is otherwise private does not become
speech of the government merely because the
government provides a forum for the speech or in
some ways allows or facilitates it.”); Eagle Point
Educ. Ass'n/SOBC/OEA v. Jackson Cnty. Sch. Dist.
No. 9, 880 F.3d 1097, 1104–05 (9th Cir. 2018) (“The
District's position would authorize any government
to block the expression of views on government
property that did not match the government's own
favored position . . . . The government speech
doctrine has not so swallowed the First
Amendment.”)
Although preceding Matal, the Eighth Circuit
correctly distinguished between government and
private speech. See Robb v. Hungerbeeler, 370 F.3d
735, 744–745 (8th Cir. 2004) (holding adopt-ahighway signs displaying applicant’s name not
government speech though created and placed by
state at applicant’s request).
B.

The First Circuit’s Opinion Conflicts
With the Second, Third, Fourth, Sixth,
Seventh, Eighth, Ninth, and Tenth
Circuits Regarding Viewpoint and
Content-Based
Discrimination
Against Protected Speech.

The First Circuit’s excusal of the City’s
viewpoint
discrimination
against
Camp

43
Constitution’s religious flag conflicts with the
precedents of the Second, Third, Fourth, Sixth,
Seventh, Eighth, Ninth, and Tenth Circuits holding
that exclusion of religious speech from a neutral
forum is viewpoint discrimination, which is “an
egregious form of content discrimination.”
Rosenberger v. Rector & Visitors of Univ. of Va., 515
U.S. 819, 829 (1995). See, e.g., Byrne v. Rutledge, 623
F.3d 46, 55 (2d Cir. 2010) (“[O]ur task here is greatly
simplified by a trilogy of Supreme Court decisions
each addressing blanket bans on religious messages
and each concluding that such bans constitute
impermissible viewpoint discrimination.”); Child
Evangelism Fellowship of N.J., Inc. v. Stafford Twp.
Sch. Dist., 386 F.3d 514 (3d Cir. 2004) (excluding
religious perspective from otherwise available forum
is unconstitutional viewpoint discrimination); Child
Evangelism Fellowship of Md., Inc. v. Montgomery
Cnty. Pub. Sch., 373 F.3d 589, 593-94 (4th Cir. 2004)
(same); Americans United for Separation of Church
& State v. City of Grand Rapids, 980 F.2d 1538 (6th
Cir. 1992) (noting religion itself is a viewpoint);
Grossbaum v. Indianapolis-Marion Cnty. Bldg.
Auth., 63 F.3d 581, 590 (7th Cir. 1995) (“Any
lingering doubts about whether the religious
displays prohibited by the Policy are properly
characterized as ‘viewpoint’ rather than ‘subject
matter’ have been dispelled by . . . Rosenberger . . .
.”); Child Evangelism Fellowship of Minn. v.
Minneapolis Special Sch. Dist. No. 1, 690 F.3d 996
(8th Cir. 2012) (excluding religious club from
facilities use program was unconstitutional
viewpoint discrimination); Hills v. Scottsdale
Unified Sch. Dist. No. 48, 329 F.3d 1044, 1051–52

44
(9th Cir. 2003) (holding religion itself is a viewpoint
and discriminating against religious perspective on
otherwise permissible subject matter is viewpoint
discrimination); Church on the Rock v. City of
Albuquerque, 84 F.3d 1273, 1279-80 (10th Cir. 1996)
(discrimination against religious group’s speech in a
government-opened
forum
is
impermissible
viewpoint discrimination).
C.

The First Circuit’s Opinion Conflicts
With the Decisions of the Fourth,
Sixth, Seventh, Eighth, and Eleventh
Circuits Holding the Establishment
Clause Is No Defense to Viewpoint or
Content-Based
Discrimination
Against Protected Speech.

The First Circuit’s acceding to the City’s
asserted Establish Clause rationale for excluding
Camp Constitution’s religious flag from the Flag
Poles forum conflicts with the decisions of the
Fourth, Sixth, Seventh, Eighth, and Eleventh
Circuits. See, e.g., Peck v. Upshur Cnty. Bd. of Educ.,
155 F.3d 274, 284 (4th Cir. 1998) (holding
Establishment Clause does not justify exclusion of
religious speech from otherwise neutral forum
created by government); Americans United for
Separation of Church & State v. City of Grand
Rapids, 980 F.2d 1538, 1542 (6th Cir. 1992) (holding
Establishment Clause “may not be used as a sword
to justify repression of religion or its adherents from
any aspect of public life”); Grossbaum v.
Indianapolis-Marion Cnty. Bldg. Auth., 63 F.3d 581,
592–93 (7th Cir. 1995) (holding Establishment
Clause does not justify exclusion of religious speech

45
from otherwise neutral forum created by
government); Good News/Good Sports Club v. Sch.
Dist. City of Ladue, 28 F.3d 1501, 1508–10 (8th Cir.
1994) (holding Establishment Clause does not
justify
religious
viewpoint
discrimination);
Lubavitch of Ga. v. Miller, 5 F.3d 1383, 1389 (11th
Cir. 1993) (holding Establishment Clause does not
justify exclusion of religious speech from otherwise
neutral forum created by government).
CONCLUSION
The First Circuit’s decision disregards this
Court’s First Amendment forum doctrine and
unconstitutionally expands the government speech
doctrine, in direct conflict with this Court’s
precedents and the precedents of nearly every other
Circuit. The City’s exclusion of Camp Constitution’s
flag (solely because it was referred to as “Christian”
on the application) from its designated Flag Poles
forum, which is otherwise open to all comers,
violates the First Amendment and is not justified by
the Establishment Clause. For all these reasons, the
Petition should be granted.
Dated this June 21, 2021.

46
Respectfully submitted,
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

APPENDIX

1a
FIRST CIRCUIT OPINION AFFIRMING
SUMMARY JUDGMENT FOR RESPONDENTS
AND DENIAL OF SUMMARY JUDGMENT
FOR PETITIONERS,
FILED JANUARY 22, 2021
986 F.3d 78
United States Court of Appeals, First Circuit.
Harold SHURTLEFF and Camp Constitution, a
public charitable trust, Plaintiffs, Appellants,
v.
CITY OF BOSTON and Gregory T. Rooney, in his
Official Capacity as Commissioner of the City of
Boston Property Management Division,
Defendants, Appellees.
No. 20-1158
|
January 22, 2021
*81 APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS, [Hon. Denise J. Casper, U.S.
District Judge]
Attorneys and Law Firms
Mathew D. Staver, Orlando, FL, with whom Horatio
G. Mihet, Roger K. Gannam, Jacksonville, FL,
Daniel J. Schmid, and Liberty Counsel were on brief,
for appellants.
Robert Arcangeli, Assistant Corporation Counsel,
with whom Eugene L. O’Flaherty, Corporation
Counsel, was on brief, for appellees.

2a
Alex J. Luchenitser, Richard B. Katskee, Patrick
Grubel, Steven M. Freeman, David L. Barkey, New
York, NY, Amy E. Feinman, Cindy Nesbit, and
Monica Miller on brief for Americans United for
Separation of Church and State; Anti-Defamation
League; American Humanist Association; Central
Conference of American Rabbis; Covenant Network
of Presbyterians; Global Justice Institute; Hindu
American Foundation; Maine Conference, United
Church of Christ; Men of Reform Judaism;
Methodist Federation For Social Action; National
Council of Jewish Women; New Hampshire
Conference, United Church of Christ; People for the
American Way Foundation; Reconstructionist
Rabbinical Association; The Sikh Coalition;
Southern New England Conference, United Church
of Christ; Union for Reform Judaism; and Women of
Reform Judaism, amici curiae.
Before Lynch, Selya, and Lipez, Circuit Judges.
Opinion
SELYA, Circuit Judge.
*82 This case comes before us for a second time,
albeit in a different posture. The issues are much the
same, though presented in sharper focus on a betterdeveloped record. As such, they conjure up what
might be described, in a turn of phrase popularly
attributed to Lawrence “Yogi” Berra, as a sense of
“déjà vu all over again.”1

3a
1

We say “popularly attributed to” because at least one
scholar has declared that “although this [phrase] is
commonly cited as a ‘Berra-ism,’ Yogi Berra denies ever
saying it.” Ralph Keyes, “Nice Guys Finish Seventh”: False
Phrases, Spurious Sayings, and Familiar Misquotations
152 (1992).

The case has its genesis in a suit filed by plaintiffs
Harold Shurtleff and Camp Constitution in which
they complained that the defendants — the City of
Boston and Gregory T. Rooney, in his official
capacity as Commissioner of Boston’s Property
Management Department (collectively, the City) —
trampled their constitutional rights by refusing to
fly a pennant, openly acknowledged by the plaintiffs
to be a “Christian Flag,” from a flagpole at Boston
City Hall. The district court granted summary
judgment in favor of the City. See Shurtleff v. City
of Bos. (Shurtleff III), No. 18-CV-11417, –––
F.Supp.3d ––––, ––––, 2020 WL 555248, at *6 (D.
Mass. Feb. 4, 2020). Concluding, as we do, that the
government speech doctrine bars the maintenance of
the plaintiffs’ free speech claims and that their
remaining claims under the Establishment Clause
and the Equal Protection Clause lack bite, we affirm.
I. BACKGROUND
We begin by rehearsing the relevant facts (most of
which are undisputed, though the inferences from
them are not) and the travel of the case. The City
owns and manages three flagpoles in an area in front
of City Hall referred to as City Hall Plaza. The three
flagpoles are each approximately eighty-three feet
tall and are prominently located in front of the

4a
entrance to City Hall — the seat of Boston’s
municipal government. Ordinarily, the City raises
the United States flag and the POW/MIA flag on one
flagpole, the Commonwealth of Massachusetts flag
on the second flagpole, and its own flag on the third
flagpole. Upon request and after approval, though,
the City will from time to *83 time replace its flag
with another flag for a limited period of time.
Such requests are typically made by a third party in
connection with an event taking place within the
immediate area of the flagpoles. In welcoming these
third-party banners, the City’s website proclaims
that the City seeks to “commemorate flags from
many countries and communities at Boston City
Hall Plaza during the year” (emphasis in original).
The opportunity to display these kinds of flags was
created in order to establish “an environment in the
City where everyone feels included, ... to raise
awareness in Greater Boston and beyond about the
many countries and cultures around the world[, and]
to foster diversity and build and strengthen
connections among Boston’s many communities.”
In addition to these flag-raisings, the City also
allows organizations to hold events in several
locations near City Hall. Endeavoring to educate
those who may be interested in hosting such an
event, the City has published event guidelines on its
website. The guidelines make clear that people need
the City’s permission to hold events at City-owned
properties and direct interested parties to an
application form.

5a
The application form (which is available either
online or as a document) allows applicants to
designate the location at which they wish to hold an
event, listing six options: Faneuil Hall, Sam Adams
Park, City Hall Plaza, the City Hall Lobby, the City
Hall Flag Poles, and the North Stage. Although
those interested in hosting a flag-raising event must
submit an application form, neither the electronic
nor the written version of the form mentions the
option of raising a flag on any of the City’s three
flagpoles.
Once the City receives an application, its policy and
practice are to perform an initial review. The
purpose of this review is in part to ensure that there
are no conflicting events occupying the same space,
that the application is complete and accurately
describes the proposed event, that the event would
not endanger the public, and that other
administrative requirements have been satisfied.
The obligation to review and act upon applications
falls into Rooney’s domain. Before a flag-raising
event is approved, Rooney must determine that the
City’s decision to raise a flag is consistent with the
City’s message, policies, and practices. Each
applicant submits a short description of the flag that
it wishes to hoist (e.g., “Portuguese Flag”), and it is
Rooney’s invariable practice to act upon the flagraising request without seeing the actual flag. The
record makes manifest that Rooney has never
sought to look at a flag before approving an
application. If Rooney concludes that the event
meets the City’s standards, he then approves the

6a
flag-raising event. And if a flag-raising event is
disapproved, the City offers the applicant the
opportunity to hold the proposed event, without the
flag-raising, either at City Hall Plaza or at some
other location.
In a twelve-year period (from June 2005 through
June 2017), the City approved 284 flag-raising
events that implicated its third flagpole. These
events were in connection with ethnic and other
cultural celebrations, the arrival of dignitaries from
other countries, the commemoration of historic
events in other countries, and the celebration of
certain causes (such as “gay pride”). The City also
has raised on its third flagpole the flags of other
countries, including Albania, Brazil, Ethiopia, Italy,
Panama, Peru, Portugal, Mexico, as well as China,
Cuba, and Turkey. So, too, it has raised the flags of
Puerto Rico and private organizations, such as the
Chinese
Progressive
Association,
National
Juneteenth Observance Foundation, Bunker Hill
Association, *84 and Boston Pride. Broadly
speaking, we group these approvals as approvals for
“the flags of countries, civic organizations, or secular
causes.”
Against this backdrop, we introduce the plaintiffs.
Camp Constitution is an all-volunteer association
that seeks “to enhance understanding of the
country’s Judeo-Christian moral heritage.” Shurtleff
is the founder and director of Camp Constitution. In
July of 2017, the plaintiffs emailed Lisa Menino, the
City’s senior special events official, seeking leave to
fly their own flag over City Hall Plaza. In their

7a
words, the proposed event would “raise the
Christian Flag” and feature “short speeches by some
local clergy focusing on Boston’s history.”
At the time of this request, the City had no written
policy for handling flag-raising applications. What is
more, Rooney had never before denied a flag-raising
application. On this occasion, though, the plaintiffs’
request “concerned” Rooney because he considered it
to be the first request he had received related to a
religious flag.
Of course, some of the flags that the City had raised
contained religious imagery. The Portuguese flag,
for instance, contains “dots inside blue shields
represent[ing] the five wounds of Christ when
crucified” and “thirty dots that represent[ ] [sic] the
coins Judas received for having betrayed Christ.” As
another example, the Turkish flag situates the star
and crescent of the Islamic Ottoman Empire in white
against a red background. Indeed, the City’s own
flag includes a Latin inscription, which translates as
“God be with us as he was with our fathers.” None of
the flags that the City had previously approved,
however, came with a religious description.
Mulling the plaintiffs’ application, Rooney
conducted a review of past flag-raising requests and
determined that the City had no past practice of
flying a religious flag. He proceeded to deny the
plaintiffs’ flag-raising request. In response to the
plaintiffs’ inquiry into the reason for the denial,
Rooney responded that the City’s policy was to
refrain respectfully from flying non-secular third-

8a
party flags in accordance with the First
Amendment’s
prohibition
of
government
establishment of religion. Rooney offered to fly some
non-religious flag instead. The plaintiffs spurned
this offer.
In September of 2017, Shurtleff once again
requested permission for a flag-raising event at City
Hall Plaza. This time, he submitted a flag-raising
application that titled the event as “Camp
Constitution Christian Flag Raising.” The event,
which was intended to “[c]elebrate and recognize the
contributions Boston’s Christian community has
made to our city’s cultural diversity, intellectual
capital and economic growth,” would feature three
speakers: Reverend Steve Craft (who would speak
on the need for racial reconciliation), Pastor William
Levi (who would speak on “the blessings of religious
freedom in the U.S.”), and Shurtleff himself (who
would present a Boston-centric historical overview).
Believing that its response to the plaintiffs’ first
flag-raising request was self-explanatory, the City
chose not to respond further.
About a year later, the City embodied its past policy
and practice in a written Flag Raising Policy. This
policy includes seven flag raising rules, the first of
which forbids the “display [of] flags deemed to be
inappropriate or offensive in nature or those
supporting discrimination, prejudice, or religious
movements.”
On July 6, 2018 — roughly three months before the
City adopted its written Flag Raising Policy — the

9a
plaintiffs sued the City in the federal district court,
seeking injunctive relief, a declaratory judgment,
*85 and money damages. Three days later, they
moved for a preliminary injunction. The district
court denied the plaintiffs’ motion, see Shurtleff v.
City of Bos. (Shurtleff I), 337 F. Supp. 3d 66 (D.
Mass. 2018), and we affirmed, see Shurtleff v. City
of Bos. (Shurtleff II), 928 F.3d 166 (1st Cir. 2019).
Back in the district court, the parties conducted
discovery and eventually cross-moved for summary
judgment. The district court heard arguments and,
in a comprehensive rescript, granted the City’s
motion and denied the plaintiffs’ cross-motion. See
Shurtleff III, ––– F.Supp. 3d at ––––, 2020 WL
555248, at *6. This timely appeal followed.
II. ANALYSIS
The plaintiffs assign error to the district court’s
grant of summary judgment. Specifically, they
challenge the court’s holding that the City’s display
of third-party flags on the City Hall flagpole
constitutes government speech, not subject to most
First Amendment restrictions. In their view, the
City’s flagpoles comprise a public forum, thus
consigning the City’s content-based restriction of
plaintiffs’ speech to strict scrutiny (which they say
the restriction cannot pass). Relatedly, they contend
that the City’s permitting process for the raising of
third-party flags vests in government officials
unbridled discretion to approve and deny protected
speech and, thus, imposes an unconstitutional prior
restraint on speech. Finally, they contend that the
City’s refusal to fly a religious flag transgresses both
the Establishment Clause and the Equal Protection

10a
Clause.
The City urges us to reject each and all of these
contentions and simply to affirm the district court’s
rulings. It is joined by a group of amici, who have
filed a helpful brief in support of the judgment
below.
We afford de novo review to a district court’s entry
of summary judgment. See Dávila v. Corporación De
P.R. Para La Difusión Pública, 498 F.3d 9, 12 (1st
Cir. 2007). In conducting this tamisage, we assess
the facts in the light most flattering to the
nonmovants (here, the plaintiffs) and draw all
reasonable inferences to their behoof. See id.
Summary judgment is appropriate only when the
record demonstrates that there is no genuine issue
as to any material fact and confirms that the
movants are entitled to judgment as a matter of law.
See Morelli v. Webster, 552 F.3d 12, 18 (1st Cir.
2009). That cross-motions for summary judgment
were simultaneously adjudicated by the district
court does not alter the applicable standards of
review. See Blackie v. Maine, 75 F.3d 716, 720-21
(1st Cir. 1996).
With these parameters in place, we turn to the
plaintiffs’ asseverational array, taking their
arguments sequentially. At the outset, though, we
pause to say a few words about the relevance of our
earlier opinion (Shurtleff II).

11a
A. Our Earlier Opinion.
We think it useful to center our Shurtleff II opinion
within the preliminary injunction framework. That
framework anticipates a four-part inquiry, see Corp.
Techs., Inc. v. Harnett, 731 F.3d 6, 9 (1st Cir. 2013);
Ross-Simons of Warwick, Inc. v. Baccarat, Inc., 102
F.3d 12, 15 (1st Cir. 1996), requiring a district court
to evaluate “the movant’s likelihood of success on the
merits; whether and to what extent the movant will
suffer irreparable harm in the absence of
preliminary injunctive relief; the balance of relative
hardships, that is, the hardship to the nonmovant if
enjoined as opposed to the hardship to the movant if
no injunction issues; and the effect, if any, that
either a preliminary injunction or the absence of one
will have on the public interest,” Ryan v. U.S.
Immig. & Customs Enf’t, 974 F.3d 9, 18 (1st Cir.
2020). *86 Among these four factors, “[t]he movant’s
likelihood of success on the merits weighs most
heavily in the preliminary injunction calculus.” Id.
As we have explained, “[i]f the movant ‘cannot
demonstrate that he is likely to succeed in his quest,
the remaining factors become matters of idle
curiosity.’ ” Id. (quoting New Comm Wireless Servs.,
Inc. v. SprintCom, Inc., 287 F.3d 1, 9 (1st Cir. 2002)).
In Shurtleff I, the district court denied the plaintiffs’
threshold motion for a preliminary injunction. See
337 F. Supp. 3d at 79. The court determined, among
other things, that the plaintiffs had not shown a
likelihood of succeeding on the merits of their claims.
See id. at 78. On appeal, we affirmed this
determination, concluding that the district court’s
appraisal was not an abuse of discretion. See

12a
Shurtleff II, 928 F.3d at 171.
The fact that Shurtleff II upheld the district court’s
determination that the plaintiffs were unlikely to
prevail on the same claims that they now pursue is
not determinative of either the issues that were
before the district court in Shurtleff III or the issues
that confront us here. There is, after all, a salient
distinction between a decision granting or denying a
preliminary injunction and a final decision on the
merits (such as the entry of summary judgment). At
the preliminary injunction stage, “an inquiring court
need not conclusively determine the merits of the
movant’s claim; it is enough for the court simply to
evaluate the likelihood vel non that the movant
ultimately will prevail on the merits.” Ryan, 974
F.3d at 18.
Here, however, the appealed decision is one on the
merits. In Shurtleff III, the district court had to
determine whether the City had shown that there
were no genuine issues of material fact and, if so,
that it was entitled to judgment as a matter of law.
See Morelli, 552 F.3d at 18. Moreover, the court had
to make this determination on a record that was
considerably better developed than the record
available to it at the preliminary injunction stage.
See Univ. of Tex. v. Camenisch, 451 U.S. 390, 39596, 101 S.Ct. 1830, 68 L.Ed.2d 175 (1981). Thus, our
decision in Shurtleff II, which was at most a
validation of the district court’s prediction of
probable outcomes, see Jimenez Fuentes v. Torres
Gaztambide, 807 F.2d 236, 238 (1st Cir. 1986), could
inform the district court’s subsequent summary

13a
judgment decision but could not control it, see Univ.
of Tex., 451 U.S. at 395, 101 S.Ct. 1830.
Shurtleff II relates to the current appeal in the same
way. That decision, therefore, does not determine
the outcome of this merits appeal. See id. We proceed
accordingly.
B. The Free Speech Claims.
The plaintiffs’ most loudly bruited argument is that
the Free Speech Clause of the First Amendment
does not permit the City to display a plethora of
third-party flags in front of City Hall while refusing
to display the Christian Flag proffered by the
plaintiffs. The district court determined that this
group of claims was foreclosed by the government
speech doctrine, see Shurtleff III, ––– F.Supp.3d at
––––, 2020 WL 555248, at *5, and so do we.
The proposition that the plaintiffs’ free speech
claims rise or fall on the classification of the
challenged speech is uncontroversial. Even though
the First Amendment restricts government
regulation of private speech in governmentdesignated public forums, such restrictions do not
apply to government speech. See Pleasant Grove
City v. Summum, 555 U.S. 460, 467, 129 S.Ct. 1125,
172 L.Ed.2d 853 (2009) (“The Free Speech Clause
restricts government regulation of private speech; it
*87 does not regulate government speech.”); Walker
v. Tex. Div., Sons of Confederate Veterans, Inc., 576
U.S. 200, 215, 135 S.Ct. 2239, 192 L.Ed.2d 274
(2015) (“[When] the State is speaking on its own

14a
behalf, the First Amendment strictures that attend
the various types of government-established forums
do not apply.”). Here, the classification of the speech
in question is pivotal — but before attempting to
resolve this classification inquiry, we map the
relevant contours of the government speech
doctrine.
Two cases chiefly inform the configuration of this
map. In Summum, the Supreme Court considered
whether “the Free Speech Clause of the First
Amendment entitles a private group to insist that a
municipality permit it to place a permanent
monument in a city park in which other donated
monuments were previously erected.” 555 U.S. at
464, 129 S.Ct. 1125. The respondent, a religious
organization, sought leave from the city to erect a
monument that would contain “the Seven
Aphorisms of SUMMUM,” which the respondent
said would be similar “in size and nature to the Ten
Commandments monument” then in place at the city
park. Id. at 465, 129 S.Ct. 1125. The city denied the
respondent’s request, and the respondent sued
(alleging an abridgment of the right to free speech).
See id. at 465-66, 129 S.Ct. 1125. The Court upheld
the city’s decision, ruling that because the display of
“a permanent monument in a public park ... is best
viewed as a form of government speech,” such a
display is “not subject to scrutiny under the Free
Speech Clause.” Id. at 464, 129 S.Ct. 1125.
In determining that the placement of such a
monument in a city-owned park constituted
government speech, the Summum Court relied

15a
primarily on three factors. First, the Court focused
on the history of governmental use of monuments,
explaining that “[g]overnments have long used
monuments to speak to the public” and that “[w]hen
a government entity arranges for the construction of
a monument, it does so because it wishes to convey
some thought or instill some feeling in those who see
the structure.” Id. at 470, 129 S.Ct. 1125. Second, the
Court considered whether the message conveyed by
the monuments would be ascribed to the
government. Id. at 471, 129 S.Ct. 1125. The Court
concluded that, in the city-park context, “there is
little chance” that observers will fail to identify the
government as the speaker. Id. Third, and finally,
the Court considered the fact that the municipality
“effectively controlled” the messages sent by the
monuments because it exercised “final approval
authority over their selection.” Id. at 473, 129 S.Ct.
1125. Giving weight to these factors, the Court
determined that the erection of privately donated
monuments in a city park constituted government
speech. See id. at 472-73, 129 S.Ct. 1125.
A few years later, the Court revisited the
government speech doctrine. In Walker, the issue
was whether the rejection of a “specialty license
plate design featuring a Confederate battle flag” by
the Texas Department of Motor Vehicles “violated
the Constitution’s free speech guarantees.” 576 U.S.
at 203-04, 135 S.Ct. 2239. Concluding that specialty
license plates convey government speech, the Court
held that Texas was “entitled to refuse to issue
plates” that featured the proffered design. Id. at 21920, 135 S.Ct. 2239. In reaching this conclusion, the

16a
Court again employed
developed in Summum.

the

three-factor

test

The Walker Court began by examining the history of
the use of the medium by the government, then
inquired into how closely the public identified the
medium with the government, and went on to assay
the degree of control the government *88
maintained over the message conveyed. See id. at
210-13, 135 S.Ct. 2239. In traveling down this path,
the Court first found that license plates “long have
communicated messages from the States.” Id. at 211,
135 S.Ct. 2239. Next, it found that the public
reasonably interprets license plates as conveying a
message on the state’s behalf both because the
plates bear “the name ‘TEXAS’ in large letters” and
because the state mandates vehicle owners to
display the plate, owns all license plate designs, and
dictates the manner in which vehicle owners may
dispose of the plates. Id. at 212, 135 S.Ct. 2239.
Finally, the Court found that the state “effectively
controlled” the messages conveyed on the license
plates because it retained “final approval authority.”
Id. at 213, 135 S.Ct. 2239. These three factors, taken
together, led inexorably to the conclusion that the
challenged speech constituted government speech.
See id.
The three-part Summum/Walker test is controlling
here. Mindful that the Court has indicated that
Walker “likely marks the outer bounds of the
government-speech doctrine,” Matal v. Tam, –––
U.S. ––––, 137 S. Ct. 1744, 1760, 198 L.Ed.2d 366
(2017), we turn to whether the speech at issue falls

17a
within those bounds.
We start by looking at the historical use of flags by
the government. The parties do not gainsay that
governments have used flags throughout history to
communicate messages and ideas. See, e.g., W. Va.
State Bd. of Educ. v. Barnette, 319 U.S. 624, 632, 63
S.Ct. 1178, 87 L.Ed. 1628 (1943) (“The use of an
emblem or flag to symbolize some system, idea,
institution, or personality, is a short cut from mind
to mind.”); Griffin v. Sec’y of Veterans Affs., 288 F.3d
1309, 1324 (Fed. Cir. 2002) (“We have no doubt that
the government engages in speech when it flies its
own flags over a national cemetery, and that its
choice of which flags to fly may favor one viewpoint
over another.”). Flags themselves have the capacity
to communicate messages pertaining to, say, a
government’s identity, values, or military strength.
See Shurtleff II, 928 F.3d at 173 n.4. Cf. Summum,
555 U.S. at 470, 129 S.Ct. 1125 (“Governments have
long used monuments ... to remind their subjects of
their authority and power[,] ... to commemorate
military victories and sacrifices and other events of
civic importance [or] to convey some thought or
instill some feeling in those who see the structure.”).
That a government flies a flag as a “symbolic act”
and signal of a greater message to the public is
indisputable. See Shurtleff II, 928 F.3d at 173.
With respect to the issue of whether an observer
would attribute the message of a third-party flag on
the City’s third flagpole to the City, we found it likely
the last time around that such an attribution would
take place. See id. The record has since evolved, and

18a
these evolutionary changes bolster our earlier
conclusion. As we previously noted, an observer
would arrive in front of City Hall, “the entrance to
Boston’s seat of government.” Id. at 174. She would
then see a city employee replace the city flag with a
third-party flag and turn the crank until the thirdparty flag joins the United States flag and the
Massachusetts flag, both “powerful governmental
symbols,” in the sky (eighty-three feet above the
ground). Id. A faraway observer (one without a view
of the Plaza) would see those three flags waiving in
unison, side-by-side, from matching flagpoles.
That the third-party flag is part of a broader display
cannot be understated. As the Summum Court
explained, the manner in which speech is presented,
including the incorporation of other monuments in
the
vicinity,
changes
the
message
*89
communicated. See 555 U.S. at 477, 129 S.Ct. 1125.
Here, the three flags are meant to be — and in fact
are — viewed together. The sky-high City Hall
display of three flags flying in close proximity
communicates the symbolic unity of the three flags.
It therefore strains credulity to believe that an
observer would partition such a coordinated threeflag display (or a four-flag display if one counts the
POW/MIA flag) into a series of separate yet
simultaneous messages (two that the government
endorses and another as to which the government
disclaims any relation). Cf. Summum, 555 U.S. at
471, 129 S.Ct. 1125 (“It certainly is not common for
property owners to open up their property for the
installation of permanent monuments that convey a
message with which they do not wish to be

19a
associated.”). Although the plaintiffs might perhaps
make the case that a lone Christian Flag, nowhere
near City Hall, would be seen as devoid of any
connection to a government entity, a City Hall
display that places such a flag next to the flag of the
United States and the flag of the Commonwealth of
Massachusetts communicates a far different
message to an observer: that the City flies all three
flags.
The plaintiffs demur, insisting that an observer, in
these circumstances, would not interpret a thirdparty flag as a message from the City. This demurrer
is premised on the notion that the question of
whether expression is likely to be viewed as
government speech must be answered from the
viewpoint of a “reasonable and informed” observer.
Building to a crescendo, the plaintiffs posit that a
reasonable and informed observer not only would
see the flag, but also would take note of the
intricacies of the administrative process leading up
to its display. Stripped of rhetorical flourishes, the
plaintiffs ask us to consider the perspective of an
observer who — in their words — knows:
(1) that the City’s open invitation policy and practice
“seeks to accommodate all applications seeking to
take advantage of the City of Boston’s public forums”
...; (2) that the City permits private organizations
temporarily to raise their flags ... as a “substitute”
for the government’s flag; (3) that the City has
approved at least 284 flag raising events ...; (4) that
during the year preceding Camp Constitution’s
application the City approved an average of over
three flag raisings per month; (5) that prior to Camp

20a
Constitution’s application, flag raising denials were
exceedingly rare, and that Rooney had never denied
a flag raising request; (6) that the City will allow
essentially any event to take place on City Hall
Plaza; and (7) that the City does not even review the
content of the substitute flags ... (emphasis in
original).
Relatedly, the plaintiffs insist that the messages of
the third-party flags cannot be attributed to the City
because “Rooney swore he had no knowledge of
anyone’s ever believing the City has endorsed or
adopted the message of a private organization that
was allowed access to the flag raising forum.” An
observer armed with this information, the plaintiffs
say, would not attribute the third-party-flag speech
to the City.
The plaintiffs’ conception of a “reasonable and
informed” observer is not plucked from thin air.
Justice Souter, concurring in Summum, advocated
for a standard based on the reaction of a “reasonable
and fully informed observer.” 555 U.S. at 487, 129
S.Ct. 1125 (Souter, J., concurring). The Court did not
explicitly adopt this standard, but has nonetheless
focused on the physical attributes of the speech and
general information about the locus at which the
speech takes place. In Summum, for example, the
Court considered what “persons *90 who observe”
such monuments see, id. at 471, 129 S.Ct. 1125, and
added that most people know that parks are
government property, id. at 472, 129 S.Ct. 1125
(“Public parks are often closely identified in the
public mind with the government unit that owns the
land.”). So, too, the Walker Court considered the

21a
physical attributes of the speech visible to “persons
who observe” license plates, 576 U.S. at 212, 135
S.Ct. 2239 (“The governmental nature of the plates
is clear from their faces ....”), as well as widely
available information about license plates, id.
(“[T]he State requires Texas vehicle owners to
display license plates, and every Texas license plate
is issued by the State .... Texas also owns the designs
on its license plates .... And Texas dictates the
manner in which drivers may dispose of unused
plates.”). The City’s treatment of third-party flags
satisfies the standard that the Supreme Court has
set for attribution: an observer not only would see
the third-party flag flying with two government flags
in front of a building labeled “Boston City Hall” but
also would reason that the building is a government
building and that the imposing flagpoles located on
that property are owned and dressed by the City.2
2

We add, moreover, that even if we were prepared to adopt
a “reasonable and informed observer” standard, such a
standard would be satisfied here. See Shurtleff II, 928 F.3d
at 173 n.5. It is the manner and circumstances in which a
third-party flag is displayed, together with the logical
inferences that a reasonable and informed observer would
likely draw based on available information, that lead to a
conclusion that the third-party-flag speech can be
attributed to the government.
Relatedly, Justice Souter’s concurrence in Summum
warned primarily against the deployment of categorical
rules in determining what constitutes government speech.
Summum, 555 U.S. at 487, 129 S.Ct. 1125 (Souter, J.,
concurring). Contrary to the plaintiffs’ formulation of the
“reasonable and informed observer” standard, neither
Justice Souter’s concurrence nor any other cited opinion
has suggested that such an observer would necessarily
know things like the City’s regulations for flag-raising or

22a
the decisionmaking trends of a specific government
employee. Absent any vestige of precedential support, we
decline the plaintiffs’ invitation to adopt and apply a newly
minted standard.

The plaintiffs have another string to their bow. They
argue that the Summum/Walker framework is
inapplicable because the third-party flags that the
City flies lack the permanence of the monuments in
Summum. We rejected this same argument in
Shurtleff II, 928 F.3d at 175, and the plaintiffs have
advanced no compelling reason for us to revisit the
matter. To our way of thinking, the decisive datum
is that the Walker Court explicitly disavowed any
suggestion that permanence is a prerequisite for
finding government speech. See 576 U.S. at 213-14,
135 S.Ct. 2239.
We turn next to the question of whether the City
maintains control over the messages conveyed by
the third-party flags. The City has instituted
procedures to ensure both that it is aware of all flags
flown and that such flags display approvable
messages. It is undisputed that “[i]nterested persons
and organizations must apply to the City for a
permit before they can raise a flag on this flagpole,”
and that the flag-raising guidelines expressly
require the City’s permission to fly a third-party
flag. Shurtleff II, 928 F.3d at 174. And in order for a
flag-raising request to secure approval, Rooney must
review the request to determine whether the
proposed flag-raising is consistent with the City’s
message, policies, and practices. Cf. Summum, 555
U.S. at 472, 129 S.Ct. 1125 (finding government

23a
speech when “[g]overnment decisionmakers select
the monuments that portray what they view as
appropriate *91 for the place in question, taking into
account such content-based factors as esthetics,
history, and local culture”); Walker, 576 U.S. at 213,
135 S.Ct. 2239 (finding control when “[t]he Board
must approve every specialty plate design proposal
before the design can appear on a Texas plate”).
What is more, the City limits physical access to the
flagpole: the flagpole is restricted government
property, and the City restricts access to it by
providing only parties whose requests are approved
with a hand crank. All in all, the decision to fly a flag
falls squarely on the City, and not on any other
entity or person. This final approval authority
means that when a third-party flag flies over City
Hall, it flies only because the City chose to fly it. And
in reserving this final approval authority, the City
“has ‘effectively controlled’ the messages conveyed”
in the flag display. Id. (quoting Johanns v. Livestock
Mktg. Ass’n, 544 U.S. 550, 560, 125 S.Ct. 2055, 161
L.Ed.2d 896 (2005)).
The plaintiffs argue that the type of government
practices that led the Court in Summum and Walker
to find government control are not present here.
They note, for example, that the Summum Court
observed that the government “took ownership of
[the] monument” and that “[a]ll rights previously
possessed by the monument’s donor [were]
relinquished.” 555 U.S. at 473-74, 129 S.Ct. 1125.
They also note that, in Walker, the state owned the
designs that were on all specialty license plates,

24a
issued all state plates, and dictated how a driver
may dispose of a plate. 576 U.S. at 212, 135 S.Ct.
2239. Here, by contrast, the City does not require a
private organization that seeks to raise a flag to
surrender ownership of that flag, nor does it require
that a flag bear any particular design or logo.
This argument lacks force. The government’s
ownership of a monument or a design are relevant
to the “attribution” prong of the Summum/Walker
test — not to the “control” prong. See Walker, 576
U.S. at 212, 135 S.Ct. 2239; Summum, 555 U.S. at
473-74, 129 S.Ct. 1125. The latter prong instead
turns on whether the government “effectively
control[s]” the message conveyed through selection.
See Summum, 555 U.S. at 473, 129 S.Ct. 1125
(quoting Johanns, 544 U.S. at 560-61, 125 S.Ct.
2055). The City’s final approval authority over all
third-party flags evinces choice and selection and,
thus, suffices to show effective control.
Struggling to undermine the finding of control, the
plaintiffs highlight three pieces of evidence
uncovered during pretrial discovery (and not
available at the preliminary injunction stage): first,
until the plaintiffs came along, the City had not
previously denied a flag-raising request; second,
Rooney’s customary practice was not to ask to see a
proposed flag before approving such a request; and
third, although the preliminary injunction record
previously noted only fifteen instances of flagraisings, the expanded record reveals that the City
had approved 284 requests. The plaintiffs submit
that these freshly unearthed facts demonstrate that

25a
the City did not exercise meaningful control over the
message conveyed by third-party flags. We do not
agree.
We find the rate of rejection unpersuasive because
the exercise of the authority to reject is necessarily
case-specific and limited by the kinds of requests the
City receives. Since the City had never rejected a
request, the flag-raisings in the record are, in effect,
a record of the requests received. Every request has
been for the flag of a country, civic organization, or
secular cause. That potential applicants have
successfully self-selected and offered *92 a narrow
set of acceptable secular designs cannot be evidence
that the City is open to fly any flag.
The limited kinds of unique flags and the repeated
requests to fly the same flags also help to explain
Rooney’s practice. Some of the flags were no doubt
familiar to him and, at any rate, a request to fly a
flag includes a short description of the flag. Because
Rooney recognizes the names of sovereign nations,
because the City had seen most, if not all, of these
flags in previous years, and because in twelve years
no person had requested to fly anything that was not
the flag of a country, civic organization, or secular
cause, a short description of each proposed flag was
sufficient for Rooney’s purposes. But once Rooney
received a request for a flag he did not recognize as
falling within an acceptable secular category — the
Christian Flag — he demanded that he see it.
The greater number of flag-raisings is likewise
insufficient to ground a finding that the City does

26a
not control the flagpole. The Walker Court was clear
that the number of flags — or messages — is not
dispositive. 576 U.S. at 214, 135 S.Ct. 2239. Here,
the Walker’s Court logic applies because the number
of flags approved by the City is not evidence of
universal access to the flagpole. After all, the group
of third-party flags raised over City Hall during the
twelve-year period is not a random assortment. Each
flag represents a country, civic organization, or
secular cause. Instead of evincing a lack of control,
the greater number of flag-raisings reveals a pattern
that supports the City’s claim that it approves only
flags that it deems “consistent with the City’s
messages, policies, and practices.”
In this context, the Supreme Court has not laid out
an elaborate protocol for finding effective control.
Broadly speaking, it is the City’s “select[ion] [of]
those [flags] that it wants to display for the purpose
of presenting the image of the City that it wishes to
project” that establishes City control over the
message conveyed. Summum, 555 U.S. at 473, 129
S.Ct. 1125. In the case at hand, Rooney’s approval
practices have not been shown to be a rubber stamp.
There is nothing remarkable about the fact that
some flag descriptions may trigger further review,
while others do not. Wherever the line falls, that a
line exists is evidence of “selective receptivity.” See
id. at 471, 129 S.Ct. 1125. That selectivity exists
here, and it is a selectivity born out of a concern for
the City’s image. The record, taken as a whole,
plainly shows a city conscious of the message that it
flies on the third flagpole and an accompanying
selectivity to tailor that message to the City’s

27a
desired image. See id. Accordingly, each of the three
Summum/Walker factors supports the conclusion
that the City engages in government speech when it
decides which flags to display in front of City Hall.
The plaintiffs demur. They deride this classification
of the City’s speech, arguing vehemently that the
City does not engage in expressive activity through
these third-party flags because it has designated the
third flagpole as a forum for private speech. In
support, they offer two arguments. First, the
plaintiffs say that the City explicitly opened the
flagpole to private expression. Specifically, they
point to the third page of the City’s paper event
application form, which states that the City “seeks
to accommodate all applicants seeking to take
advantage of the City of Boston’s public forums.” The
plaintiffs suggest that the phrases “all applicants”
and “public forums” transmogrify the third flagpole
into a government-designated public forum. Second,
and relatedly, the plaintiffs argue that the City
implicitly *93 opened the flagpole for public
discourse because the record now shows that the
City had granted flag-raising permission 284 times
without ever denying an earlier request.
These two arguments coalesce into a single theme —
but it is a theme that gains the plaintiffs no traction.
We previously rejected the first of these arguments
because a conclusion that the City has designated
the flagpole as a public forum “is precluded by our
government-speech finding.” Shurtleff II, 928 F.3d
at 175. As we explain below, that rationale still
withstands scrutiny — and even under traditional

28a
public-forum analysis, the plaintiffs’ asseverational
array lacks force.
The government creates a public forum “only by
intentionally opening a nontraditional forum for
public discourse.” Cornelius v. NAACP Legal Def. &
Edu. Fund, Inc., 473 U.S. 788, 802, 105 S.Ct. 3439,
87 L.Ed.2d 567 (1985). Government inaction or
permission for limited discourse cannot establish a
public-forum designation. Id. To determine if the
City has converted the flagpole into a public forum,
we look to the City’s “policy and practice” and also
may consider “the nature of the [flagpole] and its
compatibility with expressive activity.” Id. “We will
not find that a public forum has been created in the
face of clear evidence of a contrary intent,” nor will
we make such a finding “when the nature of the
property is inconsistent with expressive activity.” Id.
at 804, 105 S.Ct. 3439.
At the preliminary injunction stage, we rejected the
plaintiffs’ argument that the City’s “public forum[ ]”
incantation rendered the flagpole a public forum
because the record contained clear evidence that the
City did not intend to open the flagpole to public
discourse. Shurtleff II, 928 F.3d at 176. On the
enlarged record now before us — which shows that
the City over time has approved 284 requests and
has never denied any request other than the
plaintiffs’ request — our conclusion remains the
same.
The record is pellucid that the City is not receptive
to any and all proposed flag designs. As we

29a
previously indicated, the City controls which thirdparty flags are flown from the third flagpole. A flagraising is approved only after Rooney “screen[s]” a
proposed flag for “consisten[cy] with the City’s
message, policies, and practices” and provides his
final approval. Id.; cf. Perry Educ. Ass’n v. Perry Loc.
Educators’ Ass’n, 460 U.S. 37, 47 (2001) (finding that
school’s mail system had not been designated as a
public forum when school principal had to grant
permission to access system). Furthermore, all 284
flags previously flown were flags of countries, civic
organizations, or secular causes. That the City had
not rejected prior requests is insufficient to conclude
that the City accepts any and all flags because the
record shows that the City had criteria for approval
that limited flagpole access and that all flags flown
satisfied those criteria. Cf. Cornelius, 473 U.S. at
804-05, 105 S.Ct. 3439 (declining to find designated
public forum notwithstanding lack of evidence
showing how many organizations had been denied
permission because admission criteria evidenced
selective access). Here, the City’s permission
procedures evince selective access to the third
flagpole, and “[t]he government does not create a
designated public forum when it does no more than
reserve eligibility for access to the forum to a
particular class of speakers, whose members must
then, as individuals, ‘obtain permission.’ ” Ark. Edu.
Television Comm’n v. Forbes, 523 U.S. 666, 679, 118
S.Ct. 1633, 140 L.Ed.2d 875 (1998). The City’s
restrictions demonstrate an intent antithetic to the
designation of a public forum, and those restrictions
*94 adequately support the conclusion that the
City’s flagpole is not a public forum. See Cornelius,

30a
473 U.S. at 803, 105 S.Ct. 3439.
That ends this aspect of the matter. Because the City
engages in government speech when it raises a
third-party flag on the third flagpole at City Hall,
that speech is not circumscribed by the Free Speech
Clause. See Walker, 576 U.S. at 215, 135 S.Ct. 2239;
Summum, 555 U.S. at 467, 129 S.Ct. 1125. The City
is therefore “entitled” to “select the views that it
wants to express.” Summum, 555 U.S. at 467-68, 129
S.Ct. 1125 (internal citations omitted). This
entitlement includes both the right to decide not to
speak at all and the right to disassociate itself from
speech of which it disapproves. See Mech v. Sch. Bd.
of Palm Beach Cnty., 806 F.3d 1070, 1074 (11th Cir.
2015); Downs v. L.A. Unified Sch. Dist., 228 F.3d
1003, 1012 (9th Cir. 2000).
Here, the City exercised those rights by choosing not
to fly the plaintiffs’ third-party flag. In the City’s
view, this choice allows it more appropriately to
celebrate the diversity and varied communities
within Boston. Should the citizenry object to the
City’s secular-flag policy or to its ideas about
diversity, the voters may elect new officials who
share their concerns. See Summum, 555 U.S. at 46869, 129 S.Ct. 1125; Bd. of Regents of Univ. of
Wisconsin Sys. v. Southworth, 529 U.S. 217, 235,
120 S.Ct. 1346, 146 L.Ed.2d 193 (2000); Walker, 576
U.S. 200, 207, 135 S.Ct. 2239. After all, it is the
electorate and the political process that constrains
the City’s speech, not the Free Speech Clause. See
Summum, 555 U.S. at 468-69, 129 S.Ct. 1125.
Consequently, we uphold the district court’s entry of

31a
summary judgment in favor of the City on all of the
plaintiffs’ free speech claims.3 See Shurtleff III, –––
F.Supp.3d at ––––, 2020 WL 555248, at *6.
3

This ruling extends, of course, to the plaintiffs’ “unbridled
discretion” claim. Both the plaintiffs’ articulation of that
claim and the authority that they present in support of it
presuppose the existence of a public forum. Our conclusion
that the flagpole is not a public forum therefore
defenestrates the plaintiffs’ claim. See Widmar v. Vincent,
454 U.S. 263, 267-68, 267 n.5, 102 S.Ct. 269, 70 L.Ed.2d
440 (1981) (noting that university’s constitutional
obligation to justify prior restraint on speech arises from
its designation of its campus as public forum and would not
exist otherwise).

C. The Establishment Clause Claim.
The fact that the City is engaging in government
speech does not relieve it from the obligation to
comport with the Establishment Clause. Summum,
555 U.S. at 468, 129 S.Ct. 1125. The plaintiffs assert
that the City has failed to satisfy this obligation for
two reasons. First, they assert that the City
discriminated between religion and nonreligion by
excluding their proffered flag while continuing to fly
non-religious flags. Second, they assert that the City
discriminated between religions by excluding their
Christian Flag while flying flags that contain other
religious imagery. As examples, the plaintiffs cite
the City’s own flag, the Turkish flag, the Portuguese
flag, and the Bunker Hill flag. The City’s conduct in
this regard, the plaintiffs say, is not only
discriminatory but also demonstrates hostility
toward religion.

32a

The “touchstone” for Establishment Clause claims
“is the principle that the ‘First Amendment
mandates governmental neutrality between religion
and religion, and between religion and nonreligion.’
” McCreary Cnty. v. ACLU of Ky., 545 U.S. 844, 860,
125 S.Ct. 2722, 162 L.Ed.2d 729 (2005) (quoting
Epperson v. Arkansas, 393 U.S. 97, 104, 89 S.Ct.
266, 21 L.Ed.2d 228 (1968)). The government does
not act neutrally when its “ostensible object *95 is to
take sides.” Id. Accordingly, the government “cannot
act in a manner that passes judgment upon or
presupposes the illegitimacy of religious beliefs and
practices.” Masterpiece Cakeshop Ltd. v. Col. Civ.
Rights Comm’n, ––– U.S. ––––, 138 S. Ct. 1719,
1731, 201 L.Ed.2d 35 (2018).
Starting from this baseline, we turn first to the
allegations of discrimination between religion and
nonreligion. At the outset, we take note that the
plaintiffs’ Establishment Clause claim is scantily
developed: they have neither identified any evidence
supporting a claim of hostility nor advanced any
serious legal argument for such a claim. The
plaintiffs merely recite the general neutrality
obligation that the Establishment Clause imposes
upon the City, failing to articulate any reason why
this obligation requires the City to display their
religious flag.4
4

The plaintiffs’ sparse treatment of their Establishment
Clause claim suggests that this case, at its core, is not an
Establishment Clause case. This suggestion is bolstered by
the fact that the type of hostility argument conceptualized
by the plaintiffs appears to draw its essence from Supreme

33a
Court decisions involving the Free Exercise Clause and
applying the strict-scrutiny standard. See, e.g., Trinity
Lutheran Church of Columbia, Inc. v. Comer, ––– U.S. –––
–, 137 S. Ct. 2012, 198 L.Ed.2d 551 (2017) (holding that
exclusion of church from otherwise available public
program on account of religious status violates Free
Exercise Clause despite government’s establishment
concerns); Espinoza v. Montana Dep’t of Revenue, ––– U.S.
––––, 140 S. Ct. 2246, 207 L.Ed.2d 679 (2020) (same where
government excluded school based on religious character of
the school). In the case at hand, the plaintiffs do not
advance a cognizable free exercise claim but, rather, seek
the application of a concept of hostility to religion not
typically applied to Establishment Clause claims like this
one. Seen in this light, the plaintiffs’ theory fits awkwardly
with precedent — an awkwardness that greatly diminishes
the force of their claim.

The exclusion of religious entities from a public
program, without more, does not violate the
Establishment Clause. See Carson ex rel. O.C. v.
Makin, 979 F.3d 21, 49 (1st Cir. 2020). Nor is proof
of such exclusion evidence of hostility towards
religion. See id. Here, moreover, the record does not
give rise to any suggestion that the City created the
flag-raising program with the goal of inhibiting
religion. Cf. Rosenberger v. Rector & Visitors of
Univ. of Va., 515 U.S. 819, 840, 115 S.Ct. 2510, 132
L.Ed.2d 700 (1995) (finding governmental program
to be “neutral toward religion” when government did
not “create[ ] it to advance religion or adopt[ ] some
ingenious device with the purpose of aiding a
religious cause”); McCreary, 545 U.S. at 860, 125
S.Ct. 2722 (requiring proof of government “purpose”
to favor one side over the other). In fact, the City
went the extra mile: to help avoid any such

34a
impression, it offered the plaintiffs the option of
hosting an event alongside the flagpoles so as to
permit the plaintiffs to continue to practice and
share their religion (just as they would had the City
granted their flag-raising request). Under these
circumstances, the City’s conduct simply cannot be
construed to suggest the disparagement of the
plaintiffs’ religion. Cf. Masterpiece Cakeshop, 138 S.
Ct. at 1729 (finding hostility toward religion when
government “disparage[d]” plaintiff’s religion “by
describing it as despicable,” “characterizing it as
merely rhetorical,” and comparing it “to defenses of
slavery and the Holocaust”).
We add, moreover, that while the Establishment
Clause may not require a secular-flag policy, the
City “may act upon [its] legitimate concerns about
excessive
entanglement
with
religion”
in
administering its flag-raising program. Eulitt ex rel.
Eulitt v. Maine, Dep’t of Educ., 386 F.3d 344, 355
(1st Cir. 2004); see also Carson ex rel. O.C., 979 F.3d
at 35. The City has *96 presented just such a set of
concerns in this case and, thus, has made a valid
choice to remain secular. Shurtleff himself described
the Christian flag as “an important symbol of our
country’s Judeo-Christian heritage.” Should the City
honor the plaintiffs’ request, members of the
audience would watch the Christian Flag join the
flags of the United States and Massachusetts in
front of the entrance of City Hall. Such a display
could be deemed to constitute a religious statement
on the City’s part. Cf. Am. Jewish Cong. v. City of
Chicago, 827 F.2d 120, 128 (7th Cir. 1987) (noting
that placement of religious display at city hall

35a
heightens Establishment Clause concerns because
“every display ... is implicitly marked with the stamp
of government approval”). And such a perception
would underscore the realistic nature of the City’s
belief that the flying of a flag would be an
endorsement of the flag’s message. See Widmar v.
Vincent, 454 U.S. 263, 274, 102 S.Ct. 269, 70 L.Ed.2d
440 (1981) (evaluating whether government policy
confers “any imprimatur of state approval on
religious sects or practices”).
Our government-speech finding bolsters the
conclusion that the City would be perceived to
endorse the messages conveyed by the flags that it
flies. When a forum is open to all, it is doubtful that
an observer “could draw any reasonable inference of
[government] support” for a particular religion from
religious speech alone. Id. at 274, 274 n.14, 102 S.Ct.
269. In such a situation, the City would not be seen
as supporting religious goals. See id. Here, however,
the City speaks for itself, one third-party flag at a
time. Because an observer would attribute the
display’s message to the City, see supra Part II(B),
the powerful display of a single religion’s flag (in this
case, an “important symbol” of the plaintiffs’
religion) could signal the City’s embrace of that
religion.
To complete the picture, it is worth noting that the
Supreme Court has explicitly distinguished the
religious character of long-standing religious
monuments, symbols, and practices from that of
newly erected or adopted ones. See Am. Legion v.
Am. Humanist Assoc., ––– U.S. ––––, 139 S. Ct.

36a
2067, 2085, 204 L.Ed.2d 452 (2019). In relevant part,
the American Legion Court reasoned that, with the
passage of time, “religiously expressive monuments,
symbols, and practices can become embedded
features of a community’s landscape and identity,”
such that the community “may come to value them
without necessarily embracing their religious roots.”
Id. at 2084. In other words, a display of a religious
symbol, over time, can “t[ake] on an added secular
meaning.” Id. at 2089. Long-standing monuments
therefore enjoy “a strong presumption of
constitutionality.” Id. at 2085.
This presumption does not apply, though, to the
plaintiffs’ proposed religious-flag display. The City
has never before displayed such a flag and, as such,
this pioneering elevation of an “important symbol” of
the Christian heritage would come without the
secular context or importance that the passage of
time may have afforded other displays. The raising
of the Christian Flag thus would threaten to
communicate and endorse a purely religious
message on behalf of the City. Where that
endorsement is as widely visible and accessible as it
is here, and where the City could run the risk of
repeatedly coordinating the use of government
property with hierarchs of all religions, the City’s
establishment concerns are legitimate. See Lemon v.
Kurtzman, 403 U.S. 602, 615, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971). Accordingly, we conclude that
the City’s choice to refrain from endorsing a religion
through the raising of a religious *97 flag comports
with the City’s constitutional obligations.

37a
This leaves the plaintiffs’ claim that the City’s
raising of certain flags that incorporate religious
imagery while excluding the plaintiffs’ Christian
Flag constitutes an endorsement of certain religions
over others and, thus, works a violation of the
Establishment Clause. “[A] flag that references
religion by using religious symbols in part of its field
is not itself a religious flag.” Shurtleff II, 928 F.3d at
177. As the plaintiffs repeatedly emphasize, Rooney
does not even look at the flag designs before granting
most approvals. And when he reviewed what an
applicant described as the “Portuguese Flag,”
Rooney approved it because it stands for Portugal,
the country, and not because it contained certain
religious symbols. For aught that appears, Rooney’s
decision to fly those country/entity flags that include
religious imagery was one without a religious
dimension. In a logical universe, then, the fact that
Rooney elected to let the Flag of Portugal fly is
manifestly insufficient to establish that the City is
hostile to the plaintiffs’ religion.5
5

For substantially the same reasons, Rooney’s decision to
allow the hoisting of other flags incidentally containing
religious imagery (such as the Turkish flag, the Bunker
Hill flag, and the City’s own flag) do not evince hostility
toward religion.

The short of it is that neutrality toward religion does
not obligate the City to fly the Christian Flag on its
third flagpole. The City remains neutral where, as
here, it wholly refrains from passing judgment on
religion. See McCreary, 545 U.S. at 876, 125 S.Ct.
2722. Consequently, we hold that no violation of the

38a
Establishment Clause occurred when the City
elected not to fly the plaintiffs’ Christian Flag.
D. The Fourteenth Amendment Claim.
There is one last stop on our itinerary. The plaintiffs
submit that the City’s conduct amounts to contentbased discrimination against their religious speech
and, thus, violates the Equal Protection Clause. The
City counters that, because the flagpole is not a
public forum and because the plaintiffs’ First
Amendment claims are futile, their equal protection
claim fails as a matter of law.
We pause to brush aside a procedural gambit. The
plaintiffs suggest that the City has waived any
counter-argument to their equal protection claim.
This is magical thinking: the City advanced the very
same argument upon which it now relies at
summary judgment. No more was exigible to
preserve the argument for appellate review. See
United States v. Lilly, 13 F.3d 15, 18 (1st Cir. 1994).
Turning to the merits of the claim, we start with the
familiar proposition that the Equal Protection
Clause demands that “all persons similarly situated
should be treated alike.” City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.Ct.
3249, 87 L.Ed.2d 313 (1985). To establish an equal
protection claim, a plaintiff must show that “(1) the
person, compared with others similarly situated,
was selectively treated; and (2) that such selective
treatment
was
based
on
impermissible
considerations such as race, religion, intent to

39a
inhibit or punish the exercise of constitutional
rights, or malicious or bad faith intent to injure a
person.” Davis v. Coakley, 802 F.3d 128, 132-33 (1st
Cir. 2015).
What we previously have said — that the City has
been engaged in government speech not evocative of
First Amendment protections and that the flagpole
is not a public forum, see supra Part II (B) — sounds
the death knell for the plaintiffs’ equal protection
claim. The distinguishing feature of the speech cases
in which the Supreme Court has found violations
*98 of the Equal Protection Clause is the existence
of a public forum. See Perry Educ. Ass’n, 460 U.S. at
55, 103 S.Ct. 948; see, e.g., Police Dep’t of Chicago v.
Mosley, 408 U.S. 92, 96, 92 S.Ct. 2286, 33 L.Ed.2d
212 (1972); Carey v. Brown, 447 U.S. 455, 461, 100
S.Ct. 2286, 65 L.Ed.2d 263 (1980). Conversely, the
Court has made nose-on-the-face plain that “on
government property that has not been made a
public forum, not all speech is equally situated, and
the State may draw distinctions which relate to the
special purpose for which the property is used.”
Perry Educ. Ass’n, 460 U.S. at 55, 103 S.Ct. 948. In
the absence of a public forum — and we have found
none here — the City’s practice need only pass
rational basis review. See id. Put another way, the
practice need only bear a rational relationship to
some legitimate governmental purpose. See id. Here,
such a purpose is evident in the celebration of
Boston’s varied and diverse communities.
Consequently, the plaintiffs’ equal protection claim
fails.

40a
III. CONCLUSION
We need go no further. Like the district court, see
Shurtleff III, ––– F.Supp.3d at ––––, 2020 WL
555248, at *6, we have taken the measure of the
plaintiffs’ claims and found them wanting. Hence,
the judgment of the district court is
Affirmed.
All Citations
986 F.3d 78

41a
DISTRICT COURT ORDER
GRANTING SUMMARY JUDGMENT FOR
RESPONDENTS AND DENYING SUMMARY
JUDGMENT FOR PETITIONERS,
FILED FEBRUARY 4, 2020
2020 WL 555248
Only the Westlaw citation is currently available.
United States District Court, D. Massachusetts.
Harold SHURTLEFF et al., Plaintiffs,
v.
CITY OF BOSTON et al., Defendants.
Case No. 18-cv-11417-DJC
|
Filed February 4, 2020
Attorneys and Law Firms
Ryan P. McLane, McLane & McLane, LLC, Feeding
Hills, MA, Horatio G. Mihet, Pro Hac Vice, Mathew
D. Staver, Pro Hac Vice, Roger Gannam, Pro Hac
Vice, Liberty Counsel, Orlando, FL, for Plaintiffs.
David J. Zuares, Catherine A. Lizotte, Robert S.
Arcangeli, City of Boston Law Department, Boston,
MA, for Defendants.

MEMORANDUM AND ORDER
CASPER, United States District Judge
I. Introduction
*1 Plaintiffs Harold

Shurtleff

and

Camp

42a
Constitution (collectively, “Plaintiffs”) filed this
lawsuit against Defendants, the City of Boston and
Gregory T. Rooney, in his official capacity as
Commissioner of the City of Boston Property
Management
Department
(collectively,
“Defendants” or “the City”), seeking to enjoin the
City from denying permission to the Plaintiffs to
display “the Christian flag” on a City Hall flagpole
in conjunction with their Constitution Day and
Citizenship Day event. D. 1. Plaintiffs and
Defendants have now both moved for summary
judgment. D. 55; D. 59. For the reasons discussed
below, the Court ALLOWS Defendants’ motion for
summary judgment, D. 59, and DENIES Plaintiffs’
motion for summary judgment, D. 55.
II. Standard of Review
The Court grants summary judgment where there is
no genuine dispute as to any material fact and the
undisputed facts demonstrate that the moving party
is entitled to judgment as a matter of law. Fed. R.
Civ. P. 56(a). “A fact is material if it carries with it
the potential to affect the outcome of the suit under
the applicable law.” Santiago-Ramos v. Centennial
P.R. Wireless Corp., 217 F.3d 46, 52 (1st Cir. 2000)
(quoting Sánchez v. Alvarado, 101 F.3d 223, 227 (1st
Cir. 1996)). The movant “bears the burden of
demonstrating the absence of a genuine issue of
material fact.” Carmona v. Toledo, 215 F.3d 124, 132
(1st Cir. 2000); see Celotex Corp. v. Catrett, 477 U.S.
317, 323, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986). If
the movant meets its burden, the non-moving party
may not rest on the allegations or denials in her
pleadings, Anderson v. Liberty Lobby, Inc., 477 U.S.

43a
242, 256, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986), but
“must, with respect to each issue on which she would
bear the burden of proof at trial, demonstrate that a
trier of fact could reasonably resolve that issue in
her favor,” Borges ex rel. S.M.B.W. v. Serrano-Isern,
605 F.3d 1, 5 (1st Cir. 2010). “As a general rule, that
requires the production of evidence that is
‘significant[ly] probative.’ ” Id. (alteration in
original) (quoting Anderson, 477 U.S. at 249, 106
S.Ct. 2505). The Court “view[s] the record in the
light most favorable to the nonmovant, drawing
reasonable inferences in his favor.” Noonan v.
Staples, Inc., 556 F.3d 20, 25 (1st Cir. 2009). On
cross-motions for summary judgment, the standards
of Rule 56 remain the same and require the courts
“to determine whether either of the parties deserves
judgment as a matter of law on facts that are not
disputed.” Adria Int’l Grp., Inc. v. Ferré Dev., Inc.,
241 F.3d 103, 107 (1st Cir. 2001).
III. Factual Background
The following facts are drawn from the parties’ joint
statement of undisputed facts, D. 60. Plaintiff
Harold Shurtleff is a resident of Massachusetts and
the Director and co-founder of Plaintiff Camp
Constitution, which is a public charitable trust
registered in New Hampshire. D. 60 at ¶¶ 1-2.
Defendant Gregory Rooney has been the
Commissioner of the City of Boston Property
Management Department since August 1, 2016. Id.
at ¶ 6. Defendant City of Boston is a public body
corporate and politic, established, organized, and
authorized under and pursuant to the laws of
Massachusetts. Id. at ¶ 5.

44a

*2 This lawsuit arises out of an application by
Plaintiffs to Defendants to have the City raise the
Christian flag on one of Boston City Hall’s three flag
poles at City Hall Plaza to commemorate the
contributions of the Christian community to the City
and the Commonwealth, religious tolerance, the rule
of law and the U.S. Constitution. Id. at ¶ 7. Plaintiffs
made the application on July 18, 2017 and the City
denied the application on September 5, 2017. Id. at
¶¶ 8, 48.
The City owns and manages three flagpoles located
in front of the entrance to City Hall, in an area called
City Hall Plaza. Id. at ¶ 20. One pole regularly
displays the flags of the United States and the
National League of Families of Prisoners of
War/Missing in Action (“POW/MIA”) flag. Id. at ¶¶
22. A second pole flies the flag of the Commonwealth
of Massachusetts. Id. The third pole usually flies the
City of Boston flag, but at times the City raises other
flags instead of the City of Boston flag, usually after
application by a third party. Id. at ¶¶ 22-23.
Examples of other flags that have been raised on the
third flagpole are country flags, e.g., the flags of
Brazil, Ethiopia, Portugal, the People’s Republic of
China and Cuba, and the flags of private
organizations, including the Juneteenth flag
recognizing the end of slavery, the LGBT rainbow
pride flag, the pink transgender rights flag, and the
Bunker Hill Association flag. Id. at ¶ 25. The flag of
Portugal contains “dots inside the blue shields
represent[ing] the five wounds of Christ when
crucified” and “thirty dots that represents [sic] the

45a
coins Judas received for having betrayed Christ.” Id.
at ¶ 34. The City of Boston flag includes the Boston
seal’s Latin inscription, which translates to “God be
with us as he was with our fathers.” Id. at ¶ 29.
At the time of Plaintiffs’ flag request, the City had
no written policies specifically addressing flag
raising applications. Id. at ¶ 37. From June 2005
through June 2017, the City approved 284 flag
raising events, including 39 event approvals in the
year directly preceding Shurtleff’s request. Id. at ¶
25. These flag raisings have denoted country or
cultural celebrations, arrival of dignitaries,
commemoration of historic events and causes (e.g.,
Juneteenth observation, gay pride). Id.; D. 58-17.
Defendant Rooney had never denied a flag raising
request prior to Shurtleff’s request. Id. at ¶ 35.
Rooney had also never requested to see a proposed
flag prior to approval of a flag raising request. Id. at
¶ 38. Rooney considered Plaintiffs’ request to be the
first he had received related to a religious flag. Id. at
¶ 41. Rooney conducted a review of past flag raising
requests and determined that the City had no past
practice of flying a religious flag. Id. at ¶ 45.
Following the denial of the request, Plaintiffs
requested an official reason for the denial. Id. at ¶
48. Rooney responded that the City’s policy was to
refrain respectfully from flying non-secular flags on
the poles in accordance with the First Amendment’s
prohibition of government establishment of religion
and in keeping with the City’s authority to decide
how it uses limited government resources. Id. at ¶
51. On September 13, 2017, Plaintiffs renewed their

46a
flag raising request. Id. at ¶ 59. The City did not
respond to the second request. Id. at ¶ 61.
In October 2018, after the denial at issue in this
case, the City promulgated a written Flag Raising
Policy that codified past policy and practice and did
not change how flag requests would be handled by
the City. Id. at ¶¶ 62-63. The written policy includes
seven “Flag Raising Rules,” the first of which is “[a]t
no time will the City of Boston display flags deemed
to be inappropriate or offensive in nature or those
supporting discrimination, prejudice, or religious
movements.” Id. at ¶¶ 64-65. Under the policy, the
City has final approval authority for all flag raising
requests. The City’s flag raising website reflects the
purpose of the City’s sole and complete discretion
regarding the approval of any flag raisings: “[w]e
want to create an environment in the City where
everyone feels included, and is treated with respect”;
“[w]e also want to raise awareness in Greater Boston
and beyond about the many countries and cultures
around the world” and “[o]ur goal is to foster
diversity and build and strengthen connections
among Boston’s many communities.” D. 60 at ¶ 63;
D. 58-32 at 1. Since the adoption of the written
policy, the City has denied another flag raising
application, which was for a “Straight Pride” flag. D.
60 at ¶ 67.
IV. Procedural History
*3 On July 6, 2018, Plaintiffs filed the present
complaint seeking injunctive relief, declaratory
relief and damages against Defendants. D. 1.
Plaintiffs moved for a preliminary injunction, D. 7,

47a
which the Court denied on August 29, 2018, D. 19.
Plaintiffs appealed the Court’s decision. D. 23. The
Court denied Plaintiffs’ motion to stay these
proceedings during the pendency of the appeal. D.
34. On November 30, 2018, Defendants moved for
judgment on the pleadings. D. 39. The Court denied
Defendants’ motion for judgment on the pleadings
on May 3, 2019. D. 48. On June 27, 2019, the First
Circuit affirmed the Court’s decision on the
preliminary injunction. D. 54. In the interim, the
parties have conducted discovery and now have filed
cross motions for summary judgment. D. 55; D. 59.
The Court heard the parties on the pending motions
for summary judgment and took the matters under
advisement. D. 69.
V. Discussion
Plaintiffs and Defendants both seek summary
judgment on all of Plaintiffs’ claims: 1) a violation of
the First Amendment free speech clause; 2) a
violation of the First Amendment establishment
clause; 3) a violation of the Fourteenth Amendment
equal protection clause; 4) a violation of the freedom
of speech clause of Article 16 of the Massachusetts
Declaration of Rights; 5) a violation of the nonestablishment of religion clauses of Articles 2 and 3
of the Massachusetts Declaration of Rights; and 6) a
violation of equal protection under Articles 1 and 3
of the Massachusetts Declaration of Rights. As the
Court noted in resolving the motion for judgment on
the pleadings, D. 48 at 5-6, since the standard for the
claims arising under Massachusetts Declaration of
Rights is the same as applies under the U.S.
Constitution, the Court focuses on the federal law

48a
here in resolving Plaintiffs’ claims. See, e.g.,
Commonwealth v. Barnes, 461 Mass. 644, 650, 963
N.E.2d 1156 (2012) (classifying the free speech
provisions of Article 16 of the Massachusetts
Declaration of Rights as a “cognate provision” of the
First Amendment); Brackett v. Civil Serv. Comm’n,
447 Mass. 233, 243, 850 N.E.2d 533 (2006) (noting
that “[t]he standard for equal protection analysis
under [Massachusetts’] Declaration of Rights is the
same as under the Federal Constitution”); Opinion
of the Justices to the House of Representatives, 423
Mass. 1244, 1247, 673 N.E.2d 36 (1996) (explaining
that the court’s analysis under Article 2 of the
Massachusetts Declaration of Rights was “based on
the same standards applied under the establishment
clause of the First Amendment”).
At the hearing on the motions for summary
judgment, much of the parties’ arguments focused
on what has changed in the record since the rulings
on the preliminary injunction, motion for judgment
on the pleadings and the interlocutory appeal before
the First Circuit: 1) over the course of the twelve
years preceding the denial of Camp Constitution’s
application, the City approved 284 flag raising
events; 2) there is no record of any denials prior to
Camp Constitution’s application; and 3) the City’s
website now expressly states the particular
purposes that the City seeks to further through the
flag raising program.
A. The City’s Flag Display Constitutes
Government Speech
The parties’ central disagreement remains whether

49a
the display of third-party flags on the pole in
question constitutes government speech. The
outcome of this question is crucial “[b]ecause [when]
the State is speaking on its own behalf, the First
Amendment strictures that attend the various types
of government-established forums do not apply.”
Walker v. Tex. Div., Sons of Confederate Veterans,
Inc., ––– U.S. ––––, 135 S. Ct. 2239, 2250, 192
L.Ed.2d 274 (2015).
As the Court noted in its prior opinion, D. 48 at 7,
there are two leading Supreme Court cases that
inform whether the City’s display of flags on the City
flagpole constitutes government speech. In the first
case, Pleasant Grove City, Utah v. Summum, 555
U.S. 460, 129 S.Ct. 1125, 172 L.Ed.2d 853 (2009),
members of a religious organization called Summum
sued the city of Pleasant Grove under the free speech
clause of the First Amendment for the city’s failure
to include Summum’s proposed monument in a
public park. Summum, 555 U.S. at 464, 129 S.Ct.
1125. Other privately donated monuments in the
park had included a monument of the Ten
Commandments. Id. at 465, 129 S.Ct. 1125.
Summum’s proposed monument was “the Seven
Aphorisms of SUMMUM” and would “be similar in
size and nature to the Ten Commandments
monument.” Id. The city rejected Summum’s
proposal pursuant to an unwritten rule “limit[ing]
monuments in the Park to those that ‘either (1)
directly relate[d] to the history of Pleasant Grove, or
(2) were donated by groups with long-standing ties
to the Pleasant Grove community.’ ” Id. The
Supreme Court unanimously concluded that the

50a
city’s rejection of Summum’s proposal constituted
government speech and that the “Free Speech
Clause ... does not regulate government speech.” Id.
at 467, 129 S.Ct. 1125.
*4 The Supreme Court looked at the issue again in
Walker. Walker concerned the Texas Department of
Motor Vehicle Board’s rejection of a proposal by the
Sons of Confederate Veterans for a Confederate flag
license plate. Walker, 135 S. Ct. at 2243-44. After
public comment, the Board voted unanimously to
reject the proposed plate because “many members of
the general public [found] the design offensive,”
“such comments [were] reasonable” and “a
significant portion of the public associate the
confederate flag with organizations advocating
expressions of hate directed toward people or groups
that is demeaning to those people or groups.” Id.
(internal quotation mark omitted). The Court held
that the Texas license plates, like the monuments in
Summum, constituted government speech and thus
were not subject to the free speech clause’s
strictures. Id. at 2246. The Court focused on three
primary factors: 1) the history of the speech at issue;
2) a reasonable observer’s perception of the speaker
and 3) the state’s control over the speech. Id. at 224850. Following Summum, the Court concluded that 1)
license plates “long have communicated messages
from the States;” 2) license plates “are often closely
identified in the public mind with the [State]” and
reasonable observers “interpret them as conveying
some message on the [State’s] behalf” and 3) the
state had “effectively controlled” the content of the
license plates by exercising approval authority over

51a
each request. Id. at 2247-49 (first alteration in
original) (citations omitted).
The First Circuit, in affirming the denial of
Plaintiff’s motion for preliminary injunction,
concluded that “[t]he Summum/Walker three-part
test controls here and each of its factors strongly
favors a finding that the City engages in government
speech when it decides which flags to display in
place of the City flag on the City Hall flagpole” and
“[t]his case lies well within the established bounds
of the government speech doctrine.” Shurtleff v. City
of Boston, 928 F.3d 166, 172 (1st Cir. 2019). Now, on
a fully developed record, post-discovery, this
remains true as a consideration of the
Summum/Walker factors on the present record
show.
First, the use of flags to communicate messages
throughout history and into the present day is
beyond dispute. See, e.g., W. Va. State Bd. of Educ.
v. Barnette, 319 U.S. 624, 632, 63 S.Ct. 1178, 87
L.Ed. 1628 (1943) (noting that “[t]he use of an
emblem or flag to symbolize some system, idea,
institution, or personality, is a short cut from mind
to mind” and “[c]auses and nations, political parties,
lodges and ecclesiastical groups seek to knit the
loyalty of their followings to a flag or banner”);
Griffin v. Sec’y of Veterans Affairs, 288 F.3d 1309,
1324 (Fed. Cir. 2002) (noting that “[w]e have no
doubt that the government engages in speech when
it flies its own flags over a national cemetery”). That
is, “flags themselves communicate a message,”
Shurtleff, 928 F.3d at 173 n.4. This has been

52a
historically true as to governments using flags to
communicate messages, id. (citing examples), and as
evidenced here as to the City. See D. 60 at ¶¶ 27, 6265. “Shurtleff’s proposed flag is no different” in
conveying a message, Shurtleff, 928 F.3d at 173 n.4,
as it was described by the applicant as “the
Christian flag.” D. 60 at ¶ 8. On the present record,
it remains the case that “the City recognizes flag
flying as a symbolic act and that it uses flags – in
particular those raised on the City Hall pole – to
speak to the public.” Shurtleff, 928 F.3d at 173.
As to the second factor, this Court also concludes
that a flag waving on the City Hall flagpole would be
attributed to the City as the speaker. It is not only
that the flagpole on which Shurtleff’s Christian flag
would be flying is on the steps of City Hall, but also
that this “third-party flag would keep company with
the United States flag and the flag of the
Commonwealth of Massachusetts, two powerful
governmental symbols.” Shurtleff, 928 F.3d at 174.
That a keen observer might also observe that this
third-party flag was flying on the pole ordinarily
reserved for the flag of the City of Boston for a time
would be even greater cause to attribute such speech
to the City. By any measure of identity of the speech
being that of the City or, alternatively, by any
reasonable observer standard, see Shurtleff, 928
F.3d at 173 & n.5, the Christian flag waving on the
City’s flagpole would be readily attributed to the
City. See Summum, 555 U.S. at 471, 129 S.Ct. 1125.
*5 Contrary to Plaintiffs’ suggestion otherwise, the
fuller record as to the third prong—whether the City

53a
maintains control over the speech—strengthens the
factual foundation for concluding that this last
prong of the government speech test is satisfied.
Plaintiff points to the total number of 284 flagraising at City Hall Plaza to contend that this shows
lack of governmental control over the City Hall
flagpole. D. 61 at 16. Such argument ignores at least
two important points. First, it ignores the context,
that of these 284 flag-raising, they represented
celebrations of a dozen or so different countries
(including but not limited to Albania, Brazil, Italy,
Mexico, China, Cuba, Turkey) and only a handful of
civic organizations (e.g., Chinese Progressive
Association, National Juneteenth Observance
Foundation, Bunker Hill Association, Boston Pride),
some of which had multiple flag raisings during this
period. D. 64 at 5; D. 60 at ¶¶ 25, 30-31. Second, also
as to context, such flag raisings occurred over a
twelve-year period, only approximately fifteen
percent of the time, D. 64 at 5; see D. 60 at ¶¶ 25, 29,
hardly a significant occasions in comparison to all of
the other times when the usual flag, that of the City,
flies of the flagpole. That is, it remains correct that
“the flagpole at issue is only rarely occupied by a
third-party flag.” Shurtleff, 928 F.3d at 174. To the
extent that even small number of countries and
entities may have different messages that the City
wants to convey, does not mean that the messages
are not the City’s own, Walker, 135 S. Ct. at 2252,
particularly since the City has conveyed several
interests in considering flags to be flown on its
flagpole. D. 60 at ¶ 27 (commemorating flags “from
many countries and communities,” wanting to create
an inclusive environment, raise cultural awareness

54a
and “foster diversity and build and strengthen
connections among Boston’s many communities”).
Third, both the City’s practice and policy at the time
of the denial of Shurtleff’s 2017 flag request and the
City’s subsequently adopted written policy make
clear that that the City controls which third-party
flags are raised in place of the City flag and such
decision is “in the City’s sole and complete
discretion.” D. 60 at ¶¶ 62, 63. That is, the City
exercises final approval authority and remains the
gatekeeper of the speech that is displayed on the
flagpoles that it owns and controls on the very
doorstep of City Hall.1
1

The lack of permanence of the City allowing different flags
to be displayed on its flagpole does not undercut the
conclusion that flags on the City flagpole are government
speech. As the First Circuit concluded that although
permanence may be relevant to finding of a government
speech, it is not a necessary element of government speech.
Shurtleff, 928 F.3d at 175 (contrasting Summum and
Walker in this respect); see D. 64 at 2-3 and cases cited.

All three Summum/Walkers factors, therefore, show
that the flag display is government speech and not
subject to First Amendment restrictions.2
2

Since the Court has concluded that the display of flags
outside City Hall is government speech, “the First
Amendment strictures that attend the various types of
government-established forums do not apply,” Walker, 135
S. Ct. at 2250, and the Court need not address the
alternative arguments about government-established
forums. See Shurtleff, 928 F.3d at 175 (noting that success
on a “public forum” argument “is precluded by our

55a
government-speech finding”).

B. The Record Does Not Support Finding
the City Has Shown a Preference for NonReligion Over Religion
Plaintiffs also argue that the City’s policy violates
the First Amendment’s Establishment Clause and
the Equal Protection Clause of the Fourteenth
Amendment.
1. The City Has Not Violated the Establishment
Clause
Even as the Court has concluded that the speech at
issue is government speech, as discussed above,
government speech must comply with the
Establishment Clause and cannot, as Plaintiffs
allege, be overtly hostile to religion. Summum, 555
U.S. at 468, 129 S.Ct. 1125. The test for considering
Plaintiffs’ Establishment Clause claim against the
City is the Lemon test: 1) whether the City’s conduct
“ha[s] a secular legislative purpose,” 2) the
“principal or primary effect [of that conduct] must be
one that neither advances nor inhibits religion” and
3) the City’s actions “must not foster an excessive
government entanglement with religion.” Lemon v.
Kurtzman, 403 U.S. 602, 612-13, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971) (internal quotations omitted).
Like government speech, “the Establishment Clause
must be interpreted ‘by reference to historical
practices and understandings.’ ” Town of Greece,
N.Y. v. Galloway, 572 U.S. 565, 576, 134 S.Ct. 1811,

56a
188 L.Ed.2d 835 (2014) (citation omitted); see Santa
Fe Indep. Sch. Dist. v. Doe, 530 U.S. 290, 309, 120
S.Ct. 2266, 147 L.Ed.2d 295 (2000) (reviewing a
challenged policy’s history to determine its purpose).
Analysis of the Establishment Clause is also “a
delicate and fact-sensitive one.” Lee v. Weisman, 505
U.S. 577, 597, 112 S.Ct. 2649, 120 L.Ed.2d 467
(1992); see Town of Greece, 572 U.S. at 587, 134
S.Ct. 1811 (noting that analysis of prayer at town
board meetings under the Establishment Clause is
“fact-sensitive” and that the Court “considers both
the setting in which the prayer arises and the
audience to whom it is directed”).
Applying the first prong of the Lemon test, the City’s
flag raising rules and regulations further a secular
legislative purpose, as discussed above, of
encouraging inclusion and diversity within the City.
D. 60 at ¶¶ 27, 62-65. The second prong, that the
City’s regulation’s “principal or primary effect must
be one that neither advances nor inhibits religion,”
on which Shurtleff focuses as he alleges hostility and
discrimination towards religion as evidenced by the
denial of the Camp Constitution application. See D.
61 at 37. In support of this argument, Shurtleff point
to the fact that other flags with religious imagery or
symbols have flown on Boston flagpoles. Id. at 41. All
of these flags, although they contained religious
imagery, are secular flags of sovereign nations. See
American Legion v. American Humanist Ass’n, –––
U.S. ––––, 139 S. Ct. 2067, 2075, 204 L.Ed.2d 452
(2019); Shurtleff, 928 F.3d at 177 (noting that “a flag
that references religion by using religious symbols in
part of its field is not itself a religious flag”).

57a
Permitting such flags to be flown also allowed for the
City’s purpose of “commemorate[ing] flags from
many countries and communities” and is not similar
to the Christian flag proposed to be flown by
Shurtleff, which was a religious flag. D. 60 at ¶ 58.
Such a flag is even different than the flag of the
Vatican (which, the present record reflects has not
been flown on the City Hall flagpole, D. 64 at 15 n.1),
which while containing religious imagery and
symbolism, also is the flag of a sovereign state. The
Court is not convinced that flags of countries or
secular organizations and entities that contain
religious references or imagery are the same as the
Christian flag that Shurtleff sought to fly from the
City’s flagpole, which nobody disputes is a nonsecular flag. That is, the denial of Camp
Constitution’s application to fly the Christian flag on
City Hall Plaza is not a departure from the City’s
usual practice, rather the application of its practice
and policy, given that it, unlike any other
application, sought to fly a religious flag. D. 60 at ¶
41. The City’s desire not to have its speech coopted
to promote a religious message cannot be seen as an
improper inhibition of religion, when its primary
reason for denying the application was to avoid the
risk of violating the Establishment Clause by
appearing to make “a government effort to favor a
particular religious sect,” Van Orden v. Perry, 545
U.S. 677, 702, 125 S.Ct. 2854, 162 L.Ed.2d 607
(2005) (Breyer, J., concurring); D. 60 at ¶ 58. It
remains the case, now on a developed record, that
“Shurtleff has not established that the City’s policy
and practice shows a preference for one religion or
religious denomination over another.” Shurtleff, 928

58a
F.3d at 177. Nor does it reflect a preference for “nonreligion” over religion. See Shurtleff, 928 F.3d at 177
(noting that “the ‘secular’ flags – really, flags of
secular organizations or cause – the City has allowed
to fly instead of the City flag do not show that the
City has espoused a preference for non-religion over
religion”). Lastly, as to the third prong, there is no
allegation of excessive entanglement with religion
brought about by the City’s policies and practices
here, a point that cannot be forcefully made on this
record. Accordingly, there has been no showing that
City’s declination of Shurtleff’s request violated the
Establishment Clause.
2. The City Has Not Violated the Equal Protection
Clause
*6 The Equal Protection Clause requires that “all
persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., 473 U.S.
432, 439, 105 S.Ct. 3249, 87 L.Ed.2d 313 (1985). To
establish an Equal Protection claim, Plaintiffs must
show that “(1) the person, compared with others
similarly situated, was selectively treated; and (2)
that such selective treatment was based on
impermissible considerations such as race, religion,
intent to inhibit or punish the exercise of
constitutional rights, or malicious or bad faith intent
to injure a person.” Davis v. Coakley, 802 F.3d 128,
132-33 (1st Cir. 2015) (citation omitted).
As discussed above, Rooney had never considered a
religious flag prior to Plaintiffs’ application. D. 60 at
¶ 41. Rooney also does not recognize any “goal or

59a
purpose of the City ... by excluding religious flags,
except ‘concern for the so-called separation of church
and state or the constitution’s establishment clause.’
” D. 60 at ¶ 58. There are no additional facts in the
record that would suggest any improper preference
for non-religion over religion or selective treatment
of any person or group based on religion. The City
did not alter its procedures for review of flag
applications because of Camp Constitution’s
request, instead Camp Constitution’s request
presented a novel issue for the City’s consideration,
which the City considered consistent with its
practice and policy. D. 60 at ¶¶ 52, 54, 58. The record
does not support a claim of an Equal Protection
violation here.
VI. Conclusion
For the foregoing reasons, the Court ALLOWS
Defendants’ motion for summary judgment, D. 59,
and DENIES Plaintiffs’ motion for summary
judgment, D. 55. Judgment is entered in favor of
Defendants.
So Ordered.
All Citations
--- F.Supp.3d ----, 2020 WL 555248

60a
FIRST CIRCUIT OPINION AFFIRMING
DENIAL OF PRELIMINARY INJUNCTION,
FILED JUNE 27, 2019
928 F.3d 166
United States Court of Appeals, First Circuit.
Harold SHURTLEFF, and Camp Constitution, a
public charitable trust, Plaintiffs, Appellants,
v.
CITY OF BOSTON, and Gregory T. Rooney, in
his official capacity as Commissioner of the City
of Boston Property Management Division,
Defendants, Appellees.
No. 18-1898
|
June 27, 2019
*168 APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
MASSACHUSETTS [Hon. Denise J. Casper, U.S.
District Judge]
Attorneys and Law Firms
Mathew D. Staver, with whom Roger K. Gannam,
Jacksonville, FL, Horatio G. Mihet, Daniel J.
Schmid, and Liberty Counsel were on brief, for
appellants.
John Eidsmoe, Foundation for Moral Law, on brief
for Foundation for Moral Law, amicus curiae.
Daniel M. Ortner, Deborah J. La Fetra, Sacramento,
CA, and Pacific Legal Foundation, on brief for
Pacific Legal Foundation, amicus curiae.

61a
Robert S. Arcangeli, Assistant Corporation Counsel,
City of Boston Law Department, with whom Eugene
L. O’Flaherty, Corporation Counsel, was on brief, for
appellees.
Richard B. Katskee, Carmen N. Green, Patrick
Grubel, Americans United for Separation of Church
and State, Jeffrey I. Pasek, Cozen O’Connor, Steven
M. Freeman, David L. Barkey, Amy E. Feinman,
Anti-Defamation League, Amrith Kaur, Cindy
Nesbit and Sikh Coalition, on brief for Religious and
Civil-Rights Organizations, amici curiae.
Before Torruella, Selya, and Lynch, Circuit Judges.
Opinion
TORRUELLA, Circuit Judge.
This appeal arises from the denial of a preliminary
injunction that would have required the City of
Boston (“City”) to temporarily raise a “Christian
flag” on a government-owned flagpole in front of its
City Hall. Plaintiff-appellant Harold Shurtleff is the
director of Camp Constitution, a volunteer
association (and also a plaintiff-appellant here)
established in 2009 to “enhance understanding of
the country’s Judeo-Christian moral heritage, the
American heritage of courage and ingenuity, [and]
the genius of the United States Constitution,”
among other things. To commemorate Constitution
and Citizenship Day in September 2017, Shurtleff,
in his role as director of Camp Constitution,
organized an event to be held at the plaza in front of

62a
City Hall. Shurtleff alleges he intended this event to
be a celebration of the Christian community’s civic
and social contributions to the City and the
Commonwealth of Massachusetts, as well as of
Christian support for religious tolerance, the rule of
law, and the United States Constitution. Shurtleff
sought a permit from the City to raise *169 a
Christian flag1 on one of the City Hall Plaza
flagpoles during the proposed celebration. That flag
would have been raised next to poles flying the
United States and Massachusetts flags and in place
of the City of Boston flag, normally flown there.
1

The parties refer to this flag as “the Christian flag.” We use
the term “a Christian flag” throughout. In doing so, we do
not suggest that all Christian denominations accept that
flag as the flag of Christianity. There is no evidence of that
before us.

The City denied Shurtleff’s flag-raising request, but
otherwise allowed him and Camp Constitution to
host their event at City Hall Plaza. Shurtleff and
Camp Constitution filed suit almost a year later,
raising Free Speech, Establishment Clause, and
Equal Protection claims, and seeking a preliminary
injunction to prevent the City from denying them a
permit to raise the flag. The district court denied the
injunction and we now affirm.
I.
City Hall Plaza is at the entrance of Boston’s City
Hall. A trio of eighty-three-foot tall poles that the
City owns and controls stands in the Plaza. Two of

63a
the poles usually fly the United States and
Massachusetts flags. At issue here is the third pole,
which displays the City’s flag except when
temporarily replaced by another flag upon the
request of a third-party person or organization.
Requests to replace the City’s flag with another flag
are often accompanied by a proposed third-party
event to take place at a City-owned venue, such as
the Plaza. In the past, the pole in dispute has
displayed country flags (according to the complaint,
those of Albania, Brazil, Cuba, Ethiopia, Italy,
Mexico, Panama, the People’s Republic of China,
Peru, Portugal, and also that of the territory of
Puerto Rico) as well as the flag of the Chinese
Progressive Association, the LGBT rainbow flag, the
transgender rights flag, the Juneteenth flag
commemorating the end of slavery, and that of the
Bunker Hill Association.
Some of these third-party flags contain what
Shurtleff alleges is religious symbolism. For
instance, the Portuguese flag contains “dots inside
the blue shields represent[ing] the five wounds of
Christ when crucified” and “thirty dots that
represents [sic] the coins Judas received for having
betrayed Christ.” The Bunker Hill Flag contains a
red St. George’s cross. And the City flag itself
includes the Boston seal’s Latin inscription, which
translates to “God be with us as he was with our
fathers.” But nothing in the record indicates that the
City has ever allowed the flag of any religion to be
raised on the flagpole at issue.2
2

Shurtleff avers that, in 2012, he applied for and received a

64a
permit to display a flag on the pole at issue here. He does
not specify, however, the type of flag that the City allowed
him to raise.

Interested parties must apply to the City for a
permit before they can hold an event and/or raise a
flag at the Plaza. The City has published guidelines
for permit applicants on its website. According to the
guidelines, permits may be denied for several
reasons, including that the applicant plans to host
illegal activities on City property or if the proposed
event poses a danger to public health and safety.
Applications may also be denied if they do not
comply with other relevant permit requirements,
ordinances, or regulations. The Office of Property
and Construction Management leads the application
review process and is charged with ensuring that all
applications meet City guidelines. And the
Commissioner of Property Management himself
reviews flag-raising applications for the City Hall
Plaza poles to ensure that *170 they are “consistent
with the City’s message, policies, and practices.”
There is no written policy regarding which flags may
be raised on the City Hall poles.
On July 28, 2017, Shurtleff emailed the City
requesting a permit to “raise the Christian Flag on
City Hall Plaza.” Shurtleff proposed several dates in
September 2017 for the flag raising and explained
that Camp Constitution would sponsor the event,
which was also to include “short speeches by some
local clergy focusing on Boston’s history.” Shurtleff’s
email to the City also included a photo of a Christian

65a
flag to be raised, which has a white field and a red
Latin cross inside a blue canton. On September 5,
2017, Shurtleff received an email response from the
City denying his request to raise the flag. The City’s
response did not offer a reason for the denial.
Unsatisfied, Shurtleff emailed the City the next day
to inquire about the “official reason” for denying his
application. Two days later, on September 8,
Shurtleff received an email from Gregory T. Rooney,
the City’s Commissioner of Property Management,
explaining that his request was denied because
“[t]he City of Boston maintains a policy and practice
of respectfully refraining from flying non-secular
flags on the City Hall flagpoles.” Rooney’s email
explained that such a “policy and practice is
consistent with [both] well-established First
Amendment jurisprudence ... [and] with [the] City’s
legal authority to choose how a limited government
resource, like the City Hall flagpoles, is used.”
Before signing off, Rooney informed Shurtleff that
the “City would be willing to consider a request to fly
a non-religious flag, should your organization elect
to offer one.” Shurtleff’s plan to host an event at City
Hall Plaza, however, was allowed to go forward.
Around September 13, 2017, Shurtleff submitted a
renewed event and flag-raising application to the
City, asking to use City Hall Plaza and its flagpoles
for the “Camp Constitution Christian Flag Raising.”
Shurtleff’s event description explained that the
“Christian flag is an important symbol of our
country’s Judeo-Christian heritage” and that the
aim of the flag raising was to celebrate “our Nation’s

66a
heritage and the civic accomplishments and social
contributions of the Christian community to the
Commonwealth
of
Massachusetts,
religious
tolerance, the Rule of Law, and the U.S.
Constitution.” On September 14, Shurtleff’s counsel
sent a letter to Boston Mayor Martin Walsh -- with
copy to other City officials -- that enclosed Shurtleff’s
September 13 application to celebrate a “Christian
Flag Raising.” This letter requested that the City
approve Shurtleff’s flag-raising application on or
before September 27, 2017. The City neither issued
a permit nor replied in reaction to Shurtleff’s
September 13 and 27 communications. Since then,
Shurtleff has not applied to hold any events on City
grounds, with or without a flag.
Shurtleff and Camp Constitution filed suit on July
6, 2018, seeking injunctive relief, declaratory relief,
and damages against the City and Rooney in his
official capacity as Commissioner of the City’s
Property Management Division. Appellants aver,
inter alia, that the City “violated [their] First
Amendment right to Freedom of Speech by
preventing [them] from displaying the Christian flag
as part of a celebration of the Christian community
and America’s Judeo-Christian heritage to be held
at [the City’s] designated public fora at City Hall
Plaza and [its] flagpoles.” Shurtleff and Camp
Constitution moved for a preliminary injunction on
July 9, 2018. The district court heard argument on
August 9, 2018, and issued an opinion denying their
request on August 29, 2018. *171 Shurtleff v. City of
Bos., 337 F. Supp. 3d 66, 79 (D. Mass. 2018). Among
other things, the court held that the preliminary

67a
injunction could not proceed because the “City’s
selection and presentation of flags on the City
flagpole constitute government speech,” id. at 73,
and government speech escapes scrutiny under the
Free Speech Clause.
II.
Before it grants a preliminary injunction, a district
court is required to consider (1) the movant’s
likelihood of success on the merits; (2) the likelihood
of the movant suffering irreparable harm; (3) the
balance of equities; and (4) whether granting the
injunction is in the public interest. DíazCarrasquillo v. García-Padilla, 750 F.3d 7, 10 (1st
Cir. 2014). And when faced with an interlocutory
appeal, as we are in this case, we review the district
court’s decision to deny a preliminary injunction for
abuse of discretion but review its findings of fact for
clear error and its conclusions of law de novo. Am.
Freedom Def. Initiative v. Mass. Bay Transp. Auth.,
781 F.3d 571, 578 (1st Cir. 2015). Because Shurtleff
and Camp Constitution did not “ ‘establish a strong
likelihood that they will ultimately prevail’ on the
merits of their First Amendment claim[s],” we affirm
the district court’s denial of their request for a
preliminary injunction.3 Id.(quoting Sindicato
Puertorriqueño de Trabajadores, SEIU Local 1996 v.
Fortuño, 699 F.3d 1, 10 (1st Cir. 2012)).
3

Since the “sine qua non of th[e] four-part inquiry is
likelihood of success on the merits,” New Comm Wireless
Servs., Inc. v. SprintCom, Inc., 287 F.3d 1, 9 (1st Cir. 2002),
and appellants failed to meet that burden, we do not

68a
address the final three factors of the inquiry for
preliminary injunctive relief. See Am. Freedom Def.
Initiative, 781 F.3d at 578 n.4 (following this approach).

III.
The centerpiece of Shurtleff’s argument on appeal is
that the City’s choice of which flags to raise
temporarily in place of the usual Boston flag on the
City Hall Plaza flagpole at issue does not constitute
government speech and that the flagpole is instead
a designated public forum. We tackle first his
challenge to the district court’s finding of
government speech.
A.
Shurtleff argues that neither Walker v. Texas
Division, Sons of Confederate Veterans, Inc., –––
U.S. ––––, 135 S. Ct. 2239, 192 L.Ed.2d 274 (2015),
nor Pleasant Grove City, Utah v. Summum, 555 U.S.
460, 129 S.Ct. 1125, 172 L.Ed.2d 853 (2009) -- the
pair of recent cases the district court relied on to
conclude that the City’s choice of which flags to fly
on the flagpole at issue is government speech -supports a government speech label for a third-party
group’s temporary display of a flag owned by the
group. Shurtleff explains that Summum resolved
that the placement of “permanent” monuments in a
public park was a form of government speech, which
is inapposite to “temporarily” raising flags on a cityowned pole. Further, Shurtleff argues that Walker
reaffirmed the relevance of permanence for finding

69a
government speech. Shurtleff also maintains that
the government “ownership” and “control” elements
that the Court identified in Walker and Summum as
creating government speech are not present for
occasionally displayed third-party flags on the City
Hall flagpole. We disagree with each of Shurtleff’s
points, but before responding we find it helpful to
revisit in some detail the contours that the Supreme
Court has established for the government speech
doctrine.
*172 In Summum, the Court considered “whether
the Free Speech Clause of the First Amendment
entitles a private group to insist that a municipality
permit it to place a permanent monument in a city
park in which other donated monuments were
previously erected.” 555 U.S. at 464, 129 S.Ct. 1125.
The Free Speech Clause did not mandate that result,
the Court concluded, because “the display of a
permanent monument in a public park is not a form
of expression to which forum analysis applies” since
it is “best viewed as a form of government speech.”
Id. The Court reached that conclusion after making
three observations. First, that “[g]overnments have
long used monuments to speak to the public.” Id. at
470, 129 S.Ct. 1125. Second, that “[p]ublic parks are
often closely identified in the public mind with the
government unit that owns the land,” which is the
reason why “there is little chance that observers will
fail to appreciate the identity of the speaker” as the
government when they see a monument at a public
park. Id. at 471-72, 129 S.Ct. 1125. And third, that
the government “has ‘effectively controlled’ the
messages sent by the monuments in the Park by

70a
exercising ‘final approval authority’ over their
selection.” Id. at 473, 129 S.Ct. 1125 (citing Johanns
v. Livestock Marketing Assn., 544 U.S. 550, 560-61,
125 S.Ct. 2055, 161 L.Ed.2d 896 (2005)).
The Court reaffirmed the Summum framework six
years later in Walker. That case originated after a
nonprofit organization applied to the Texas
Department of Motor Vehicles Board for a specialty
license plate featuring the Confederate flag. The
Board rejected the application, 135 S. Ct. at 2244,
and members of the nonprofit filed suit alleging that
the rejection violated their free speech rights. Not so,
said the Court, holding that “Texas’s specialty
license plate designs constitute government speech,”
for which the Board was entitled to refuse issuing
license plates that feature the Confederate flag. Id.
at 2253. The Court pinpointed three factors as
relevant to identifying government speech in light of
Summum: (1) whether the government has
traditionally used the message or conduct at issue to
speak to the public; (2) whether persons would
interpret the speech as conveying some message on
the government’s behalf; and (3) whether the
government maintains control over the selection of
the message. See id. at 2247. Applying these factors,
the Court concluded that the license plates are
government speech because (1) “they long have
communicated messages from the States,” id. at
2248; (2) they “are often closely identified in the
public mind with the [State],” id. (citing Summum,
555 U.S. at 472, 129 S.Ct. 1125); and (3) “Texas
maintains direct control over the messages conveyed
on its specialty plates,” id. at 2249. The Court later

71a
remarked that Walker “likely marks the outer
bounds of the government-speech doctrine.” Matal v.
Tam, ––– U.S. ––––, 137 S. Ct. 1744, 1760, 198
L.Ed.2d 366 (2017).
The Summum/Walker three-part test controls here
and each of its factors strongly favors a finding that
the City engages in government speech when it
decides which flags to display in place of the City flag
on the City Hall flagpole. This case lies well within
the established bounds of the government speech
doctrine.
First, the government has long used flags to
communicate messages. See, e.g., W. Va. State Bd.
of Educ. v. Barnette, 319 U.S. 624, 632, 63 S.Ct.
1178, 87 L.Ed. 1628 (1943) (“The use of an emblem
or flag to symbolize some system, idea, institution,
or personality, is a short cut from mind to mind.
Causes and nations, political parties, lodges and
ecclesiastical groups seek to knit the loyalty of their
followings to a flag or banner ....”); *173 Griffin v.
Sec’y of Veterans Affairs, 288 F.3d 1309, 1324 (Fed.
Cir. 2002) (“We have no doubt that the government
engages in speech when it flies its own flags over a
national cemetery, and that its choice of which flags
to fly may favor one viewpoint over another.”). For
instance, “Congress has provided that the flag be
flown at half-staff upon the death of the President,
Vice President, and other government officials ‘as a
mark of respect to their memory.’ ” Texas v. Johnson,
491 U.S. 397, 427, 109 S.Ct. 2533, 105 L.Ed.2d 342
(1989) (Rehnquist, C.J., dissenting) (quoting 36
U.S.C. § 175(m) (current version at 4 U.S.C. § 7(m))).

72a
And when a visiting dignitary comes to Washington
for a state or official visit, Blair House (the
President’s guest house) flies the flag of the
dignitary’s country. Mary Mel French, United States
Protocol 298 (2010).4
4

Of course, flags themselves communicate a message. In a
1944 Presidential Proclamation, President Franklin
Roosevelt stated, “The flag of the United States of America
is universally representative of the principles of justice,
liberty, and democracy enjoyed by the people of the United
States.” Proclamation No. 2605, 9 Fed. Reg. 1957 (Feb. 22,
1944). Congress has provided that the American “flag
represents a living country and is itself considered a living
thing.” 4 U.S.C. § 8(j). When United States Marines
reached the top of Mount Suribachi at Iwo Jima, “they
raised a piece of pipe upright and from one end fluttered a
flag.” Johnson, 491 U.S. at 425-26, 109 S.Ct. 2533
(Rehnquist, C.J., dissenting). And troops marked their
successful landing at Inchon during the Korean war with
the raising of an American flag. Id. at 426, 109 S.Ct. 2533.
Shurtleff’s proposed flag is no different: it was designed to
incorporate certain Christian symbolism, including the
Latin cross. See Trunk v. City of San Diego, 629 F.3d 1099,
1110 (9th Cir. 2011) (recognizing the Latin cross as “the
preeminent symbol of Christianity”); cf. Barnette, 319 U.S.
at 632, 63 S.Ct. 1178 (“[T]he church speaks through the
Cross, the Crucifix, the altar and shrine, and clerical
raiment.”); Salazar v. Buono, 559 U.S. 700, 747, 130 S.Ct.
1803, 176 L.Ed.2d 634 (2010) (Stevens, J., dissenting) (“We
have recognized the significance of the Latin cross as a
sectarian symbol, and no participant in this litigation
denies that the cross bears that social meaning.”).

The City partakes of similar practices and has
historically used the City Hall Plaza pole at issue
here to convey a message when the City flag is

73a
replaced with another flag. For instance, the City
flew the flag of Portugal on that pole to recognize
“the Portuguese community’s presence and
importance in the State of Massachusetts.” The City
also sometimes displays its municipal flag to signify
that its mayor is present at a given event. It
therefore follows that the City recognizes flag flying
as a symbolic act and that it uses flags -- in
particular those raised on the City Hall Plaza pole - to speak to the public.
Next, we examine whether an observer would
identify the City as the “speaker” when she sees a
third-party flag, like a Christian flag, raised in front
of City Hall and flying alongside the United States
and Massachusetts flags. See Walker, 135 S. Ct. at
2249; Summum, 555 U.S. at 471, 129 S.Ct. 1125.5
We have little doubt that the third-party flag’s
message would be attributed to the City.
5

In his Summum concurrence, Justice Souter proposed
using a “reasonable person” test to analyze the attribution
prong. See Summum, 555 U.S. at 487, 129 S.Ct. 1125
(Souter, J., concurring) (“[T]o say when speech is
governmental, the best approach that occurs to me is to ask
whether a reasonable and fully informed observer would
understand the expression to be government speech, as
distinct from private speech the government chooses to
oblige by allowing the monument to be placed on public
land.”). If the Court adopts this standard in a future case,
it would be easily met here.

If the observer arrived in time, she could well see a
City employee lower the Boston flag and replace it
with a third *174 party’s flag. The replacement flag

74a
would fly eighty-three feet into the sky only steps
away from the entrance to Boston’s seat of
government, City Hall. That height would make the
flag visible from far away, even from places that
have no view of what is happening on the plaza
below. And the third-party flag would keep company
with the United States flag and the flag of the
Commonwealth of Massachusetts, two powerful
governmental symbols. “In this context, there is
little chance that observers will fail to appreciate the
identity of the speaker” as being the City. Summum,
555 U.S. at 471, 129 S.Ct. 1125.
Lastly, we assess if the City maintains control over
the selection of the messages it conveys on its City
Hall flagpole. See Walker, 135 S. Ct. at 2247.
Shurtleff argues that, to find government speech,
Summum and Walker require the government to
take physical control over previously private
expression, control every aspect of its design and
maintenance, and require relinquishment of private
ownership rights. We reject the argument as a
misreading of those cases. See Sutliffe v. Epping
Sch. Dist., 584 F.3d 314, 331 (1st Cir. 2009) (finding
that links placed on a government website were
government speech and emphasizing that the town
“controlled the content of [the] message by
exercising final approval authority over the [ ]
selection of the hyperlinks on the website”); cf.
Ridley v. Mass. Bay Transp. Auth., 390 F.3d 65, 82
(1st Cir. 2004) (rejecting the plaintiffs’ argument
that the MBTA had created a public forum in part
because “[t]he MBTA’s policy clearly evidenced an
intent to maintain control over the forum”).

75a

The record is clear that the City owns the flagpole at
issue and that it controls which third-party flags are
raised in place of the City flag. Interested persons
and organizations must apply to the City for a
permit before they can raise a flag on this flagpole.
The City’s Office of Property and Construction
Management then reviews all applications to ensure
that they comply with governing guidelines, and the
Commissioner of Property Management himself
screens flag-raising requests for the pole at issue to
ensure that those requests are “consistent with the
City’s message, policies, and practices.” And unlike
many other public spaces controlled by a permitting
process, for access to which the City might grant
thousands of applications a year, the flagpole at
issue is only rarely occupied by a third-party flag.
Appellant’s complaint lists only fifteen instances,
over a period of years, in which the City has granted
a third party’s flag-flying request. That rarity
highlights the City’s tight control over the flagpole
in question and that it engages in symbolic speech
as to the replacement flags it allows. Moreover, the
absence of a written policy outlining the content of
the flags that may be raised on City Hall Plaza is
irrelevant to the government speech analysis.
Summum, 555 U.S. at 473, 129 S.Ct. 1125 (finding
that the City there effectively controlled its message
even though it did not adopt an express policy as to
which monuments it would accept or reject until
after rejecting the plaintiff’s proposed monument);
see also Sutliffe, 584 F.3d at 332 (noting that the
absence of a written policy is “irrelevant to whether
the [City’s] actions constitute government speech”).

76a

A
straightforward
assessment
under
the
Summum/Walker factors thus requires us to
conclude that the City’s decision about which flags
to display on the flagpole at issue is likely
government speech. However, as we noted before,
Shurtleff insists that the flagpole cannot convey
government speech because the flags raised on it are
those of third parties and they are only displayed
temporarily. This argument is unavailing. First, the
fact that the flags are *175 privately owned (or at
least not owned by the City) changes nothing
because the City enjoys the “same freedom to
express its views when it receives assistance from
private sources for the purpose of delivering a
government-controlled message” like that which the
City Hall flagpole communicates. Summum, 555
U.S. at 468, 129 S.Ct. 1125. Second, Shurtleff is
wrong to suggest that permanence is required for
there to be government speech. Shurtleff contends
that the Summum Court emphasized the permanent
nature of monuments as supporting a finding of
government speech, and that Walker reiterated the
relevance of permanence in government speech
analysis. But the Walker Court actually clarified
that permanence is not a necessary element of its
government speech framework.6 See Walker, 135 S.
Ct. at 2249 (“That is not to say that every element of
our discussion in Summum is relevant here. For
instance, in Summum we emphasized that
monuments were ‘permanent’ ....”).
6

We also note that Shurtleff’s argument takes Summum’s
discussion of permanence out of context. There, it was

77a
important that the monuments were permanent because
public parks could “accommodate only a limited number of
permanent monuments.” Summum, 555 U.S. at 478, 129
S.Ct. 1125. Thus, the real issue was not permanence, but
space. See Walker, 135 S. Ct. at 2261 (Alito, J., dissenting)
(“A final factor that was important in Summum was
space.”).

Shurtleff argues that this is a case in which the City
is using government speech doctrine “as a
subterfuge for favoring certain private speakers over
others based on viewpoint,” Summum, 555 U.S. at
473, 129 S.Ct. 1125, or as a means of “silenc[ing] or
muffl[ing] the expression of disfavored viewpoints,”
Matal, 137 S. Ct. at 1758. We think not. The record
shows that the City has “regularly” granted
permission for religious events to be held on City
Hall Plaza. And the City has not refused Shurtleff
permission to hold an event at City Hall Plaza that
celebrates Christianity and includes speeches by
local clergy. Nor has it refused him the opportunity
to request to raise a flag that conforms with City
policy.
We now turn to Shurtleff’s argument that the
government speech doctrine is inapplicable here
because the City has designated the flagpole as a
public forum. Shurtleff’s success on this theory is
also unlikely because that argument is precluded by
our government-speech finding. Walker, 135 S. Ct.
at 2250 (“Because the State is speaking on its own
behalf, the First Amendment strictures that attend
the various types of government-established forums
do not apply.”).

78a

However, the argument also fails under traditional
public-forum analysis. “The government does not
create a public forum by inaction or by permitting
limited discourse, but only by intentionally opening
a nontraditional forum for public discourse.”
Cornelius v. NAACP Legal Def. & Educ. Fund, Inc.,
473 U.S. 788, 802, 105 S.Ct. 3439, 87 L.Ed.2d 567
(1985). To ascertain if the City has designated the
flagpole as a public forum, we look to the City’s
“policy and practice” and may also consider “the
nature of the [flagpole] and its compatibility with
expressive activity.” See id. However, “[w]e will not
find that a public forum has been created in the face
of clear evidence of a contrary intent ... nor will we
infer that the government intended to create a
public forum when the nature of the property is
inconsistent with expressive activity.” Id. at 803, 105
S.Ct. 3439.
In Shurtleff’s view, the City Hall pole at issue is a
designated public forum because the application to
request a permit for its *176 use states that,
“[w]here possible, the Office of Property and
Construction Management seeks to accommodate all
applicants seeking to take advantage of the City of
Boston’s public forums.” But other than that
statement, the record is barren of any indication
that
the
City
“intentionally
open[ed]
a
nontraditional forum,” on that flagpole, “for public
discourse.” Sutliffe, 584 F.3d at 333 (citing Del Gallo
v. Parent, 557 F.3d 58, 72 (1st Cir. 2009)). Instead,
the record contains clear evidence suggesting that
the City did not intend to create a public forum in

79a
the choice of which flags to fly from that pole. As we
have noted before, the City strictly controls which
third-party flags are raised on the City Hall pole,
with the Commissioner of Property Management
screening all proposed flags for “consisten[cy] with
the City’s message, policies, and practices.” The City
has articulated a policy of not flying non-secular
flags in place of the City flag and its rejection of
Shurtleff’s flag-flying request is consistent with that
policy.
Moreover, the nature of this flagpole is also
inconsistent with unregulated expressive activity.
City Hall Plaza has three flagpoles, and only one of
these is occasionally available for the temporary use
of the flags of qualifying third parties. The Plaza,
therefore, may only accommodate a very limited
number of flag-flying requests. The City may
reasonably conclude that opening the pole for
widespread public use could create disruptions that
compromise the access and operations of City Hall.
Cf. Summum, 555 U.S. at 478, 129 S.Ct. 1125
(noting that “[t]he forum doctrine has been applied
in situations in which government-owned property
or a government program was capable of
accommodating a large number of public speakers
without defeating the essential function of the land
or the program”). Accordingly, Shurtleff’s argument
that the choice of flag cannot be government speech
because the City has designated the flagpole as a
public forum lacks any likelihood of success.
Considering the foregoing and the record as it is at
present, we find that the City’s choice of which flags

80a
to raise on the flagpole at issue likely conveys
government speech. And because this is the case, the
City retains the ability not to promote or be
associated with certain flags flown in place of the
City flag on the flagpole in dispute. Thus, Shurtleff
and Camp Constitution failed to establish a
likelihood of success on their free speech claim
against the City. See Summum, 555 U.S. at 467, 129
S.Ct. 1125 (“The Free Speech Clause restricts
government regulation of private speech; it does not
regulate government speech.” (citing Johanns, 544
U.S. at 553, 125 S.Ct. 2055)).7
7

We also note that, in making choices about which flags to
allow as temporary replacements for the City flag, the City
and its officials are subject to “the democratic electoral
process.” Walker, 135 S. Ct. at 2245; Sutliffe, 584 F.3d at
331 n.9 (“If the voters do not like those in governance or
their government speech, they may vote them out of office
or limit the conduct of those officials ‘by law, regulation, or
practice.’ ” (quoting Summum, 555 U.S. at 468, 129 S.Ct.
1125) (citation omitted)).

B.
Our final task is to review the district court’s
determination that Shurtleff’s Establishment
Clause claim is unlikely to succeed.
Shurtleff argues that the City violated the
Establishment Clause by excluding Camp
Constitution’s religious speech while flying what he
calls “other religious flags.” He alleges, for example,
that the City has flown the flag of Portugal and the

81a
Bunker Hill Association flag, which both *177
contain some religious symbols. But a flag that
references religion by using religious symbols in part
of its field is not itself a religious flag. And as
appellants conceded at oral argument and is also
evident from the record, there is no evidence that the
City has ever raised the flag of any religion on the
flagpole at issue. Shurtleff has not established that
the City’s policy and practice shows a preference for
one religion or religious denomination over another.
Next, Shurtleff claims that the City acts in
contravention of the Establishment Clause “by
allowing the numerous and varied [secular] flags of
a broad spectrum of private organizations while
specifically excluding Camp Constitution’s ‘nonsecular’ flag.” But the “secular” flags -- really, flags
of secular organizations or causes -- the City has
allowed to fly instead of the City flag do not show
that the City has espoused a preference for nonreligion over religion. And the record contains no
evidence that would suggest otherwise. Thus, in
light of the current record, we agree with the district
court that the likelihood of success of Shurtleff’s
Establishment Clause claim is dim.
IV.
For the reasons explained above, the district court
did not abuse its discretion in denying Shurtleff’s
request for a preliminary injunction and its
judgment is affirmed.
Affirmed.

82a
All Citations
928 F.3d 166

83a
DISTRICT COURT ORDER
DENYING JUDGMENT ON THE PLEADINGS,
FILED MAY 3, 2019
385 F.Supp.3d 109
United States District Court, D. Massachusetts.
Harold SHURTLEFF et al., Plaintiffs,
v.
CITY OF BOSTON et al., Defendants.
Case No. 18-cv-11417-DJC
|
Filed May 3, 2019
Attorneys and Law Firms
*112 Ryan P. McLane, McLane & McLane, LLC,
Feeding Hills, MA, Horatio G. Mihet, Pro Hac Vice,
Mathew D. Staver, Pro Hac Vice, Roger Gannam,
Pro Hac Vice, Liberty Counsel, Orlando, FL, for
Plaintiffs.
David J. Zuares, Catherine A. Lizotte, Robert S.
Arcangeli, City of Boston Law Department, Boston,
MA, for Defendants.

MEMORANDUM AND ORDER
Denise J. Casper, United States District Judge
I. Introduction
Plaintiffs Harold Shurtleff and Camp Constitution
(collectively, “Plaintiffs”) filed this lawsuit against
Defendants, the City of Boston and Gregory T.

84a
Rooney, in his official capacity as Commissioner of
the City of Boston Property Management
Department (collectively, “Defendants” or “the
City”), seeking to enjoin the City from denying
permission to the Plaintiffs to display the Christian
flag on a City Hall flagpole in conjunction with their
Constitution Day and Citizenship Day event. D. 1.
Defendants have now moved for judgment on the
pleadings. D. 39. For the reasons discussed below,
the Court DENIES Defendants’ motion for judgment
on the pleadings, D. 39.
II. Standard of Review
Rule 12(c) allows a party to move for judgment on
the pleadings at any time “[a]fter the pleadings are
closed—but early enough not to delay trial.” Fed. R.
Civ. P. 12(c). A motion for judgment on the *113
pleadings pursuant to Fed. R. Civ. P. 12(c), is
“ordinarily accorded much the same treatment” as a
Rule 12(b)(6) motion. Aponte-Torres v. Univ. of P.R.,
445 F.3d 50, 54 (1st Cir. 2006). To survive a motion
for judgment on the pleadings, therefore, a plaintiff
must plead “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007). Because a motion for judgment
on the pleadings “calls for an assessment of the
merits of the case at an embryonic stage,” the Court
“view[s] the facts contained in the pleadings in the
light most favorable to the nonmovant and draw[s]
all reasonable inferences therefrom” in their favor.
Pérez-Acevedo v. Rivero-Cubano, 520 F.3d 26, 29
(1st Cir. 2008) (citation omitted).

85a
On a Rule 12(c) motion, unlike a Rule 12(b) motion,
the Court considers the pleadings as a whole,
including the answer. See Aponte-Torres, 445 F.3d
at 54-55. Those assertions in the answer that have
not been denied and do not conflict with the
assertions in the complaint are taken as true. See
Santiago v. Bloise, 741 F.Supp.2d 357, 360 (D. Mass.
2010). In addition, “[t]he court may supplement the
facts contained in the pleadings by considering
documents fairly incorporated therein and facts
susceptible to judicial notice.” R.G. Fin. Corp. v.
Vergara-Nuñez, 446 F.3d 178, 182 (1st Cir. 2006).
III. Factual Background
The City owns and manages three flagpoles located
in front of the entrance to City Hall, in an area called
City Hall Plaza. D. 11-1 ¶ 5. The three poles are the
same height, approximately 83 feet tall. D. 11-1 ¶ 6.
One pole regularly displays the flags of the United
States and the National League of Families Prisoner
of War/Missing in Action (“POW/MIA”) flag. D. 11-1
¶ 8. A second pole flies the flag of the Commonwealth
of Massachusetts. Id. The dispute in this case
centers on the third flagpole, which displays the City
of Boston flag except when replaced by another
flag—usually at the request of a third-party. Id. ¶¶
8-9. Such a request is often made in conjunction with
a proposed third-party event to take place at a
location owned by the City, one of which is City Hall
Plaza. D. 11 at 2. Examples of other flags that have
been raised on the third flagpole are country flags,
e.g., the flags of Brazil, Ethiopia, Portugal, Puerto
Rico, the People’s Republic of China and Cuba, and
the flags of private organizations, including the

86a
Juneteenth flag recognizing the end of slavery, the
LGBT rainbow pride flag, the pink transgender
rights flag, and the Bunker Hill Association flag. D.
1 ¶¶ 36-37; D. 43 at 18; D. 11 at 2. As Plaintiffs
allege, the flag of Portugal contains “dots inside the
blue shields represent[ing] the five wounds of Christ
when crucified” and “thirty dots that represents [sic]
the coins Judas received for having betrayed Christ.”
D. 1 ¶ 36. The City of Boston flag includes the Boston
seal’s Latin inscription, which translates to “God be
with us as he was with our fathers.” D. 1 ¶ 41(a). As
Plaintiffs note, the Bunker Hill Flag contains a red
St. George’s cross. D. 1 ¶ 41(b). Many religious
groups, including Plaintiffs, have held events at
City-owned properties in the past. D. 8 at 4; D. 11 at
3.1
1

In or about 2012, Plaintiffs obtained permission to and did
fly an unspecified flag on the City Hall flagpole as part of a
free speech event. D. 1 ¶ 19; D. 8 at 4. Plaintiffs do not
allege that they received permission to fly the Christian
flag at that event.

To apply for a permit to raise a flag at City Hall and
hold an event on a City-owned property, a party
submits an application to the City. D. 11 at 3; D. 111 ¶ 13. *114 The City has published guidelines on its
website for applicants. D. 8 at 3; D. 11 at 3; D. 11-1
¶ 13. The guidelines state that an application may
be denied if the event involves illegal or dangerous
activities or if it conflicts with scheduled events. D.
8 at 3-4; D. 11 at 3. In addition, an application may
be denied if the applicant lacks an insurance
certification, lies on their application, has a history

87a
of damaging city property or failing to pay city fees
or fails to comply with other administrative
requirements. D. 8 at 4; D. 11 at 3. After a party has
submitted an application, the City reviews the
request to ensure it complies with all guidelines. D.
1-8 at 2; D. 11 at 3; D. 11-1 ¶ 15. The Commissioner
of Property Management reviews applications for
the City flagpole to ensure flag requests are
“consistent with the City’s message, policies, and
practices.” D. 11 at 3; D. 11-1 ¶¶ 16-17. The City does
not have a written policy regarding the content of
flags to be raised. D. 8 at 4.
On July 28, 2017, Plaintiff Shurtleff emailed the
City on behalf of his organization, Camp
Constitution, requesting to “raise the Christian flag
on City Hall Plaza,” accompanied by “short speeches
by some local clergy focusing on Boston’s history” on
one of several dates in September 2017. D. 1-1. The
email included a photograph of the Christian flag, D.
1-1, which “displays a red Latin cross against a blue
square bordered on three sides by a white field.” D.
1-4. On September 5, 2017, the City denied
Shurtleff’s request to raise the Christian flag
without explanation. D. 1-3. Shurtleff asked for the
“official reason” for denying the permit. Id.
Defendant Rooney wrote to Shurtleff that “[t]he City
of Boston maintains a policy and practice of
respectfully refraining from flying non-secular flags
on the City Hall flagpoles.” D. 1-4. Rooney further
explained that the City’s “policy and practice” was
based upon the First Amendment prohibition on
government establishing religion and the City’s
authority to decide how to use its flagpoles, which

88a
are a “limited government resource.” Id. Rooney
concluded that “[t]he City would be willing to
consider a request to fly a non-religious flag, should
[Shurtleff’s] organization elect to offer one.” Id. In
response, Plaintiffs’ counsel sent a letter to the City
on September 14, 2017, taking the position that the
denial was unconstitutional and declining to
“submit a ‘non-religious’ flag.” D. 1-6 at 2. Plaintiffs’
counsel attached a second application for “Camp
Constitution’s Christian Flag Raising” on October 19
or October 26, 2017. D. 1-5. The stated purpose of
the event was to “[c]elebrate and recognize the
contributions Boston’s Christian community has
made to our city’s cultural diversity, intellectual
capital and economic growth.” Id. The letter stated
that if Plaintiffs did not receive a response by
September 27, 2017, Plaintiffs would take
“additional actions to prevent irreparable harm to
the rights of [their] clients.” D. 1-6 at 4. The City
neither issued a permit to Plaintiffs nor responded
to the letter. D. 8 at 5; D. 11 at 4. Since receiving the
letter, Plaintiffs have not applied to hold further
events on City-owned property, with or without a
flag. D. 11 at 19-20.
IV. Procedural History
On July 6, 2018, Plaintiffs filed the present
complaint seeking injunctive relief, declaratory
relief and damages against Defendants. D. 1.
Plaintiffs moved for a preliminary injunction, D. 7,
which the Court denied on August 29, 2018, D. 19.
Plaintiffs have appealed the Court’s decision
denying them injunctive relief to the First Circuit.
D. 23. The Court denied Plaintiffs’ motion to stay

89a
these proceedings during the pendency of that
appeal. D. 34. Defendants have now moved for
judgment on the pleadings. D. 39. The *115 Court
heard the parties on the pending motion and took
the matter under advisement. D. 46.
V. Discussion
Plaintiffs have asserted six claims—three federal
and three state constitutional: 1) a violation of the
First Amendment free speech clause; 2) a violation
of the First Amendment establishment clause; 3) a
violation of the Fourteenth Amendment equal
protection clause; 4) a violation of the freedom of
speech clause of Article 16 of the Massachusetts
Declaration of Rights; 5) a violation of the nonestablishment of religion clauses of Articles 2 and 3
of the Massachusetts Declaration of Rights; and 6) a
violation of equal protection under Articles 1 and 3
of the Massachusetts Declaration of Rights. The City
seeks judgment on the pleadings as to all of those
claims. Federal law governs the Court’s analysis of
Plaintiffs’ claims under both the United States and
Massachusetts
Constitutions.
See,
e.g.,
Commonwealth v. Barnes, 461 Mass. 644, 650, 963
N.E.2d 1156 (2012) (classifying the free speech
provisions of Article 16 of the Massachusetts
Declaration of Rights as a “cognate provision” of the
First Amendment); Brackett v. Civil Serv. Comm’n,
447 Mass. 233, 243, 850 N.E.2d 533 (2006) (noting
that “[t]he standard for equal protection analysis
under [Massachusetts’] Declaration of Rights is the
same as under the Federal Constitution”); Opinion
of the Justices to the House of Representatives, 423
Mass. 1244, 1247, 673 N.E.2d 36 (1996) (explaining

90a
that the court’s analysis under Article 2 of the
Massachusetts Declaration of Rights was “based on
the same standards applied under the establishment
clause of the First Amendment”).
A. Free Speech Claims
The parties disagree about whether the City’s
selection and presentation of the flags on the City
flagpole constitute government speech or private
speech. If the flags are government speech, as the
City asserts, “then the Free Speech Clause has no
application” and the City may “select the views that
it wants to express.” Pleasant Grove City, Utah v.
Summum, 555 U.S. 460, 467-68, 129 S.Ct. 1125, 172
L.Ed.2d 853 (2009). In contrast, if the flags are
private speech displayed in a limited public forum,
as Plaintiffs argue, the restriction on non-secular
flags must be reasonable and viewpoint neutral.
Rosenberger v. Rector and Visitors of the Univ. of
Va., 515 U.S. 819, 829, 115 S.Ct. 2510, 132 L.Ed.2d
700 (1995). In its order denying the preliminary
injunction, the Court concluded that the selection
and display of the flags on the City Hall flagpole
constituted government speech. That, however, was
based upon a standard of reasonable likelihood of
success, unlike here, where the City seeks judgment
in its favor without the benefit of discovery (which
was scheduled to close this week, months after the
filing of this motion). At this stage, the Court “must
view the facts contained in the pleadings in the light
most favorable to the nonmovant,” in this case, the
Plaintiffs. Pérez-Acevedo, 520 F.3d at 29.
Accordingly, the Court cannot enter judgment for
the City where the record upon which this motion

91a
relies was not as fully developed as to the
determination of government speech.
1. The Court Cannot, at this Juncture, Issue
Judgment in the City’s Favor As to the Government
Speech Issue
Two leading Supreme Court cases inform this
Court’s analysis of whether the City’s selection and
presentation of flags on the City flagpole constitute
government speech. In the first case, Summum,
members of a religious organization called Summum
sued the city of Pleasant Grove under the free speech
clause of the First *116 Amendment for the city’s
failure to erect Summum’s proposed monument in a
public park. Summum, 555 U.S. at 464, 129 S.Ct.
1125. The city had previously erected other privately
donated monuments in the park, including a
monument of the Ten Commandments. Id. at 465,
129 S.Ct. 1125. Summum’s proposed monument was
to contain “the Seven Aphorisms of SUMMUM” and
would “be similar in size and nature to the Ten
Commandments monument.” Id. The city rejected
Summum’s proposal pursuant to an unwritten rule
“limit[ing] monuments in the Park to those that
‘either (1) directly relate[d] to the history of Pleasant
Grove, or (2) were donated by groups with longstanding ties to the Pleasant Grove community.’ ” Id.
The Supreme Court unanimously concluded that the
city’s rejection of Summum’s proposal constituted
government speech and that the “Free Speech
Clause ... does not regulate government speech.” Id.
at 467, 129 S.Ct. 1125.

92a
The Supreme Court subsequently considered a
similar free speech challenge in Walker v. Tex. Div.,
Sons of Confederate Veterans, Inc., ––– U.S. ––––,
135 S.Ct. 2239, 192 L.Ed.2d 274 (2015). Walker
concerned the Texas Department of Motor Vehicle
Board’s rejection of a proposal by the Sons of
Confederate Veterans for a vanity license plate
featuring the Confederate flag. Id. at 2243-44. In
considering the design, the Board sought public
comments. Id. at 2245. Following the comments, the
Board voted unanimously to reject the proposed
plate because “many members of the general public
[found] the design offensive,” “such comments [were]
reasonable” and “a significant portion of the public
associate the confederate flag with organizations
advocating expressions of hate directed toward
people or groups that is demeaning to those people
or groups.” Id. (internal quotation mark omitted).
The Court held that the Texas license plates, like the
monuments in Summum, constituted government
speech and thus were not subject to the free speech
clause. Id. at 2246. The Court primarily focused on
1) the history of the speech at issue; 2) a reasonable
observer’s perception of the speaker and 3) control
over the speech. Id. at 2248-50. Relying heavily on
Summum, the Court concluded that 1) license plates
“long have communicated messages from the
States;” 2) license plates “are often closely identified
in the public mind with the [State]” and reasonable
observers “interpret them as conveying some
message on the [State’s] behalf” and 3) the state had
“effectively controlled” the content of the license
plates by exercising approval authority over each
request. Id. at 2247-49 (first alteration in original)

93a
(citations omitted).
Summum and Walker, which govern the analysis
here, were resolved upon more developed records,
particularly as to the first two Walker factors. Here,
as to the first Walker factor, the current record does
not detail the history of the flagpole and whether the
non-governmental flags at City Hall “long have
communicated messages from the [City].” Id. at
2248. Although “[t]he absence of historical evidence
can be overcome by other indicia of government
speech,” here Defendants have not provided any
other such indicia. Mech v. Sch. Bd. of Palm Beach
Cnty., Fla., 806 F.3d 1070, 1076 (11th Cir. 2015).
Defendants have cited to general propositions about
the messaging of flags, see, e.g., Texas v. Johnson,
491 U.S. 397, 405, 109 S.Ct. 2533, 105 L.Ed.2d 342
(1989) (observing that “[p]regnant with expressive
content, the flag as readily signifies this Nation as
does the combination of letters found in ‘America’ ”),
but have not supplied the Court with any
information about the history of the flags flown at
City Hall. “The absence of historical evidence *117
weighs in [Plaintiffs’] favor.” Mech, 806 F.3d at 1075.
As to the second Walker factor, the present record
contains limited facts relevant to whether the
reasonable observer would perceive the flying of a
flag to be an endorsement of the flag’s message by
the City. See Walker, 135 S.Ct. at 2260-2261 (Alito,
J., dissenting) (warning against the use of
“extrarecord” information in the government speech
analysis). Moreover, the reasonable observer’s
perception of a given display may be informed by the

94a
history of the display itself. See Summum, 555 U.S.
at 477, 129 S.Ct. 1125 (explaining that an observer’s
perception of a display may change over time as
society and “historical interpretations” evolve)
(citation omitted). Accordingly, without sufficient
information to analyze the first Walker factor, the
Court cannot properly assess the second, making
judgment on the pleadings inappropriate.
The Court is aware that since the decisions in
Summum and Walker, at least one federal court has
determined that a city’s selection of private flags on
a city-owned flagpole constitutes government
speech. In United Veterans Mem’l & Patriotic Ass’n
of New Rochelle v. City of New Rochelle, 615 Fed.
App’x. 693, 694 (2d Cir. 2015), the court considered
a challenge to the city’s removal of a veterans
group’s flag from a flagpole in a city-owned armory.
Id. Applying the Supreme Court’s reasoning in
Walker, the Second Circuit in New Rochelle held
that “[t]he City was well within its rights to delegate
to [a private organization] the right to display and
maintain flags on the City-owned flagpole without
creating a public forum of any sort, or relinquishing
control of the flags displayed.” Id. at 694. In New
Rochelle, however, the record before the district
court contained more information about the history
of the speech at issue. See United Veterans Mem’l &
Patriotic Ass’n of New Rochelle v. City of New
Rochelle, 72 F.Supp.3d 468, 471, 475, 477-78
(S.D.N.Y. 2014) (relying upon facts in the record that
detailed the history of the armory and the flags
flown there, the shifting meaning of the particular
flag over time, the length of time for which flags flew

95a
at the armory, a demonstrated history of complaints
about the flag and a breakdown of the city council’s
vote against flying the flag). The record in the case
before this Court has not been similarly developed,
however, and such judgment now would be
premature.
2. Alternatively, the City is Not Entitled at this
Juncture to Judgment that any Restriction on Flag
Selection and Presentation was Reasonable and
Viewpoint Neutral in a Limited Public Forum
If the City’s selection and presentation of flags on
the City flagpole was not government speech, its
permissibility under the Constitution would be
determined based on the type of forum at issue.
There are three types of fora under First
Amendment jurisprudence. One is a traditional
public forum, such as a street or a park, which “has
immemorially been held in trust for the use of the
public....” Hague v. CIO, 307 U.S. 496, 515, 59 S.Ct.
954, 83 L.Ed. 1423 (1939). The second type is a nonpublic forum, “which is not by tradition or
designation a forum for public communication....”
Perry Educ. Ass’n v. Perry Local Educators’ Ass’n,
460 U.S. 37, 46, 103 S.Ct. 948, 74 L.Ed.2d 794
(1983). Between these two types is a “limited public
forum,” which is a non-public forum that the
government “has opened for use by the public as a
place for expressive activity.” Id. at 45, 47, 103 S.Ct.
948.
Plaintiffs assert that the City has designated the
flagpole as a limited public forum and that the City’s

96a
restriction on non-secular flags in such a forum
should *118 be subject to strict scrutiny.2 Strict
scrutiny, however, is not the correct standard for
speech in a limited public forum. Rather, the
Supreme Court’s rule is that in a limited public
forum the government may not exercise viewpoint
discrimination and “may not exclude speech where
its distinction is not ‘reasonable in light of the
purpose served by the forum.’ ” Rosenberger, 515
U.S. at 829, 115 S.Ct. 2510 (quoting Cornelius v.
Nat’l Ass’n for the Advancement of Colored People
Legal Def. & Ed. Fund, Inc., 473 U.S. 788, 806, 105
S.Ct. 3439, 87 L.Ed.2d 567 (1985)).
2

Because Plaintiffs assert that the flagpole is a limited
public forum, rather than a traditional public forum or nonpublic forum, the cases that Plaintiffs cite concerning the
latter categories do not aid the Court’s analysis. See
Rosenberger, 515 U.S. at 829-30, 115 S.Ct. 2510 (stating
that a prior restraint on content discrimination, unlike
viewpoint discrimination, “may be permissible if it
preserves the purposes of [the] limited forum”); cf. D. 43 at
15-16; Watchtower Bible & Tract Soc’y of N.Y., Inc. v. Vill.
of Stratton, 536 U.S. 150, 154, 122 S.Ct. 2080, 153 L.Ed.2d
205 (2002) (scrutinizing ordinance that regulated speech on
“private residential property”); Forsyth Cnty. v.
Nationalist Movement, 505 U.S. 123, 129, 112 S.Ct. 2395,
120 L.Ed.2d 101 (1992) (considering “the constitutionality
of charging a fee for a speaker in a public forum”); FW/PBS,
Inc. v. Dallas, 493 U.S. 215, 220, 110 S.Ct. 596, 107 L.Ed.2d
603 (weighing zoning ordinance regulating “sexually
oriented business[es]”).

In Rosenberger, the Supreme Court held that a
public university could not deny funding to a student
magazine expressing Christian viewpoints on a wide

97a
range of topics while it subsidized other student
journals. Id. at 837, 846, 115 S.Ct. 2510. The Court
emphasized that the reason the University’s policy
ran afoul of the free speech clause was that “the
University [did] not exclude religion as a subject
matter but select[ed] for disfavored treatment those
student journalistic efforts with religious editorial
viewpoints.” Id. at 831, 115 S.Ct. 2510. Following
Rosenberger, other courts have upheld government
exclusions of religion when the policy excluded
religion as a subject matter, rather than a viewpoint
on other subjects, in limited public fora. See, e.g.,
DiLoreto v. Downey Unified Sch. Dist. Bd. of Educ.,
196 F.3d 958, 969 (9th Cir. 1999) (upholding high
school’s decision to exclude religious advertising
funded by third parties on baseball field fence open
exclusively to commercial messages); Archdiocese of
Wash. v. Wash. Metro. Area Transit Auth., 281
F.Supp.3d 88, 96 (D.D.C. 2017) (denying injunctive
relief to plaintiffs challenging bus company’s policy
of excluding religious advertisements funded by
third parties on buses), aff’d, 897 F.3d 314 (D.C. Cir.
2018), reh’g denied, 910 F.3d 1248 (D.C. Cir. 2018).
None of the cases cited above, however, were
resolved at the “embryonic stage” under Rule 12(c).
Pérez-Acevedo, 520 F.3d at 29; see Rosenberger, 515
U.S. at 827, 846, 115 S.Ct. 2510 (reversing summary
judgment); DiLoreto, 196 F.3d at 962 (affirming
summary judgment); Archdiocese of Wash., 281
F.Supp.3d at 116 (denying preliminary injunction
and temporary restraining order). In Rosenberger
specifically, the developed record included prior
issues of the student magazine, the history of the

98a
student magazine’s organizational status on campus
and the number of applications and approvals for
school funding for all student organizations during
the relevant school year. Rosenberger, 515 U.S. at
825-26, 115 S.Ct. 2510.
At this stage of the litigation, the Court cannot
determine whether exclusion of the Christian flag is
reasonable in light of the purpose served by the
forum. Here, the City’s written policies about the
flagpole do not include any provisions about nonsecular *119 flags, nor do they provide insight into
the City’s purpose in controlling the flags that may
be flown. See D. 1-7; D. 1-8. The City asserts that the
policy is reasonable given its interest in avoiding the
appearance of endorsing a particular religion and a
consequential violation of the Establishment
Clause. See Lamb’s Chapel v. Ctr. Moriches Union
Free Sch. Dist., 508 U.S. 384, 394-95, 113 S.Ct. 2141,
124 L.Ed.2d 352 (1993) (noting that “[t]he interest of
the State in avoiding an Establishment Clause
violation ‘may be [a] compelling’ one justifying an
abridgement of free speech otherwise protected by
the First Amendment”) (alteration in original)
(quoting Widmar v. Vincent, 454 U.S. 263, 271, 102
S.Ct. 269, 70 L.Ed.2d 440 (1981)). This assertion,
however, is contested, and the Court must view all
facts contained in the pleadings in the light most
favorable to Plaintiffs. Pérez-Acevedo, 520 F.3d at
29. Applying this standard, the City is not entitled
to judgment at this stage as to whether any
restriction on the flagpole is reasonable and
viewpoint neutral.

99a
B. The Establishment Clause
As discussed above, the Court cannot grant
judgment for the City as to the free speech issue.
Even if it could, however, the Court would still be
required to analyze the application of the
Establishment Clause, because government speech
must comply with the Establishment Clause.
Summum, 555 U.S. at 468, 129 S.Ct. 1125. Plaintiffs
allege that the City’s policy of displaying only nonsecular flags is “overtly hostile to religion and
violates the Establishment Clause.” D. 8 at 11-12.
Defendants, on the other hand, argue that the City
would violate the Establishment Clause if it were to
raise the Christian flag on the City flagpole. D. 11 at
16-18.
The test for reviewing the constitutionality of
religious displays on government property is the
Lemon test, which holds that a government
regulation must 1) “have a secular legislative
purpose,” 2) the “principal or primary effect must be
one that neither advances nor inhibits religion” and
3) the regulation “must not foster an excessive
government entanglement with religion.” Lemon v.
Kurtzman, 403 U.S. 602, 612-13, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971) (internal quotations omitted).
Cases subsequent to Lemon have augmented the
analysis with the “endorsement test.” Lynch v.
Donnelly, 465 U.S. 668, 688-89, 104 S.Ct. 1355, 79
L.Ed.2d 604 (1984) (O’Connor, J. concurring); see
Devaney v. Kilmartin, 88 F.Supp.3d 34, 50 (D.R.I.
2014) (treating the endorsement test as having
“amplified” the Lemon test). Under the endorsement
test, which parallels part two of the Lemon test, the

100a
Court must consider whether the City’s actions have
the “purpose or effect of endorsing, favoring or
promoting religion.” Id. at 51-52 (quoting Freedom
from Religion Found. v. Hanover Sch. Dist., 626 F.3d
1, 10 (1st Cir. 2010)).
Like government speech, “the Establishment Clause
must be interpreted ‘by reference to historical
practices and understandings.’ ” Town of Greece,
N.Y. v. Galloway, 572 U.S. 565, 576, 134 S.Ct. 1811,
188 L.Ed.2d 835 (2014) (citation omitted); see Santa
Fe Indep. Sch. Dist. v. Doe, 530 U.S. 290, 309, 120
S.Ct. 2266, 147 L.Ed.2d 295 (2000) (reviewing a
challenged policy’s history to determine its purpose).
Specifically, “the reasonable observer in the
endorsement inquiry must be deemed aware of the
history and context of the community and forum in
which the religious display appears.” Capitol Square
Review and Advisory Bd. v. Pinette, 515 U.S. 753,
780, 115 S.Ct. 2440, 132 L.Ed.2d 650 (1995)
(O’Connor, J., concurring). Analysis of the
Establishment Clause is also “a delicate and factsensitive one.” *120 Lee v. Weisman, 505 U.S. 577,
597, 112 S.Ct. 2649, 120 L.Ed.2d 467 (1992); see
Town of Greece, 572 U.S. at 587, 134 S.Ct. 1811
(noting that analysis of prayer at town board
meetings under the Establishment Clause is “factsensitive” and that the Court “considers both the
setting in which the prayer arises and the audience
to whom it is directed”). As explained above, the
current record does not contain sufficient
information about the history of flags on the City
flagpole to assess the primary effect of the City’s
policy on non-secular flags. Accordingly, the Court

101a
cannot resolve the Establishment Clause claim at
this time.
C. Fourteenth Amendment Equal Protection
Plaintiffs argue that the City’s policy violates the
Equal Protection Clause of the Fourteenth
Amendment. The Equal Protection Clause requires
that “all persons similarly situated ... be treated
alike.” City of Cleburne v. Cleburne Living Ctr., 473
U.S. 432, 439, 105 S.Ct. 3249, 87 L.Ed.2d 313 (1985).
To establish an equal protection claim, Plaintiffs
must allege facts showing that “(1) the person,
compared with others similarly situated, was
selectively restricted; and (2) that such selective
treatment
was
based
on
impermissible
considerations such as race, religion, intent to
inhibit or punish the exercise of constitutional
rights, or malicious or bad faith intent to injure a
person.” Davis v. Coakley, 802 F.3d 128, 132-33 (1st
Cir. 2015) (citation omitted).
Plaintiffs allege that the City’s policy against nonsecular flags violates equal protection because it
discriminates against speech based on its content–
namely, against religious speech. D. 43 at 21. In
holding that a teacher’s group separate from the
union lacked a First or Fourteenth Amendment
right to access a school’s internal mail system, the
Supreme Court in Perry explained that “on
government property that has not been made a
public forum, not all speech is equally situated, and
the State may draw distinctions which relate to the
special purpose for which the property is used.”
Perry, 460 U.S. at 55, 103 S.Ct. 948. In Perry,

102a
however, the Court’s equal protection analysis was
informed by its conclusion that the teacher’s group
did not have a “First Amendment or other right of
access” to the mail system. Id. at 54, 103 S.Ct. 948.
Here, as explained above, the Court cannot reach a
conclusion on the First Amendment issue at this
stage. Moreover, unlike in this case, the Court in
Perry had the benefit of the full summary judgment
record and was able to consider, for example, the
other groups that had been granted access to the
school’s mail system, the history of the school’s
policy regarding the mail boxes and the availability
of other means to transmit messages at the school.
Id. at 47, 103 S.Ct. 948; Perry Educ. Ass’n v. Perry
Local Educators’ Ass’n, 652 F.2d 1286, 1287 (7th Cir.
1981). Accordingly, the Court, therefore, also cannot
grant judgment to the City on the equal protection
claim at this juncture.
VI. Conclusion
For the aforementioned reasons, the Court DENIES
Defendants’ motion for judgment on the pleadings,
D. 39.
So Ordered.
All Citations
385 F.Supp.3d 109

103a
DISTRICT COURT ORDER
DENYING PRELIMINARY INJUNCTION,
FILED AUGUST 29, 2018
337 F.Supp.3d 66
United States District Court, D. Massachusetts.
Harold SHURTLEFF et al., Plaintiffs,
v.
CITY OF BOSTON et al., Defendants.
Civil Action No. 18-cv-11417-DJC
|
Filed 08/29/2018
Attorneys and Law Firms
*69 Ryan P. McLane, McLane & McLane, LLC,
Feeding Hills, MA, Horatio G. Mihet, Pro Hac Vice,
Mathew D. Staver, Pro Hac Vice, Roger Gannam,
Pro Hac Vice, Liberty Counsel, Orlando, FL, for
Plaintiffs.
David J. Zuares, Catherine A. Lizotte, Robert S.
Arcangeli, City of Boston Law Department, Boston,
MA, for Defendants.

MEMORANDUM AND ORDER
Denise J. Casper, United States District Judge
I. Introduction
Plaintiffs Harold Shurtleff and Camp Constitution
(“Plaintiffs”) have moved for a preliminary
injunction against Defendants, the City of Boston

104a
and Gregory T. Rooney, in his official capacity as
Commissioner of the City of Boston Property
Management
Department
(collectively,
“Defendants” or “the City”). D. 7. Plaintiffs seek to
enjoin the City from denying permission to the
Plaintiffs to display “the Christian flag” on a City
Hall flagpole in conjunction with their Constitution
Day and Citizenship Day event on or around
September 17, 2018. D. 7 at 2. For the reasons
discussed below, Plaintiffs’ motion for a preliminary
injunction, D. 7, is DENIED.
*70 II. Standard of Review
“A preliminary injunction is an ‘extraordinary and
drastic remedy.’ ” Voice of the Arab World, Inc. v.
MDTV Med. News Now, Inc., 645 F.3d 26, 32 (1st
Cir. 2011) (quoting Munaf v. Geren, 553 U.S. 674,
689-90, 128 S.Ct. 2207, 171 L.Ed.2d 1 (2008) ). To
obtain a preliminary injunction, the Court must
consider: (1) the movant’s likelihood of success on
the merits; (2) the likelihood of the movant suffering
irreparable harm; (3) the balance of equities; and (4)
whether granting the injunction is in the public
interest. Corp. Techs., Inc. v. Harnett, 731 F.3d 6, 9
(1st Cir. 2013). Plaintiffs “bear[ ] the burden of
establishing that these four factors weigh in [their]
favor.” Esso Standard Oil Co. (P.R.) v. MonroigZayas, 445 F.3d 13, 18 (1st Cir. 2006); see RiveraVega v. ConAgra Inc., 70 F.3d 153, 164 (1st Cir.
1995) (quoting Pye ex rel. NLRB v. Sullivan Bros.
Printers, 38 F.3d 58, 63 (1994) ) (noting that when
the relief sought by the moving party “is essentially
the final relief sought, the likelihood of success
should be strong”) (emphasis in original) (internal

105a
quotation marks omitted).
III. Factual Background
The following facts, largely undisputed, are drawn
from the complaint, D. 1, Plaintiffs’ motion for a
preliminary injunction, D. 7-8, and the City’s
opposition, D. 11. The City owns and manages three
flagpoles located in front of the entrance to City Hall,
in an area called City Hall Plaza. D. 11 at 2; D. 11-1
¶ 5. The three poles are the same height,
approximately 83 feet tall. D. 11 at 2. One pole
regularly displays the flags of the United States and
the National League of Families Prisoner of
War/Missing in Action (“POW/MIA”) flag. Id. A
second pole flies the flag of the Commonwealth of
Massachusetts. Id. The dispute in this case centers
on the third flagpole, which displays the City of
Boston flag except when replaced by another flag—
usually at the request of a third-party. Id. Such a
request is often made in conjunction with a proposed
third-party event to take place at a location owned
by the City, one of which is City Hall Plaza. Id.
Examples of other flags that have been raised on the
third flagpole are country flags, e.g., the flags of
Brazil, Ethiopia, Portugal, Puerto Rico, the People’s
Republic of China and Cuba, and the flags of private
organizations, including the Juneteenth flag
recognizing the end of slavery, the LGBT rainbow
pride flag, the pink transgender rights flag, and the
Bunker Hill Association flag. D. 8 at 3; D. 11 at 2. As
Plaintiffs allege, the flag of Portugal contains “dots
inside the blue shields represent[ing] the five
wounds of Christ when crucified” and “thirty dots
that represents [sic] the coins Judas received for

106a
having betrayed Christ.” D. 1 ¶ 36. The City of
Boston flag includes the Boston seal’s Latin
inscription, which translates to “God be with us as
he was with our fathers.” D. 1 ¶ 41(a). As Plaintiffs
note, the Bunker Hill Flag contains a red St.
George’s cross. D. 1 ¶ 41(b). Many religious groups,
including Plaintiffs, have held events at City-owned
properties in the past. D. 8 at 4; D. 11 at 3.1
1

In or about 2012, Plaintiffs obtained permission to and did
fly an unspecified flag on the City Hall flagpole as part of a
free speech event. D. 1 ¶ 19; D. 8 at 4. Plaintiffs do not
allege that they received permission to fly the Christian
flag at that event.

To apply for a permit to raise a flag at City Hall and
hold an event on a City-owned property, a party
submits an application to the City. D. 11 at 3; D. 111 ¶ 13. The City has published guidelines on its
website for applicants. D. 8 at 3; D. 11 at 3; D. 11-1
¶ 13. The guidelines state that an application may
be denied if the event *71 involves illegal or
dangerous activities or if it conflicts with scheduled
events. D. 8 at 3-4; D. 11 at 3. In addition, an
application may be denied if the applicant lacks an
insurance certification, lies on their application, has
a history of damaging city property or failing to pay
city fees or fails to comply with other administrative
requirements. D. 8 at 4; D. 11 at 3. After a party has
submitted an application, the City reviews the
request to ensure it complies with all guidelines. D.
1-8 at 2; D. 11 at 3; D.11-1 ¶ 15. The Commissioner
of Property Management reviews applications for
the City flagpole to ensure flag requests are

107a
“consistent with the City’s message, policies, and
practices.” D. 11 at 3; D. 11-1 ¶¶ 16-17. The City does
not have a written policy regarding the content of
flags to be raised. D. 8 at 4.
On July 28, 2017, Plaintiff Shurtleff emailed the
City on behalf of his organization, Camp
Constitution, requesting to “raise the Christian flag
on City Hall Plaza,” accompanied by “short speeches
by some local clergy focusing on Boston’s history” on
one of several dates in September 2017. D. 1-1. The
email included a photograph of the Christian flag, D.
1-1, which “displays a red Latin cross against a blue
square bordered on three sides by a white field.” D.
1-4. On September 5, 2017, the City denied
Shurtleff’s request to raise the Christian flag
without explanation. D. 1-3. Shurtleff asked for the
“official reason” for denying the permit. Id.
Defendant Rooney wrote to Shurtleff that “[t]he City
of Boston maintains a policy and practice of
respectfully refraining from flying non-secular flags
on the City Hall flagpoles.” D. 1-4. Rooney further
explained that the City’s “policy and practice” was
based on the First Amendment prohibition on
government establishing religion and the City’s
authority to decide how to use its flagpoles, which
are a “limited government resource.” Id. Rooney
concluded that “[t]he City would be willing to
consider a request to fly a non-religious flag, should
[Shurtleff’s] organization elect to offer one.” Id. In
response, Plaintiffs’ counsel sent a letter to the City
on September 14, 2017, taking the position that the
denial was unconstitutional and declining to
“submit a ‘non-religious’ flag.” D. 1-6 at 2. Plaintiffs’

108a
counsel attached a second application for “Camp
Constitution’s Christian Flag Raising” on October 19
or October 26, 2017. D. 1-5. The stated purpose of
the event was to “[c]elebrate and recognize the
contributions Boston’s Christian community has
made to our city’s cultural diversity, intellectual
capital and economic growth.” Id. The letter stated
that if Plaintiffs did not receive a response by
September 27, 2017, Plaintiffs would take
“additional actions to prevent irreparable harm to
the rights of [their] clients.” D. 1-6 at 4. The City
neither issued a permit to Plaintiffs nor responded
to the letter. D. 8 at 5; D. 11 at 4. Since receiving the
letter, Plaintiffs have not applied to hold further
events on City-owned property, with or without a
flag. D. 11 at 19-20.
IV. Procedural History
On July 6, 2018, Plaintiffs filed the present
complaint seeking injunctive relief, declaratory
relief and damages against Defendants. D. 1. On
July 9, 2018, Plaintiffs moved for a preliminary
injunction. D. 7. On August 9, 2018, the Court heard
the parties on the pending motion and took this
matter under advisement. D. 14.
V. Discussion
Plaintiffs have asserted six claims—three federal
and three state constitutional: 1) a violation of the
First Amendment free speech clause; 2) a violation
of the First Amendment establishment clause; 3) a
violation of the Fourteenth Amendment equal
protection clause; 4) a violation of *72 the freedom of
speech clause of Article 16 of the Massachusetts

109a
Declaration of Rights; 5) a violation of the nonestablishment of religion clauses of Articles 2 and 3
of the Massachusetts Declaration of Rights; and 6) a
violation of equal protection under Articles 1 and 3
of the Massachusetts Declaration of Rights.2
2

Although Plaintiffs request an order compelling the City to
include a description of Plaintiffs’ event on its website,
Plaintiffs have not alleged that the City denied any such
request. As such, Plaintiffs have not “present[ed] a real,
substantial controversy ... a dispute definite and concrete,
not hypothetical or abstract” that is ripe for resolution as
to this request. Nomad Acquisition Corp. v. Damon Corp.,
701 F.Supp. 10, 11 (D. Mass. 1988) (quoting Babbitt v.
United Farm Workers Nat’l Union, 442 U.S. 289, 298, 99
S.Ct. 2301, 60 L.Ed.2d 895 (1979) ) (internal quotation
marks and punctuation omitted). Accordingly, the Court’s
analysis is limited to Plaintiffs’ claims with respect to the
prayer for relief concerning the denial of permission to
raise the Christian flag on the City flagpole.

As an initial matter, federal law governs the Court’s
analysis of the Plaintiffs’ claims under both the
United States and Massachusetts Constitutions.
See, e.g., Commonwealth v. Barnes, 461 Mass. 644,
650, 963 N.E.2d 1156 (2012) (classifying the free
speech provisions of Article 16 of the Massachusetts
Declaration of Human rights as a “cognate
provision” of the First Amendment); Brackett v.
Civil Serv. Comm’n, 447 Mass. 233, 243, 850 N.E.2d
533 (2006) (noting that “[t]he standard for equal
protection
analysis
under
[Massachusetts’]
Declaration of Rights is the same as under the
Federal Constitution”); Opinion of the Justices to the
House of Representatives, 423 Mass. 1244, 1247, 673

110a
N.E.2d 36 (1996) (explaining that the court’s
analysis under Article 2 of the Declaration of Rights
of the Massachusetts Constitution was “based on the
same standards applied under the establishment
clause of the First Amendment”). Here, neither
party has meaningfully cited to Massachusetts law
to assess the constitutionality of the City’s actions.
In a single footnote, Plaintiffs assert that rights to
freedom of expression are generally coextensive
under the United States and Massachusetts
Constitutions and that where the two diverge, the
state protections are “more extensive.” D. 8 at 6, n.1
(citing Flaherty v. Knapik, 999 F.Supp.2d 323, 332
(D. Mass. 2014) ). Plaintiffs, however, do not
specifically address how these “more extensive”
protections under Massachusetts law would apply to
the instant case. Defendants assert that federal
jurisprudence governs the analysis. D. 11 at 5, n. 3.
Like Plaintiffs, they note that in some instances,
provisions of the Massachusetts Constitution are
more protective than those of the United States
Constitution, but Defendants contend that those
instances are inapplicable to the present case.
Because neither party has argued that the Court
should rely on Massachusetts law rather than
federal law, the Court will address the
Massachusetts constitutional claims coextensively
with their federal counterparts.
A. Likelihood of Success on the Merits
Although the Court considers all factors of the
preliminary injunction analysis, “[t]he sine qua non
of this four-part inquiry is likelihood of success on
the merits: if the moving party cannot demonstrate

111a
that [it] is likely to succeed in [its] quest, the
remaining factors become matters of idle curiosity.”
New Comm Wireless Servs., Inc. v. SprintCom, Inc.,
287 F.3d 1, 9 (1st Cir. 2002); see Boathouse Grp., Inc.
v. TigerLogic Corp., 777 F.Supp.2d 243, 248 (D.
Mass. 2011) (explaining that “[l]ikelihood of success
on the merits is the critical factor in the analysis
and, accordingly, a strong likelihood of *73 success
may overcome a ‘somewhat less’ showing of another
element”) (quoting EEOC v. Astra U.S.A., Inc., 94
F.3d 738, 743 (1st Cir. 1996) ).
1. Free Speech Claims
The parties disagree about whether the City’s
selection and presentation of the flags on the City
flagpole constitute government speech or private
speech. If the flags are government speech, as
Defendants assert, “then the Free Speech Clause
has no application” and the City may “select the
views that it wants to express.” Pleasant Grove City,
Utah v. Summum, 555 U.S. 460, 467-68, 129 S.Ct.
1125, 172 L.Ed.2d 853 (2009). In contrast, if the flags
are private speech displayed in a limited public
forum, as Plaintiffs argue, the restriction on nonsecular flags must be reasonable and viewpoint
neutral. Rosenberger v. Rector and Visitors of Univ.
of Va., 515 U.S. 819, 829, 115 S.Ct. 2510, 132
L.Ed.2d 700 (1995). This Court concludes that the
selection and display of the flags on the City flagpole
constitute government speech. Moreover, even if
they did not constitute government speech, the
Court finds that the City’s restriction on non-secular
flags satisfies the constitutional requirements for

112a
limitations on speech in a limited public forum.
a) The City’s Selection and Presentation of Flags
Constitutes Government Speech
Two leading Supreme Court cases compel the
conclusion that the City’s selection and presentation
of flags on the City flagpole constitute government
speech. In the first case, Pleasant Grove City,
members of a religious organization called Summum
sued the city of Pleasant Grove under the free speech
clause of the First Amendment for the city’s failure
to erect Summum’s proposed monument in a public
park. Pleasant Grove City, 555 U.S. at 464, 129 S.Ct.
1125. The city had previously erected other privately
donated monuments in the park, including a
monument of the Ten Commandments. Id. at 465,
129 S.Ct. 1125. Summum’s proposed monument was
to contain “the Seven Aphorisms of SUMMUM” and
would “be similar in size and nature to the Ten
Commandments monument.” Id. The city rejected
Summum’s proposal pursuant to an unwritten rule
“limit[ing] monuments in the Park to those that
‘either (1) directly relate[d] to the history of Pleasant
Grove, or (2) were donated by groups with longstanding ties to the Pleasant Grove community.’ ” Id.
The Supreme Court unanimously concluded that the
city’s rejection of Summum’s proposal constituted
government speech and that the “Free Speech
Clause ... does not regulate government speech.” Id.
at 467, 129 S.Ct. 1125.
The Supreme Court subsequently considered a
similar free speech challenge in Walker v. Tex. Div.,

113a
Sons of Confederate Veterans, Inc., ––– U.S. ––––,
135 S.Ct. 2239, 192 L.Ed.2d 274 (2015). Walker
concerned the Texas Department of Motor Vehicle
Board’s rejection of a proposal by the Sons of
Confederate Veterans for a vanity license plate
featuring the Confederate flag. Id. at 2243-44. In
considering the design, the Board sought public
comments. Id. at 2245. Following the comments, the
Board voted unanimously to reject the proposed
plate because “many members of the general public
[found] the design offensive,” “such comments [were]
reasonable” and “a significant portion of the public
associate the confederate flag with organizations
advocating expressions of hate directed toward
people or groups that is demeaning to those people
or groups.” Id. (internal quotation mark omitted).
The Court held that the Texas license plates, like the
monuments in Summum, constituted government
speech and thus *74 were not subject to the free
speech clause. Id. at 2246-47. The Court primarily
focused on 1) the history of the speech at issue; 2) a
reasonable observer’s perception of the speaker and
3) control over the speech. Id. at 2248-50. Relying
heavily on Summum, the Court concluded that 1)
license plates “long have communicated messages
from the States;” 2) license plates “are often closely
identified in the public mind with the [State]” and
reasonable observers “interpret them as conveying
some message on the [State’s] behalf” and 3) the
state had “effectively controlled” the content of the
license plates by exercising approval authority over
each request. Id. at 2247-48 (internal quotations and
citations omitted).

114a
Applying the factors from Summum and Walker to
this case, the Court concludes that the City’s
selection and presentation of flags on the City
flagpole constitute government speech. First, like
public monuments, “[g]overnments have long used
[flags] to speak to the public.” Summum, 555 U.S. at
470, 129 S.Ct. 1125; see Texas v. Johnson, 491 U.S.
397, 405, 109 S.Ct. 2533, 105 L.Ed.2d 342 (1989)
(observing that “[p]regnant with expressive content,
the flag as readily signifies this Nation as does the
combination of letters found in ‘America’ ”); W. Va.
State Bd. of Educ. v Barnette, 319 U.S. 624, 632, 63
S.Ct. 1178, 87 L.Ed. 1628 (1943) (noting that “[t]he
use of an emblem or flag to symbolize some system,
idea, institution, or personality, is a shortcut from
mind to mind. Causes and nations, political parties,
lodges and ecclesiastical groups seek to knit the
loyalty of their followings to a flag or banner ...”).
Second, “there is little chance that observers [would]
fail to appreciate the identity of the speaker” as the
City when confronted with a flag flying 83 feet in the
air above City Hall on City property next to the flags
of the United States and the Commonwealth.
Summum, 555 U.S. at 471, 129 S.Ct. 1125. Third,
the City has “effectively controlled” which flags have
flown at City hall “by exercising ‘final approval
authority’ over their selection.” Walker, 135 S.Ct. at
2247 (quoting Summum, 555 U.S. at 473, 129 S.Ct.
1125) (internal quotation marks omitted). Like the
government entities in Summum and Walker, here
the City has a controlled process through which
applicants can request to fly a flag on City-owned
property.

115a
Plaintiffs’ rejection of a proposed alternative for
expressing itself also supports the contention that
flag-raising is government speech. As the Supreme
Court reasoned in Walker:
Indeed, a person who displays a message on a
Texas license plate likely intends to convey to the
public that the State has endorsed that message.
If not, the individual could simply display the
message in question in larger letters on a bumper
sticker right next to the plate. But the individual
prefers a license plate design to the purely private
speech expressed through bumper stickers. That
may well be because Texas’s license plate designs
convey government agreement with the message
displayed.
Walker, 135 S.Ct. at 2249.
Similar to the bumper sticker, there is nothing in the
record to suggest that Plaintiffs could not display the
Christian flag on City Hall Plaza as part of their
event. See D. 11 at 10. That Plaintiffs have
apparently rejected this option indicates a wish to
“convey government agreement with the message
displayed.” Id.
Since the Supreme Court decisions in Summum and
Walker, at least one federal court has determined
that a city’s selection of private flags on a city-owned
flagpole constitutes government speech. In *75
United Veterans Mem’l & Patriotic Ass’n of New
Rochelle v. City of New Rochelle, 615 Fed.Appx. 693,
694 (2d Cir. 2015), the court considered a First
Amendment challenge to the city’s removal of a

116a
veterans group’s flag from a flagpole in a city-owned
armory. Id. The group had previously been granted
“the right to display and maintain flags” on the
flagpole. Id. Nonetheless, considering the Supreme
Court decision in Walker, the Second Circuit held
that “[t]he City was well within its rights to delegate
to [a private organization] the right to display and
maintain flags on the City-owned flagpole without
creating a public forum of any sort, or relinquishing
control of the flags displayed.” Id. Like the court in
New Rochelle, this Court concludes that the City’s
selection of flags on City-owned property is
government speech and, as a result, the free speech
clause does not apply.
b) Even if the Selection and Presentation of Flags
Were Not Government Speech, the Restriction on
Non-Secular Flags is Reasonable, View-Point
Neutral and Permissible in a Limited Public Forum
If the City’s selection and presentation of flags on
the City flagpole were not government speech, their
permissibility under the Constitution would be
determined based on the type of forum at issue.
There are three types of fora under First
Amendment jurisprudence. One is a traditional
public forum, such as a street or a park, which “has
immemorially been held in trust for the use of the
public....” Hague v. CIO, 307 U.S. 496, 515, 59 S.Ct.
954, 83 L.Ed. 1423 (1939). The second type is a nonpublic forum, “which is not by tradition or
designation a forum for public communication....”
Perry Educ. Ass’n v. Perry Local Educators’ Ass’n,
460 U.S. 37, 46, 103 S.Ct. 948, 74 L.Ed.2d 794

117a
(1983). Between these two types is a “limited public
forum,” which is a non-public forum that the
government “has opened for use by the public as a
place for expressive activity.” Id. at 45, 103 S.Ct.
948.
Plaintiffs assert that the City has designated the
flagpole as a limited public forum and that the City’s
restriction on non-secular flags in such a forum
should be subject to strict scrutiny.3 Strict scrutiny,
however, is not the correct standard for speech in a
limited public forum. Rather, the Supreme Court’s
rule is that in a limited public forum government
may not exercise viewpoint discrimination and “may
not exclude speech where its distinction is not
‘reasonable in light of the purpose served by the
forum.’ ” Rosenberger, 515 U.S. at 829, 115 S.Ct.
2510 (quoting Cornelius v. Nat’l Ass’n for the
Advancement of Colored People Legal Def. & Ed.
Fund, Inc., 473 U.S. 788, 806, 105 S.Ct. 3439, 87
L.Ed.2d 567 (1985) ).4
3

Because Plaintiffs assert that the flagpole is a limited
public forum, rather than a traditional public forum, the
cases that Plaintiffs cite concerning this latter category do
not aid the Court’s analysis. See Rosenberger, 515 U.S. at
829-30, 115 S.Ct. 2510 (stating that a prior restraint on
content discrimination, unlike viewpoint discrimination,
“may be permissible if it preserves the purposes of [the]
limited forum”); cf. D. 8 at 13-14; Watchtower Bible & Tract
Soc’y of N.Y., Inc. v. Vill. of Stratton, 536 U.S. 150, 154, 122
S.Ct. 2080, 153 L.Ed.2d 205 (2002) (scrutinizing ordinance
that regulated speech on “private residential property”);
Forsyth County v. Nationalist Movement, 505 U.S. 123,
129, 112 S.Ct. 2395, 120 L.Ed.2d 101 (1992) (considering
“the constitutionality of charging a fee for a speaker in a

118a
public forum”); City of Lakewood v. Plain Dealer Publ’g Co.,
486 U.S. 750, 753, 108 S.Ct. 2138, 100 L.Ed.2d 771
(adjudicating appellee’s rights to place newsracks on “city
sidewalks,” which are traditional public fora).

4

Similarly, Plaintiffs’ argument that the burden shifts to the
City to prove the constitutionality its policy is unavailing
in the context of a limited public forum. In support of their
arguments, Plaintiffs rely on Ashcroft v. Am. Civil
Liberties Union, 542 U.S. 656, 665-66, 124 S.Ct. 2783, 159
L.Ed.2d 690 (2004) and Gonzales v. O Centro Espirita
Beneficente Uniao do Vegetal, 546 U.S. 418, 429, 126 S.Ct.
1211, 163 L.Ed.2d 1017 (2006). Those cases, however,
involved challenges to federal legislation restricting speech
and religious expression, rather than a municipal policy
regulating private speech in a limited public forum. Such
legislation is reviewed under strict scrutiny, which places
the burden on the government to demonstrate a compelling
interest in limiting speech and narrow tailoring of the
legislation, even at the preliminary injunction stage.
Gonzales, 546 U.S. at 429, 126 S.Ct. 1211. In contrast, as
explained above, strict scrutiny is not the proper standard
of review for a restriction on speech in a limited public
forum.

*76 The City’s policy of excluding non-secular flags
is viewpoint neutral because it excludes religion as
a subject matter of speech on the flagpole, rather
than prohibiting religious viewpoints on otherwise
permissible subjects. See Rosenberger, 515 U.S. at
831, 115 S.Ct. 2510. In Rosenberger, the Supreme
Court held that a public university could not deny
funding to a student magazine expressing Christian
viewpoints on a wide range of topics while it
subsidized other student journals. Id. at 837, 846,

119a
115 S.Ct. 2510. The Court emphasized that the
reason the University’s policy ran afoul of the free
speech clause was that “the University [did] not
exclude religion as a subject matter but select[ed] for
disfavored treatment those student journalistic
efforts with religious editorial viewpoints.” Id. at
831, 115 S.Ct. 2510. Following Rosenberger, other
courts have upheld government exclusions of
religion when the policy excluded religion as a
subject matter, rather than a viewpoint on other
subjects, in limited public fora. See, e.g., DiLoreto v.
Downey Unified Sch. District Bd. of Ed., 196 F.3d
958, 969 (9th Cir. 1999) (upholding high school’s
decision to exclude religious advertising funded by
third parties on baseball field fence open exclusively
to commercial messages); Archdiocese of Wash. v.
Wash. Metro. Area Transit Auth., 281 F.Supp.3d 88,
96 (D.D.C. 2017) (denying injunctive relief to
plaintiffs challenging bus company’s policy of
excluding religious advertisements funded by third
parties on buses). Here, as in the cases above, the
City has permissibly chosen to exclude religion as a
subject matter, rather than as one perspective
among many on other subjects. Therefore, the City’s
policy is viewpoint neutral.
The City’s policy is also reasonable based on the
City’s interest in avoiding the appearance of
endorsing a particular religion and a consequential
violation of the Establishment Clause. See Lamb’s
Chapel v. Ctr. Moriches Union Free Sch. Dist., 508
U.S. 384, 394-95, 113 S.Ct. 2141, 124 L.Ed.2d 352
(1993) (noting that “[t]he interest of the State in
avoiding an Establishment Clause violation ‘may be

120a
[a] compelling’ one justifying an abridgement of free
speech otherwise protected by the First
Amendment”) (quoting Widmar v. Vincent, 454 U.S.
263, 271, 102 S.Ct. 269, 70 L.Ed.2d 440 (1981)).
Moreover, where the Plaintiffs the opportunity to
conduct their event on City Hall Plaza, fly a secular
flag on the City flagpole or display the Christian flag
on City Hall Plaza but not on the City flagpole, the
City has demonstrated reasonableness and that it
does not seek to silence Plaintiffs.
2. The Establishment Clause
As discussed above, the Court rules that the City’s
selection and presentation of flags on the City
flagpole constitute government speech. Government
speech must still comply with the Establishment
Clause. Summum, 555 U.S. at 468, 129 S.Ct. 1125.
Plaintiffs allege that the City’s policy of displaying
only non-secular flags is “overtly hostile to religion
and violates the Establishment Clause.” D. 8 at 1112. Defendants, on the other hand, *77 argue that
the City would violate the Establishment Clause if
it were to raise the Christian flag on the City
flagpole. D. 11 at 16-18. The Court concludes that
Plaintiffs have not demonstrated a substantial
likelihood of success on the merits of their claim
under the Establishment Clause.
The test for reviewing the constitutionality of
religious displays on government property is the
Lemon test, which holds that a government
regulation must 1) “have a secular legislative
purpose,” 2) the “principal or primary effect must be

121a
one that neither advances nor inhibits religion” and
3) the regulation “must not foster an excessive
government entanglement with religion.” Lemon v.
Kurtzman, 403 U.S. 602, 612-13, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971) (internal quotations omitted).
Cases subsequent to Lemon have augmented the
analysis with the “endorsement test.” Lynch v.
Donnelly, 465 U.S. 668, 688-89, 104 S.Ct. 1355, 79
L.Ed.2d 604 (1984) (O’Connor, J. concurring); see
Devaney v. Kilmartin, 88 F. Supp. 3d 34, 50 (D.R.I.
2014) (treating the endorsement test as having
“amplified” the Lemon test). Under the endorsement
test, the Court must consider whether the City’s
actions have the “purpose or effect of endorsing,
favoring or promoting religion.” Id. at 51-52 (D.R.I.
2014) (quoting Freedom from Religion Found. v.
Hanover Sch. Dist., 626 F.3d 1, 10 (1st Cir. 2010) ).
Applying the Lemon and endorsement test, the
Court concludes that compelling the City to display
the Christian flag on the City flagpole, as Plaintiffs
seek to do, may well violate the Establishment
Clause. Certainly, an event to “raise the Christian
flag” could serve some of Plaintiffs’ cited secular
purposes, such as the celebration of religious
freedom in Boston and the contributions of Boston’s
Christian residents to the City. However, its
primary purpose would be to convey government
endorsement of a particular religion by displaying
the Christian flag alongside that of the United
States and the Commonwealth in front of City Hall.
Blowing in the wind, these side-by-side flags could
quite literally become entangled. If Plaintiffs were
not seeking government endorsement, then

122a
Plaintiffs would presumably be content to raise their
own flag on their own in the same location as has
been suggested. See Walker, 135 S.Ct. at 2249
(explaining that plaintiffs sought to have their
speech displayed on a license plate, rather than on a
sticker next to a license plate, because the license
plate would “convey government agreement with the
message displayed”).
3. Fourteenth Amendment Equal Protection
Plaintiffs argue that the City’s policy violates the
Equal Protection Clause of the Fourteenth
Amendment as it is stated and as it is applied to
Plaintiffs. The Court does not conclude that
Plaintiffs have shown a likelihood of success that the
City’s policy as it stands and as applied does not rise
to the level of violating Plaintiffs’ rights under the
Equal Protection Clause.
First, Plaintiffs allege that they have been deprived
of equal protection of the laws because the City’s
policy
prohibiting
non-secular
flags
is
unconstitutionally vague. Plaintiffs cite to five cases
standing for the proposition that government
regulations cannot be overly vague so that citizens
can be informed of their rights. D. 8 at 16-17.
However, none of these cases apply to the regulation
of government speech or even private speech in a
limited public forum. Moreover, although the City’s
policy against flying non-secular flags is unwritten,
that does not make it unconstitutional. See
Summum, 555 U.S. at 465, 129 S.Ct. 1125
(upholding city’s practice *78 of limiting the types of

123a
monuments in park despite the policy not being put
into writing until the year after the city’s rejection of
Plaintiffs’ proposed monument). While the City
should strive to make its policies clear, here
Plaintiffs have failed to show that any vagueness in
the policy has risen to the level of a Fourteenth
Amendment violation.
Next, Plaintiffs allege that the City’s policy against
non-secular flags violates Equal Protection because
it discriminates against speech based on its content.
In support, Plaintiffs mainly rely on Police Dep’t of
City of Chicago v. Mosley, 408 U.S. 92, 92 S.Ct. 2286,
33 L.Ed.2d 212 (1972) and Carey v. Brown, 447 U.S.
455, 100 S.Ct. 2286, 65 L.Ed.2d 263 (1980), in which
the plaintiffs prevailed on claims of speech-related
Equal Protection violations. However, the Supreme
Court specifically held that the “key” to the
plaintiffs’ success in Mosley and Carey was “the
presence of a public forum.” Perry, 460 U.S. at 55,
103 S.Ct. 948. The Court further reasoned that
“[c]onversely on government property that has not
been made a public forum, not all speech is equally
situated, and the State may draw distinctions which
relate to the special purpose for which the property
is used.” Id. For the reasons already discussed above,
and consistent with the conclusions in Perry, the
Court concludes that here the City’s policy, as
applied outside of a public forum, permissibly
excludes the subject of religion and does not violate
Equal Protection.
Finally, Plaintiffs allege that they have been treated
differently from other similarly situated groups

124a
under the City’s policy in violation of Equal
Protection. The Supreme Court has held that
“[w]hen speakers and subjects are similarly
situated, the State may not pick and choose.” Id. As
evidence of their differential treatment, Plaintiffs
cite to the display of the flags of Portugal, the City of
Boston and the Bunker Hill Association—all of
which feature references to God and Christ—on the
City flagpole.5 Plaintiffs are correct that under the
City’s unwritten policy, there may be some close
cases regarding which flags are “non-secular,” but
these examples are not among them. The exemplar
flags, unlike the Christian flag, comply with the
Lemon test in that their primary effect is not to
advance or inhibit religion. Lemon, 403 U.S. at 612,
91 S.Ct. 2105. The names of the flags alone are
enough to reveal their primary purposes. The
Christian flag primarily represents a specific
religion, while the other cited flags represent a
sovereign nation, a city government and a group
committed to remembering a military victory.
Therefore, Plaintiffs are not similarly situated to the
sponsors of the Portuguese, City of Boston and
Bunker Hill Association flag events and have failed
to make out a claim of differential treatment in
violation of the Fourteenth Amendment.
5

Plaintiffs also emphasize the City’s prior decisions to grant
permission to private parties to raise the LGBT rainbow
pride flag, transgender rights flag and the Juneteenth flag
on the City flagpole. However, none of these flags are
religious on their face. To the extent that Plaintiffs are
being treated differently than the groups that raised those
flags, that treatment is based on the City’s reasonable
choice to exclude religion as a subject matter on the flagpole

125a
and does not violate the Fourteenth Amendment.

For all of the aforementioned reasons, Plaintiffs
have failed to show a reasonable likelihood of
success on the merits of their claims.
B. Irreparable Harm
To obtain a preliminary injunction, Plaintiffs must
show a “significant risk of irreparable harm if the
injunction is withheld,” Nieves-Márquez v. P.R., 353
F.3d 108, 120 (1st Cir. 2002). It is well-established
“[t]he loss of First Amendment freedoms, for even
minimal periods of *79 time, unquestionably
constitutes irreparable injury.” Elrod v. Burns, 427
U.S. 347, 373, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976).
Plaintiffs’ claims of irreparable harm absent
expedited relief, however, are undermined by their
delay in raising constitutional claims related to the
City’s denial of their application. See Gorman v.
Coogan, 273 F.Supp.2d 131, 134 (D. Me. 2003)
(noting that “[p]reliminary injunctions are generally
granted under the theory that there is an urgent
need for speedy action to protect the plaintiffs’
rights. Delay in seeking enforcement of those rights
... tends to indicate at least a reduced need for such
drastic, speedy action”) (internal citation and
quotation marks omitted).
Plaintiffs are also unlikely to suffer irreparable
harm without a preliminary injunction because they
may still hold an event celebrating Constitution Day
in their desired forum. Although Plaintiffs have not
applied to the City to hold an event since September

126a
2017, the record in this case indicates that the City
will give Plaintiffs permission to communicate their
ideas in several ways, on or around Plaintiffs’
requested date this year. As the City has done in the
past, it will allow Plaintiffs to hold an event on City
Hall Plaza. It will also give Plaintiffs the
opportunity to raise a non-secular flag on the City
flagpole and display the Christian flag while on City
Hall Plaza. D. 1-4; D. 11 at 10. The City has only
denied Plaintiffs permission to compel the City to
endorse a particular religion by raising the
Christian flag. Given the range of options available
to Plaintiffs for their event on City-owned property,
the Court concludes Plaintiffs are unlikely to suffer
irreparable harm without an injunction.
C. The Balance of Harms and the Public
Interest
The final considerations in weighing the grant of a
preliminary injunction are “a balance of equities in
the plaintiff’s favor, and [ ] service of the public
interest.” Arborjet, Inc. v. Rainbow Treecare Sci.
Advancements, 794 F.3d 168, 171 (1st Cir. 2015). In
support of their arguments, Plaintiffs rightly remind
the Court that “[t]he right of citizens to inquire, to
hear, to speak, and to use information to reach
consensus is a precondition to enlightened selfgovernment and a necessary means to protect it.”
Sindicato Puertorriqueño de Trabajadores v.
Fortuño, 699 F.3d 1, 15 (1st Cir. 2012) (quoting
Citizens United v. Fed. Election Comm’n, 558 U.S.
310, 339, 130 S.Ct. 876, 175 L.Ed.2d 753 (2010) )
(internal quotation marks omitted). However, on
this record, the Court is persuaded that Defendants

127a
have not unlawfully restricted Plaintiffs’ ability to
speak publicly.
On the other hand, Defendants risk serious
consequences from the grant of a preliminary
injunction. Given that Plaintiffs have not
established a substantial likelihood of success on the
merits, it makes little sense to require the City to fly
the requested flag pending the adjudication of this
case. Raising the Christian flag might also possibly
make the City vulnerable to Establishment Clause
claims and other constitutional challenges before
this case had been decided on the merits. D. 11 at 20.
With these considerations in mind, the balance of
harms to the parties and the public interest weigh
against granting the preliminary injunction that
Plaintiffs seek.
VI. Conclusion
For these reasons, Plaintiffs’ motion for preliminary
injunction, D. 7, is DENIED.
So Ordered.
All Citations
337 F.Supp.3d 66

128a
JOINT STATEMENT
OF UNDISPUTED FACTS,
FILED JANUARY 22, 2021
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
BOSTON DIVISION
HAROLD SHURTLEFF,
and CAMP
CONSTITUTION, a
public charitable trust,
Plaintiffs,
v.
CITY OF BOSTON, and
GREGORY T. ROONEY,
in his official capacity as
Commissioner of the City
of Boston Property
Management
Department,

: CIVIL ACTION
:
: No. 1:18-cv-11417: DJC
:
:
:
:
:
:
:
:
:
:
:
:
:

Defendants.
JOINT STATEMENT
OF UNDISPUTED FACTS
Plaintiffs,
HAROLD
SHURTLEFF
(“Shurtleff”) and CAMP CONSTITUTION, and
Defendants, CITY OF BOSTON (“Boston” or the
“City”) and GREGORY T. ROONEY, in his official
capacity as Commissioner of the City of Boston

129a
Property Management Department (“Rooney”), in
accordance with the Court’s instructions regarding
summary judgment motions at the status conference
hearing held on May 6, 2019, file this joint statement
of the material facts of record as to which there is no
genuine issue to be tried.
THE PARTIES.
1.
Plaintiff HAROLD SHURTLEFF is a
resident of the Commonwealth of Massachusetts
and is the Director and co-founder of Plaintiff CAMP
CONSTITUTION. (Verified Complaint, D.1, ¶ 10.)
2.
Plaintiff CAMP CONSTITUTION is a
public charitable trust, registered in the State of
New Hampshire. It is an unincorporated association
with the ability to sue and be sued under the laws of
the Commonwealth of Massachusetts. (V. Compl.
¶ 11.)
3.
Camp Constitution is an all-volunteer
association first formed in 2009. It offers classes and
workshops on a number of subjects including U.S.
History, the U.S. Constitution, current events, and
how to be a freedom activist. (V. Compl. ¶ 14.)
4.
Camp Constitution’s mission is to
enhance understanding of the country’s JudeoChristian moral heritage, the American heritage of
courage and ingenuity, the genius of the United
States Constitution, and the application of free
enterprise. (V. Compl. ¶ 15.)

130a
5.
Defendant CITY OF BOSTON is a
public body corporate and politic, established,
organized, and authorized under and pursuant to
the laws of Massachusetts, with the authority to sue
and be sued. (V. Compl. ¶ 12.)
6.
Defendant GREGORY T. ROONEY is
the Commissioner of the City of Boston Property
Management Department, which position he has
held since August 1, 2016. (V. Compl. ¶ 13;
Transcript of Deposition of [Gregory] T. Rooney
(“Rooney Deposition”) 22:20–23:4.1)
THE CASE.
Camp Constitution’s Application
to Hold a Public Flag Raising
Event at the City Hall Flag Poles.
7.
In connection with the 2017 observance
of Constitution Day and Citizenship Day, Plaintiffs
desired to conduct an event close in time to
September 17, 2017, to commemorate the civic and
social contributions of the Christian community to
the City, the Commonwealth of Massachusetts,
The Rooney Deposition is filed at D.57-1, as
an attachment to Plaintiffs' Notice of Filing
Deposition Transcript in Support of Motion for
Summary Judgment, D.57. Exhibits to the Rooney
Deposition are filed as attachments to Plaintiffs’
Notice of Filing Deposition Exhibits in Support of
Motion for Summary Judgment, D.58, such that
Exhibit 1 is D.58-1, Exhibit 2 is D.58-2, etc.
1

131a
religious tolerance, the Rule of Law, and the U.S.
Constitution, by raising a Christian flag on one of
Boston’s City Hall Flag Poles at City Hall Plaza. (V.
Compl. ¶ 24.)
8.
On July 28, 2017, Shurtleff telephoned
Lisa Menino2, the City’s senior special events
official, and then e-mailed Menino at her request,
seeking approval—
. . . to raise the Christian Flag on City
Hall Plaza. Here are a few potential
dates:
Thursday the 7th of September 10:00.-11:00AM Thursday the 14th of
September
10:00
AM-11:00
or
Saturday September 23--10:00 AM11:00 AM.
It will be sponsored by Camp
Constitution. We will have short
speeches by some local clergy focusing
on Boston’s history.
(V. Compl. ¶ 24, Ex. A; Rooney Dep. 32:1-13.)
Shurtleff included a picture of the flag he proposed
to raise on the City Hall Flag Poles:

In record e-mail correspondence Lisa
Menino’s name appears as Lisa Lamberti, but her
name officially had been changed to Menino prior to
July 2017. (Rooney Dep. 35:4–24.)
2

132a

(V. Compl. ¶ 24, Ex. A.)
9.
Menino forwarded Shurtleff’s e-mail to
Rooney for approval. (Rooney Dep. 35:4–36:21, Ex.
5.)
The City’s Policies and Practices
for Public Flag Raising Events at
the City Hall Flag Poles.
1.

The
City’s
Policies
Applicable to All Public
Events on City Properties,
Including
Flag
Raising
Events.

10.
The City has made available
designated City properties for the public to hold
events including Faneuil Hall, Samuel Adams Park,
City Hall Plaza, City Hall Lobby, City Hall Flag
Poles, and North Stage. (V. Compl. ¶ 33, Exs. G, H;
Rooney Dep. 149:18–153:17, Exs. 30, 31; Affidavit of

133a
Gregory T. Rooney, D.11-1 (“Rooney Afffidavit”)
¶ 14.)
11.
The City has established written
policies and an application process for use of these
public spaces and has posted them on its website,
City of Boston, How to Hold an Event Near City Hall,
https://www.boston.gov/departments/propertymanagement/how-hold-event-near-city-hall.
(V.
Compl. ¶ 34, Ex. G; Rooney Dep. 149:18–151:17, Ex.
30; Rooney Aff. ¶ 13.) The online policies provide, in
part:
You need our permission if you want to
hold a public event at certain
properties near City Hall. These
locations include:
• Faneuil Hall
• Sam Adams Park
• City Hall Plaza
• the lobby of City Hall
• at the City Hall Flag Poles, and
• the North Stage.
If someone else already applied for the
space, we may recommend other places
for you to use.
We may deny your application if:
• Your application is incomplete
• You didn’t give us the required
insurance certificate
• You’re unable to hold a contract, or to

134a
sue and be sued
• You had an event in the past and
caused public property damage
• You have unpaid debts with the City
• You plan to have any illegal activities
• Your event causes a danger to the
health or safety in the area
• You have a history of disobeying City
regulations or permits, or
• You lied about your information on
your application.
....
We’ll get back to you in writing within
10 days. We might ask for more
information or documents about your
event.
You may have to apply for other
permits and meet with the Special
Events Committee. We’ll tell you what
other departments to contact. If you
don’t get the right permits and licenses
before your event, we will revoke your
application.
If we approve your application, you
have to follow our event guidelines:
• You can’t allow illegal activity to take
place at your event.
• You must agree to pay for any
damage to public property.
• You can’t hold us responsible for any

135a
damage or violations that happen at
your event.
• We have the right to make other rules
for your event at any time.
(V. Compl. ¶ 34, Ex. G; Rooney Dep. 149:18–151:17,
Ex. 30.)
12.
The website offers an option to
complete an application online through the website,
or by fax or mail using a printable application form
linked to the website, titled, “Property and
Construction Management Department City Hall
and Faneuil Hall Event Application.” (V. Compl.
¶ 35, Ex. H; Answer, D.18, ¶ 35; Rooney Dep.
151:18–153:17, Ex. 31.) The printable application
form appears, in part, as follows:

136a
(V. Compl. ¶ 35, Ex. H; Rooney Dep. 151:18–153:17,
Ex. 31.)
13.
The
printable
application
form
incorporates written policies titled “Guidelines for
any Person or Group Requesting the Use of Faneuil
Hall, Sam Adams Park, City Hall Plaza, City Hall
Lobby, North Stage or the City Hall Flag Poles.” (V.
Compl. ¶ 35, Ex. H; Rooney Dep. 151:18–153:17, Ex.
31.) The printed application guidelines appear, in
part, as follows:

(V. Compl. ¶ 35, Ex. H; Rooney Dep. 151:18–153:17,
Ex. 31.)
14.
The printable application guidelines
further provide, in part:
What will happen after the request
is filed?
The
Office
of
Property
and
Construction Management will review
the request, and respond in writing to
the applicant within Ten (10) days. The
Office of Property and Construction
Management may make further
inquiries of the applicant, and require
additional documentation from the
applicant. Unless there are specific

137a
reasons for denying the request, the
request will be approved. . . .
What are the reasons a request
could be denied?
Where possible, the Office of Property
and Construction Management seeks
to accommodate all applicants seeking
to take advantage of the City of
Boston’s public forums. To maximize
efficient use of these forums and ensure
the safety and convenience of the
applicants and the general public,
access to these forums must be
regulated. To this end, the Office of
Property
and
Construction
Management may deny a request for
the following reasons:
•

The use or activity intended by the
applicant is prohibited by law,
ordinance, or by regulation.

•

A fully executed prior application
for a permit for the same time and
place has been received and a
permit has been or will be granted
to a prior applicant authorizing
uses or activities which do not
reasonably
permit
multiple
occupancy of the particular area. In
such cases, the City will propose an
alternative space, if available.

138a
•

The use or activity intended by the
applicant would conflict with
previously
planned
programs
organized and conducted by the
City and previously scheduled for
the same time and place. In such
cases, the City will propose an
alternative space, if available.

•

The use or activity intended by the
applicant
would
present
an
unreasonable danger to the health
or safety of the applicant or other
users of the area, City employees, or
the public.

•

The applicant has not complied with
applicable
license
or
permit
requirements,
ordinances,
or
regulations of the City.

•

The application contains a material
falsehood or misrepresentation.

•

The applicant has made on prior
occasions
material
misrepresentations regarding the
nature or scope of an event or
activity previously permitted or has
violated the terms of prior permits
issued to or on behalf of any
applicant.

•

The application is not
completed and executed.

fully

139a
•

The applicant has failed to tender
the required insurance certificate.

•

The
applicant
is
legally
incompetent to contract, or to sue
and be sued.

•

The applicant or person or group on
whose behalf the application for
permit was made has on prior
occasions damaged City property,
and has not paid for such damage,
or has other outstanding and
unpaid debts to the City of Boston.

In addition, applicants whose requests
have been granted will be required to
comply with the Rules the Office of
Property
and
Construction
Management sets forth governing the
use of the designated venues, as set
forth below:
a. The applicant is responsible to
ensure there is no illegal activity at the
venue.
b. The applicant will responsible for
any damage to public property.
c. The applicant shall indemnify and
hold harmless the City of Boston’s
Property
and
Construction
Management Department an its
employees from any damage it may

140a
sustain or be or required to pay, by
reason of said event, or by reason of any
act or neglect by the applicant or their
agent relating to such event or by the
reason of any violation of the terms and
conditions of permit.
d. Further conditions and rules for the
use of venues for approved requests
may be set forth at the discretion of the
Office of Property and Construction
Management, in order to maximize
efficient use of these venues and ensure
the safety and convenience of the
applicants and the general public.

(V. Compl. ¶ 35, Ex. H; Rooney Dep. 151:18–153:17,
Ex. 31.)
15.
Prior to October 2018, the City had no
other written policies regarding requirements for
permission to use City properties for public events.
(V.Compl. ¶¶ 38, 39; Answer ¶¶ 38, 39; Rooney Dep.
178:21–179:24, Ex. 40.)
16.
The City processes all applications for
public events on City properties, including flag
raisings, in the same way. (Rooney Dep. 98:2–
104:12, Ex. 18; Rooney Dep. 159:15–161:1, 162:11–
167:4, 167:11–169:18, Exs. 34, 35, 36.)
17.
Rooney evaluates flag-raising requests
for approval in a different manner than he evaluates

141a
requests to use other City property for events,
particularly those events described as religious.
(Rooney Dep. 39:13–42:7, V.Compl. ¶ 29.)
18.
Rooney, as Commissioner, has final say
over approvals for all public events to be held on the
City’s properties. (Rooney Dep. 28:17–20; Rooney
Aff. ¶ 16.)
19.
The City has approved numerous
religious events not involving a flag raising to be
held on its property. (Rooney Dep. 39:13–40:3, Ex. 2
(Defs.’ Resps. Pl.’s Interrogs.) No. 12.)
2.

The City’s Practices and
Unwritten
Policies
Applicable to Flag Raising
Events at the City Hall Flag
Poles.

20.
Among the locations designated by the
City as available for public events are the City Hall
Flag Poles on City Hall Plaza, comprising three flag
poles near the entrance to City Hall standing
approximately 83 feet tall. (Rooney Aff. ¶¶ 5–6, 8–
11.)
21.
The City Hall Flag Poles location on
City Hall Plaza is also used for events that do not
involve flag-raisings. (Rooney Dep. 42:1–7.)
22.
“Generally, the City raises the United
States of America flag and the National League of
Families POW/MIA flag on one pole, the
Commonwealth of Massachusetts flag on a second

142a
pole, and the City of Boston flag on the third pole.”
(Rooney Aff. ¶ 8.)
23.
“At times, the City has raised other
flags in place of the City of Boston flag. Such
substitute flags are typically raised after receipt of a
third-party request.” (Rooney Aff. ¶ 9.) “Often, the
request to raise a substitute flag is made in
connection with a proposed event.” (Rooney Aff.
¶ 11.)
24.
Occasionally the City approves a flag
raising on one of two alternate City-owned flag poles
on the Congress Street side of City Hall. (Rooney Aff.
¶ 5; Rooney Dep. 99:12–100:4.)
25.
For the twelve years preceding Camp
Constitution’s request, from June 2005 through
June 2017, the City approved 284 flag raising
events. (Rooney Dep. 87:19–89:15, Ex. 17.) During
the one-year period preceding Camp Constitution’s
request, from July 2016 through June 2017, the City
approved 39 flag raising events. (Rooney Dep. 87:19–
89:15, Ex. 17.) Approved flag raising events include
ethnic and other cultural celebrations, the arrival of
dignitaries
from
other
countries,
the
commemoration of independence or other historic
events in other countries, and the celebration of
certain causes such as “gay pride.” (V. Compl. ¶ 37;
Answer ¶ 37; Rooney Aff. ¶ 10; Rooney Dep. 87:19–
89:15, Ex. 17.) The City also has approved flag
raisings for celebrations of the countries of Albania,
Brazil, Ethiopia, Italy, Panama, Peru, Portugal,
Puerto Rico, Mexico, as well as China, Cuba, and
Turkey, and for the flags of the private Chinese

143a
Progressive Association, National Juneteenth
Observance Foundation, Bunker Hill Association,
and Boston Pride. (V. Compl. ¶ 37; Answer ¶ 37;
Rooney Aff. ¶ 10; Rooney Dep. 87:19–89:15, Ex. 17.)
26.
Raising a flag on the City Hall Flag
Poles requires the use of a hand crank, which is
provided by the City for flag raising events. (Rooney
Dep. 130:23–131:18, Ex. 20.)
27.
The Boston City Hall Plaza FlagRaising Dates website states the City’s goals for flag
raising events:
We commemorate flags from many
countries and communities at Boston
City Hall Plaza during the year.
We want to create an environment in
the City where everyone feels included,
and is treated with respect. We also
want to raise awareness in Greater
Boston and beyond about the many
countries and cultures around the
world. Our goal is to foster diversity
and build and strengthen connections
among Boston’s many communities.
(Rooney Dep. 153:18–155:24, Ex. 32.)
28.
The City has raised flags on the City
Hall Flag Poles that contain religious language and
symbols. (V.Compl. ¶ 41; Answer ¶ 41.)
29.
The City of Boston flag, which is
usually raised on one of the City Hall Flag Poles,

144a
depicts the City Seal, containing the inscription
“SICUT PATRIBUS, SIT DEUS NOBIS” which
means “God be with us as he was with our fathers”:

(V.Compl. ¶ 41.a, Ex. J; Answer ¶ 41.a; Rooney Aff.
¶ 8; Rooney Dep. 156:1–158:7, Ex. 33.)
30.
The Turkish flag, which the City has
approved for raising on the City Hall Flag Poles at
least thirteen times, in 2005, 2006, and 2009–2019
(Rooney Dep. 87:19–89:15, Ex. 17; 153:18–154:11,
Ex. 32), depicts the star and crescent of the Islamic
Ottoman Empire:

145a

31.
The City for at least three years, 2016–
2018, has allowed the Bunker Hill Association to
raise the Bunker Hill Flag on a City Hall flag pole to
commemorate the Revolutionary War Battle of
Bunker Hill and Bunker Hill Day, which occurs on
June 17 each year. (V. Compl. ¶¶ 37, 41.b; Answer
¶ 37; Rooney Dep. 87:19–89:15, Ex. 17; 114:15–
115:15, Ex. 20; 141:23–143:21, Ex. 28.) The Bunker
Hill Flag contains a red cross against a white field
on a blue flag, as shown here on one of the Congress
Street City Hall flag poles:

146a

(Rooney Dep. 114:15–115:15, Ex. 20.)
32.
The City partnered with a private
enterprise, Delaware North, in a three-year
revenue-sharing agreement to promote public
events on City Hall Plaza, including both events
hosted by Delaware North and events approved
through the Department of Property Management

147a
application process. (Rooney Dep. 104:13–108:2, Ex.
19.) City Hall Plaza events, including flag raisings,
generally are featured on the partnership website,
http://cityhallplazaboston.com/events/. (Rooney Dep.
108:24–109:16.)
33.
Delaware North cannot host any event
on City Hall Plaza without the City’s approval and
would not have the authority to promote or advertise
public events at City Hall Plaza but for its
partnership with the City. (Rooney Dep. 107:7–
108:2.) The City has the ability to request Delaware
North to make corrections to event information
posted on the cityhallplazaboston.com website, and
the City has effected a change to the website
information for a flag raising event on at least one
occasion. (Rooney Dep. 108:13–23, 119:9–123:6, Ex.
21.) Former Deputy Commissioner of the Property
Management Department, Steve Stephanou, wrote
in an e-mail regarding the correction that the City
was “hoping to leverage the city’s existing calendar
software so we can control the content” of the
partnership website. (Rooney Dep. 119:9–121:12,
Ex. 21; 28:21–29:12, Ex. 4.)
34.
Rooney approved a June 2017
Portuguese Flag Raising Ceremony at City Hall
Plaza, involving the raising of the Portuguese flag on
the City Hall Flag Poles. (Rooney Dep. 98:2–99:11,
102:20–103:7, Ex. 18; 104:13–105:16, 107:18–21, Ex.
19.) For the City-approved Portuguese Flag Raising
Ceremony, the Delaware North partnership website
posted, in part:

148a
The five blue shields of the Portuguese
flag represents the five moor kings
defeated by the first King of Portugal,
D. Afonso Henriques, at the Battle of
Ourique. The dots inside the blue
shields represent the five wounds
of Christ when crucified. Counting
the dots and doubling those five in
the center, there are thirty dots
that represents the coins Judas
received for having betrayed
Christ. The seven castles represents
the fortified cities D. Afonso Henriques
conquered from the moors.
....
Come and join us in honoring the flag
of Portugal in what represents the
official recognition of the Portuguese
community’s presence and importance
in the State of Massachusetts. Your
presence is of key importance to pay
this solemn homage to Portugal and
the Portuguese emigrant community
with grandeur.
(Rooney Dep. 104:13–105:16, 106:14–19, 110:12–
111:6, Ex. 19 (emphasis added).) As described above,
the Portuguese flag appears as follows:

149a

35.
At the time of Camp Constitution’s flag
raising request in July 2017, Rooney had never
denied a flag raising application. (Rooney Dep. 94:5–
8.) According to Rooney, “[f]or the most part, [the
City] will allow any event” to take place on City Hall
Plaza. (Rooney Dep. 39:13–23.)
36.
“Before a flag raising event is
approved, [Rooney] must review whether the City’s
decision to raise a flag is consistent with the City’s
message, policies, and practices and provide final
approval for the flag-raising.” (Rooney Aff. ¶ 17.)
37.
At the time of Camp Constitution’s
request in July 2017, the City had no written policies
specifically for handling flag raising applications.
(Rooney Dep. 39:5–12, 43:11–18.) Pursuant to the
City’s unwritten policies and historical practice,
every flag raising request was reviewed on a caseby-case basis, though the Property Management
Department “never really had a lot of discussion
prior to [Camp Constitution’s] request related to flag

150a
raisings in any way” and “most had been approved
in previous years.” (Rooney Dep. 43:19–44:16.)
38.
It is Rooney’s usual practice not to see
a proposed flag before approving a flag raising event,
and Rooney has never requested to review a flag or
requested changes to a flag in connection with
approval. (Rooney Dep. 94:9–95:21, 144:10–19.) The
City does not require any applicant to give
possession or ownership of its flag to the City as a
condition for approval. (Rooney Dep. 96:5–16,
174:23–175:10.)
39.
It is not necessary for any applicant to
use the City’s podium for a flag raising event.
(Rooney Dep. 139:16–141:9, Ex. 27.) It is possible for
the City to provide a podium for use during a flag
raising event with the City’s official seal removed
from the podium. (Rooney Dep. 141:10–22.)
40.
Rooney has no knowledge of any
person’s believing Boston has endorsed any
organization or subject matter as a result of
approving a flag raising event at the City Hall Flag
Poles. (Rooney Dep. 96:17–97:23.)
The City’s Denial of Camp
Constitution’s Application to Hold
a Public Flag Raising Event at the
City Hall Flag Poles.
41.
Rooney was “concerned about how to
handle” Camp Constitution’s request because he
considered it “the first request I had ever received in
my tenure related to a religious flag.” (Rooney Dep.

151a
36:22–37:2.) Rooney “didn’t know whether or not it
was appropriate to put a religious flag on a public
building, so [he] wanted to inquire a little bit more.”
(Rooney Dep. 37:3–6.)
42.
After “a couple of weeks” Rooney
consulted with the City’s law department for
guidance “[d]ue to the fact that the flag in question
was described as a religious flag.” (Rooney Dep.
37:15–21, 62:1–24, 64:14–21, Ex. 10.)
43.
In the meantime, on August 8, 2017,
Shurtleff had e-mailed Menino to follow up on his
permit request. (V. Compl. ¶ 25, Ex. B.) Menino
responded the same day, writing, “I am just waiting
for the approval from my bosses I just sent them
another e-mail.” (V. Compl. ¶ 25, Ex. B.)
44.
On August 18, 2017, three weeks after
Camp Constitution’s request, Shurtleff sent another
e-mail inquiry to Menino asking, “Any word?”,
prompting Menino to e-mail Rooney, “has there been
any decision made on Christian flag raising[?]” (V.
Compl. ¶ 26, Ex. B; Rooney Dep. 54:6–55:6, Ex. 8.)
Rooney e-mailed in response, “The Law Department
is reviewing our flag raising protocols. Do we have a
complete list of organizations that have held flag
raisings on the Plaza in recent years?” (Rooney Dep.
54:6–55:6, Ex. 8.)
45.
Rooney sought the list of previous flag
raising requests from Menino “to confirm whether or
not we had in the past had a practice of flying a
religious flag.” (Rooney Dep. 55:13–56:10, Ex. 8.)
Rooney’s review “found no past practice of ever

152a
having done that in the past.” (Rooney Dep. 56:11–
14.)
46.
Rooney considered input from the Law
Department, including an e-mail from a Law
Department attorney on August 24, 2017. (Rooney
Dep. 59:1–60:15, 62:1–17, 64:14–65:5, Ex. 10.)
Rooney ultimately decided to deny Camp
Constitution’s request because “we didn’t have a
past practice of allowing religious flags, and we
weren’t going to allow this flag raising.” (Rooney
Dep. 58:14–24.) Rooney alone made the decision to
deny Camp Constitution’s flag raising request.
(Rooney Dep. 33:17–21.)
47.
On August 25, 2017, Rooney e-mailed
Menino, “Please let them know that the request has
been denied. Thanks.” (Rooney Dep. 57:15–58:13,
Ex. 9.) Rooney had no intention of providing an
explanation for the denial to Menino or Camp
Constitution. (Rooney Dep. 60:16–61:3.) Rooney did
not create any record memorializing his reasons for
denial. (Rooney Dep. 61:4–8.)
48.
On September 5, 2017, Lamberti emailed Shurtleff, “I was on vacation last week and i
[sic] just wanted to get back to you. Your request for
the Flag Raising was denied.” (V. Compl. ¶ 28, Ex.
C.) On September 6, 2017, Shurtleff responded by email, asking, “What was the official reason for
denying us . . . ?” (V. Compl. ¶ 28, Ex. C.)
49.
On September 7, 2017, Daniel
Pesquera from the Boston CBS affiliate WBZ-TV emailed the Boston Mayor’s press office requesting an

153a
explanation for the City’s denial of Camp
Constitution’s request. (Rooney Dep. 62:1–17, 63:3–
64:8, Ex. 10.) In response, Rooney forwarded to the
Mayor’s press official an August 24, 2017 e-mail
guidance he had received from the Law Department
for the press official to use in response to the media
inquiry. (Rooney Dep. 64:9–66:5, Ex. 10.) The
Mayor’s press official called WBZ-TV’s Pesquera,
“and said, on background, it was due to the
Establishment Clause and we do not want to
endorse a particular religion and we feel a [sic] flying
a flag would be just that. . . . [She] also said, off the
record, that if Camp Constitution hasn’t heard from
the city yet, they will shortly.” (Rooney Dep. 67:4–
23, 69:12–70:2, Ex. 11.)
50.
The same day, September 7, 2017,
Rooney advised the Mayor’s press official and other
officials by e-mail that he would prefer the Law
Department, not Menino, to draft a response to
Camp Constitution’s request for a reason for denial.
(Rooney Dep. 71:24–73:15, Ex.12.)
51.
The next day, September 8, 2017,
Rooney e-mailed Shurtleff the following explanation
for the City’s denial of Camp Constitution’s flag
raising request:
I am writing to you in response to your
inquiry as to the reason for denying
your request to raise the “Christian
Flag”. The City of Boston maintains a
policy and practice of respectfully
refraining from flying non-secular flags
on the City Hall flagpoles. This policy

154a
and practice is consistent with wellestablished
First
Amendment
jurisprudence prohibiting a local
government from “respecting an
establishment of religion.” This policy
and practice is also consistent with
City’s legal authority to choose how a
limited government resource, like the
City Hall flagpoles, is used.
According to the above policy and
practice, the City of Boston has
respectfully denied the request of
Camp Constitution to fly on a City Hall
flagpole the “Christian” flag, as it is
identified in the request, which
displays a red Latin cross against a
blue square bordered on three sides by
a white field.
The City would be willing to consider a
request to fly a non-religious flag,
should your organization elect to offer
one.
Regards,
Gregory T. Rooney
(V. Compl. ¶ 29, Ex. D; Rooney Dep. 73:16–74:21,
Ex. 13.)
52.
Where Rooney wrote to Shurtleff,
“Boston maintains a policy and practice of
respectfully refraining from flying non-secular flags

155a
on the City Hall flagpoles. This policy and practice .
. . . This policy and practice . . . . According to the
above policy and practice . . . ,” he “was referring to
past practice” because “up to this point, there had
not been any formal written policy regarding flying
non-secular flags on the flagpoles.” (Rooney Dep.
73:16–75:10, Ex. 13.) By “non-secular” Rooney
meant “a religious flag that was promoting a specific
religion.” (Rooney Dep. 75:22–76:1, Ex. 13.) By
“practice of respectfully refraining from flying nonsecular flags on the City Hall flagpoles” Rooney did
not mean Rooney “had determined that the city had
declined to fly non-secular or religious flags in the
past,” but meant that Rooney “had no record of ever
having one had been approved.” (Rooney Dep. 75:11–
16, Ex. 13.)
53.
Rooney did not work from any formal
definition of “non-secular” or “religious” when he
denied Camp Constitution’s request. (Rooney Dep.
81:7–82:13.)
54.
Rooney was concerned that the flag
Camp Constitution intend to raise “was a flag that
was promoting a specific religion” and “didn’t think
that it was in the city’s best interest to necessarily
have that flag flying above City Hall” because Camp
Constitution called the flag “the Christian flag;”
Rooney would not have been concerned if the same
flag was called “the Camp Constitution flag” because
then “it would have been the flag of the organization
and not a religious symbol.” (Rooney Dep. 47:5–
48:18, 116:13–21, Ex. 5.)

156a
55.
Rooney’s concern with allowing the
Christian flag was not based on the content of the
flag (“a red cross on a blue field on a white flag”),
and, but for Camp Constitution’s having called it the
“Christian Flag” Rooney would have treated it no
differently from the Bunker Hill flag (“a red cross on
a white field on a blue flag”), which Rooney had
approved. (Rooney Dep. 116:13–117:22, Exs. 5, 20.)
Rooney did not consider the Bunker Hill flag a
“religious” flag, despite its depiction of a red cross,
because “it’s to commemorate the Battle of Bunker
Hill.” (Rooney Dep. 117:17–22, Ex. 20.) If the Bunker
Hill flag had been presented to Rooney as “the
Christian flag or a Christian flag, then Rooney
“would . . . have had the same concerns that [he]
had about Camp Constitution’s flag.” (Rooney Dep.
118:17–22, Ex. 20.)
56.
Rooney would not have been concerned
about approving the Portuguese flag raising, had he
known about the religious content of its flag, because
Portugal is a “sovereign nation.” (Rooney Dep.
110:12–112:13, Ex. 19.)
57.
Rooney, however, would weigh and
think of differently a request to raise the Vatican
flag “because of the fact that although it’s a
sovereign nation, it’s also the Catholic church . . . .”
(Rooney Dep. 112:8–113:18.) The City previously
had allowed the Vatican flag to be raised over Boston
Common, alongside the United States and
Massachusetts flags, in connection with the 1979
visit to Boston of Pope John Paul II, four years prior
to diplomatic recognition of the Vatican by the
United States. (Rick Tinory, Pope John Paul II

157a
Boston Common October 1, 1979 (Mar. 4, 2014),
https://www.youtube.com/watch?v=OiDz1cBHyPc
(video depicting (beginning at 1:17) Vatican flag on
Boston Common flag pole).)
58.
Rooney recognizes no goal or purpose of
the City in allowing flag raising events on the City
Hall Flag Poles is served by excluding religious
flags, except “concern for the so-called separation of
church and state or the constitution’s establishment
clause.” (Rooney Dep. 183:22–186:12.)
59.
On September 13, 2017, Shurtleff
submitted to the City a new, written City Hall and
Faneuil Hall Event Application, requesting use of
City Hall Plaza and the City Hall Flag Poles for the
event “Camp Constitution Christian Flag Raising,”
and proposing dates of October 19, 2017 or October
26, 2017. (V. Compl. ¶ 30, Ex. E.) Shurtleff described
the event as follows:
Celebrate
and
recognize
the
contributions
Boston’s
Christian
community has made to our city’s
cultural diversity, intellectual capital
and economic growth. The Christian
flag is an important symbol of our
country’s Judeo-Christian heritage.
During the flag raising at the City Hall
Plaza, Boston recognizes our Nation’s
heritage and the civic accomplishments
and social contributions of the
Christian
community
to
the
Commonwealth of Massachusetts,
religious tolerance, the Rule of Law,

158a
and the U.S. Constitution, which
together
gave
our
Nation
an
unprecedented history of growth and
prosperity. The event program includes
a speech by Rev. Steve Craft, an
instructor at Camp Constitution on the
need for racial reconciliation, a speech
by Pastor William Levi, formerly of the
Sudan, on the blessings of religious
freedom in the U.S. and an historical
overview of Boston by Hal Shurtleff,
director of Camp Constitution.
(V. Compl. ¶ 30, Ex. E.)
60.
On September 14, 2017, Plaintiffs’
counsel sent a letter to Boston Mayor Martin J.
Walsh, with copies to the Boston City Council and
its members, and Defendant Rooney, enclosing the
completed City Hall and Faneuil Hall Event
Application and requesting that the City approve
the application on or before September 27, 2017. (V.
Compl. ¶ 31, Ex. F; Answer ¶ 31.)
61.
The City did not respond to either
Shurtleff’s new application or the letter from
Plaintiffs’ counsel. (V. Compl. ¶ 32; Answer ¶ 32.)
Only Rooney could have reconsidered Camp
Constitution’s new request, and Rooney did not
respond to the new request because the first request
“was asked and answered.” (Rooney Dep. 77:7–
79:18, Ex. 14.)

159a
The City’s Subsequent
Flag Raising Policy.

Written

62.
In October 2018 the City committed its
past policy and practice to a written Flag Raising
Policy. (Rooney Dep. 178:21–179:24, Ex. 40.) The
written policy reflects what the City “understood the
policy to be but updated to address other concerns .
. . .” (Rooney Dep. 180:1–9.)
63.
The written Flag Raising Policy does
not require the City “to handle flag-raising requests
today differently from how they were handled when
Camp Constitution submitted its request in July of
2017.” (Rooney Dep. 180:10–15.) Under the written
policy, as in July 2017, the Commissioner of
Property Management has final approval authority
for all flag raising requests, “such decision to be
made in the City’s sole and complete discretion.”
(Rooney Dep. 180:16–181:20.)
64.
The written Flag Raising Policy
incorporates seven Flag Raising Rules. (Rooney Dep.
183:15–21, Ex. 40.) If an application for a flag
raising event satisfies all seven of the Flag Raising
Rules, the Flag Raising Policy still reserves to
Rooney “sole and complete discretion” to deny the
application for a reason not reflected in the Flag
Raising Rules. (Rooney Dep. 191:19–192:6, Ex. 40.)
The Flag Raising Policy also reserves to Rooney the
discretion to offer applicants flexibility on rule
compliance, and to approve a flag application even if
it does not meet one or more of the Flag Raising
Rules. (Rooney Dep. 194:6–195:13.)

160a
65.
The first Flag Raising Rule provides,
“At no time will the City of Boston display flags
deemed to be inappropriate or offensive in nature or
those supporting discrimination, prejudice, or
religious movements.” (Rooney Dep. 183:15–184:4,
Ex. 40.) Whether a flag is deemed “inappropriate or
offensive in nature,” supporting “discrimination” or
“prejudice,” or supporting “religious movements” is
a determination to be made at Rooney’s discretion,
and there are no separate guidelines or criteria for
Rooney to use to make any such determination.
(Rooney Dep. 192:7–194:5, Ex. 40.)
66.
Rooney does not know whether the
text of the Boston City Seal on the City’s flag,
translated, “God be with us as he was with our
fathers,” is a religious statement. (Rooney Dep.
156:1–159:2, Ex. 33.)
67.
Rooney has denied one flag raising
event request since denying Camp Constitution’s
request, and since adopting the written Flag Raising
Policy. On April 5, 2019, Rooney denied the request
of Super Happy Fun America to raise a “Straight
Pride” flag on the City Hall Flag Poles. In his written
denial, Rooney wrote, “Decisions on the raising of
flags on the City Hall Flag Poles are at the City's sole
and complete discretion.” Rooney did not otherwise
explain the denial.

161a
THE BOSTON GLOBE ARTICLE,
WHY IS BOSTON CITY HALL THE WAY IT IS?
FILED JULY 29, 2019
Why is Boston City Hall the way it is?
The brutalist concrete building and its plaza have
many critics. But its creators had their reasons.

Boston City Hall Plaza. –John Tlumacki / The Boston Globe,
File
By Nik DeCosta-Klipa July 25, 2018

Boston City Hall is brutal, and that’s not a subjective
statement. The late longtime Mayor Tom Menino
once proposed selling off the “cold, unfriendly”
building to be demolished and moving city
government to the waterfront. His successor, Mayor
Marty Walsh, campaigned on the idea. But
notwithstanding the looming concrete fortress’s
many detractors — and there are many — the design
of City Hall and its surrounding plaza is a
testimonial to brutalist architecture.

162a
Fifty years after City Hall opened, it’s a style that
was as popular back in the 1960s as it is
misunderstood today, says Mark Pasnik, an
architecture professor at Wentworth Institute of
Technology and author of “Heroic: Concrete
Architecture and the New Boston.”
“So many people call these buildings Stalinist, but
nothing could be further from the truth,” Pasnik
said. “They were very American, and they were also
very democratic in their aspiration.”
City Hall is just one — though perhaps the most
notable — example in a wave of major brutalist
buildings constructed in Boston in the 1960s. The
city had been suffering from a period of decline
during the early- to mid-20th century. However, the
Boston Redevelopment Authority, flush with public
investment, was hoping to reinvigorate the city’s
urban center. Boston City Hall, as well as City Hall
Plaza and the rest of Government Center, replaced
the run-down neighborhood of Scollay Square.
“The intentions behind Government Center as a
whole were to show a new direction for the city of
Boston, which at the time in the ’50s was really
starting to sink into the doldrums of not a lot of
economic activity,” Rosanne Foley, the executive
director of the Boston Landmarks Commission, said.
“People at the time felt that the sort of 18th and 19th
century narrow streets and lots of old buildings …
were holding them back.”

163a

An aerial view of downtown Boston, looking over the
construction site of the new City Hall, Faneuil Hall, and the
Custom House to Boston Harbor, in 1965. —Hal Sweeney / The
Boston Globe

“The idea was that we’d moved into a new world, and
the new world needed modern, up-to-date, stylist,
progressive buildings,” says Daniel Abramson, an
architectural history professor at Boston University.
The city went on an international contest to select
the design for Boston’s “New City Hall.” After
receiving a total of 256 entries, a panel of judges
picked the winning design, a collaboration between
Gerhard Kallmann, Noel McKinnell and Edward
Knowles, in May 1962.
Admirers of the Swiss-French architect known as Le
Corbusier and his modernist designs, such as La
Tourette monastery in France, the trio’s exposed
concrete, nine-story design — with the City Council

164a
Chamber and Mayor’s Office both projecting out over
the plaza — was constructed almost exactly
according to plan, said Foley, “which is pretty rare.”
In their decision, the judges raved about their
“daring yet classical architectural statement” that
went above and beyond their criteria for the project
and clearly defined “the areas of heavy public
contact and the areas devoted to ceremonial
functions.”
“Kallmann, McKinnell, and Knowles did have an
idea that this would be a very democratic building,”
Pasnik said. “They saw it as open. There’s very large
columns that allow you to enter into the building in
multiple ways. It doesn’t work like that anymore,
but that was the original idea of that.”
Though the building’s north entrance has been
closed since 2001, the original idea allowed people to
enter City Hall through that side, take care of
transactions, like paying a parking ticket or getting
a permit, and then continue to walk through the rest
of the city.
“The whole thing was conceived with that sense of
openness and aspiration to be very public, to be
grand, to represent the civic realm,” Pasnik said.
“You might just flip through it like you might a
galleria in Europe or something.”
Concrete as a material was both popular,
economically viable, and locally appropriate in what
was predominantly a masonry city at the time,
according to Pasnik.

165a
“We have a lot of stone buildings. We have a lot of
brick building,” he said. “Concrete buildings are
similar to that. They’re heavy, they’re bold, they’re
simple construction.”
It also symbolized modernity and durability and set
civic buildings apart from the glass and steel style of
architecture that had become “synonymous with
corporate America” in the 1950s, according to
Pasnik. In fact, seven of the eight finalists in the
design contest for City Hall were made of concrete
(the term brutalism originates from the French
phrase “béton brut,” meaning raw concrete).

166a

The seven other finalists for the New City Hall.
—The Boston Globe

“Concrete brought with it a kind of boldness, a
heaviness, a weightiness, something that could seem
more permanent, that would have a greater sense of
longevity,” Pasnik said.
The wide-open brick plaza also had democratic
inspirations. As opposed to being formally

167a
organized, it allowed residents to move freely
through the area, according to Abramson.
“In a democracy, people are not directed where to
look or to go,” the BU professor said.
Inspired by wide-open public gathering spaces in
Europe, like the Piazza del Campo in Siena, Italy,
City Hall Plaza was intended to serve as a blank
campus for large events, whether it be a Super Bowl
championship celebration, a political protest, or a
winter festival. Pasnik says it’s “incredibly effective
for big events.”
“It’s Boston’s fairground,” Abramson said.
“During the majority of days of the year, it’s kind of
empty, as fairgrounds are, or kind of underutilized
and formless,” he said. “And yet at certain moments,
it’s very lively and filled with temporary
programming. And in those instances, people enjoy
it.”

168a

Tom Brady, Bill Belichick, and Rob Gronkowski address the
crowd at City Hall Plaza after winning the Super Bowl in 2017.
—Stan Grossfeld / The Boston Globe

However, not all of the initial aspirations for City
Hall and City Hall Plaza were fulfilled.
Brutalism as a style began to fall out of favor in the
1970s. Experts attribute a variety of potential
reasons. Abramson notes that concrete as a material
can appear “off-putting,” “overbearing,” and
“indecipherable.”
“The building doesn’t look familiar,” he said. “It’s
hard to understand. And I think those types of
buildings — because they’re unfamiliar and don’t
convey easily what their rationale is — that people
are more perplexed and put off by them.”
Pasnik says that the popularity of brutalism was
correlated with decreasing public trust of

169a
government in the 1970s — on both sides of the
ideological divide.
“There is somewhat of a curious alignment of the left
and the right against brutalism, because the left
sees it as like oppressive government and the right
sees it as big government,” he said. “So they both
sort of are not fans of brutalism for its symbolism of
its role of government.”
However, perhaps more important than people’s
personal feelings about City Hall is the fact that the
style never lent itself well to creating a particularly
welcoming public space, as Paul McMorrow wrote in
a scathing 2013 column for The Boston Globe.
City Hall is so ugly that its insane upsidedown
wedding-cake
columns
and
windswept plaza distract from the
building’s true offense. Its great crime
isn’t being ugly; it’s being anti-urban. The
building and its plaza keep a crowded city
at arm’s length. It disperses crowds,
instead of gathering them together. It
creates an island of inactivity, several
blocks long and wide, in the middle of
what is otherwise a bustling commercial
district. It’s as if the complex’s architects
vowed to make up for the bawdy sins of
Scollay Square by creating a space that no
one would ever want to congregate around.
The primary function of cities is clustering
people together, but City Hall goes to great
lengths to repel them.

170a
City officials have been a bit more diplomatic. Foley
notes that, with the rise of the internet, many faceto-face transactions are not as necessary.
“People can pay their parking tickets online,” she
said. “They don’t have to come down and write a
check with a quill pen or whatever.”
The criticisms of City Hall Plaza’s functionality
underscore the city’s recently announced plans to
move forward with a “comprehensive redesign for
the City Hall campus” as it approaches its 50th
birthday this summer. The host of planned
infrastructure upgrades to the area include plants,
a fountain, and better access to utilities.
The plans also call for the reopening of the north side
entrance in an effort to increase access to both “the
public, transactional places in City Hall, as well as
improve overall accessibility to City Hall Plaza.”
“These improvements are not only necessary for the
long-term viability of City Hall and the plaza, but
are an important part of our plan to make these
spaces a destination,” Walsh said in an
announcement earlier this month.

171a

The proposed renovation of Boston City Hall Plaza. —Boston
Mayor's Office

Harkening back to his earlier metaphor, Abramson
said that, generally, fairgrounds are not in the
middle of cities and have no “intrinsic beauty.”
“The positive of [the plaza] is it’s Boston’s fairground
and the negative part is that you don’t really want
an empty fairground in front of your city hall in the
middle of your city the rest of the year,” he said.
According to Pasnik, another one of its shortcomings
is that, unlike its inspiration across the Atlantic, the
plaza isn’t as enclosed along and activated along its
edges.
“If you were to look at a plaza like Siena, it’s
surrounded by cafes and small shops and things like
that all the way around the perimeter,” he said.
“That makes people spill into the site.”
While the added greenery and infrastructure
improvements aim to improve the day-to-day life in

172a
City Hall Plaza, Abramson says it’s important to
balance those efforts with the consideration that
“you’re going to lose something.” Namely, he says,
the city’s ability to host big, lively gatherings
downtown.
“It was planned to be unplanned,” he said, later
adding, “It’s always better if you look to see what’s
both good and bad about something as it exists,
before you decide to change that.”
https://www.boston.com/news/history/2018/07/25/boston-cityhall-brutalism

173a
CITY OF BOSTON FLAG RAISINGS
2005–2017,
FILED JULY 8, 2019
2017 Flag Raisings Ceremonies
February 16, 2017
February 24, 2017

Lithuania Flag Raising
Dominican Flag Raising

March 10, 2017
March 17, 2017

Tibetan Flag Raising
Irish Flag Raising

April 7, 2017
April 30, 2017

United Nations Flag Raising
Vietnamese Flag Raising

May 3, 2017
May 14, 2017
May 17, 2017
May 18, 2017
May 19, 2017

Polish Flag Raising
Murder Victims Flag Peace
Walk
Haitian Flag Raising
Malcolm X Flag
EMS Flag Raising

June 2, 2017
June 9, 2017
June 11, 2017
June 19, 2017
June 20, 2017
June 25, 2017

Pride Flag Raising
Bunker Hill Day Flag Raising
Portugal Flag Raising
Juneteenth Day Flag Raising
Argentina Flag Raising
Philippine Flag Raising

July 5, 2017
July 5, 2017
July 20, 2017
July 24, 2017
July 28, 2017

Cape Verde Flag Raising
Venezuelan Flag Raising
Colombian Flag Raising
Puerto Rican Flag Raising
Peruvian Flag Raising

174a
August 11, 2017
August 17, 2017
August 24, 2017
August 25, 2017

Dominican Flag Raising
Marcus Garvey Flag Raising
Ukraine Flag Raising
Uruguay Flag Raising

September 8, 2017
Brazilian Flag Raising
September 10, 2017 Ethiopian Flag Raising
September 11, 2017 Central American Countries
(Costa Rica, Nicaragua,
Honduras, Guatemala,)
September 14, 2017 El Salvador Flag Raising
September 15, 2017 Mexican Flag Raising
October 1, 2017
October 2, 2017
October 2, 2017
October 7, 2017
October 15, 2017
October 29, 2017
November 28, 2017

Chinese Progressive Flag
Raising
Southern Cameroon Flag
Raising
Italian Flag Raising
Chinese Flag Raising
Cuban Flag Raising
Turkish Flag Raising
Albanian Flag Raising

2016 Flag Raisings
February 16, 2016
February 24, 2016

Lithuanian Flag Raising
Dominican Flag Raising

March 10, 2016
March 17, 2016

Tibetan Flag Raising
Trish Flag Raising

April 6, 2016
April 30, 2016

United Nations Flag Raising
Vietnamese Flag Raising

175a

May 3, 2016
May 14, 2016
May 17, 2016
May 19, 2016

Polish Flag Raising
Murder Victims Flag Peace
Walk
Haitian Flag Raising
EMS Flag Raising

June 2, 2016
June 9, 2016
June 11, 2016
June 19, 2016
June 20, 2016
June 25, 2016

Pride Flag Raising
Bunker Hill Day Flag Raising
Portugal Flag Raising
Juneteenth Day Flag Raising
Argentina Flag Raising
Panama Flag Raising

July 5, 2016
July 5, 2016
July 20, 2016
July 24, 2016
July 28, 2016

Cape Verde Flag Raising
Venezuelan Flag Raising
Colombian Flag Raising
Puerto Rican Flag Raising
Peruvian Flag Raising

August 11, 2016
August 24, 2016

Dominican Flag Raising
Ukraine Flag Raising

September 8, 2016
Brazilian Flag Raising
September 10, 2016 Ethopian Flag Raising
September 11, 2016 Central American Countries
September 14, 2016
El
Salvador Flag Raising
September 15, 2016 Mexican Flag Raising
October 1, 2016
October 2, 2016
October 7, 2016

Chinese Progressive Flag
Raising
Italian Flag Raising
Chinese Flag Raising

176a
October 15, 2016
October 29, 2016
November 28, 2016

Cuban Flag Raising
Turkish Flag Raising
Albanian Flag Raising

2015 Flag Raisings Ceremonies
February 13, 2015
February 27, 2015

Lithuanian Flag Raising
Dominican Flag Raising

March 10, 2015
March 17, 2017

Tibetan Flag Raising
Trish Flag Raising

April 8, 2015
April 30, 2015

United Nations Flag Raising
Vietnamese Flag Raising

May 15, 2015
May 20, 2015

Haitian Flag Raising
EMS Flag Raising

June 5, 2015
June 7, 2015
June 20, 2015

Pride Flag Raising
Portugal Flag Raising
Philippine Independence Day

July 5, 2015
July 20, 2015
July 27, 2015

Venezuelan Flag Raising
Columbian Flag Raising
Puerto Rican Flag Raising

September 12, 2015 Central American Festival
September 15, 2015 El Salvador Flag Raising
September 16, 2015 Mexico Flag Raising
October 4, 2015
October 10, 2015
October 29, 2015

Cuban Flag Raising
Chinese Flag Raising
Turkish Flag Raising

177a

2014 Flag Raisings Ceremonies
February 22, 2014
February 24, 2014

Dominican Flag Raising
Lithuanian Flag Raising

March 10, 2014

Tibetan Flag Raising

April 7, 2014
April 30, 2014

United Nations Day Flag
Raising
Vietnamese Flag Raising

May 31, 2014

Pride Flag Raising

June 1, 2014
June 9, 2014

Philippine Independence Day
Portugal Flag Raising

July 5, 2014
July 5, 2014
July 22, 2014

Venezuelan Flag Raising
Cape Verdean Flag Raising
Puerto Rican Flag Raising

August 4, 2014
August 16, 2014
August 24, 2014

Panama Flag Raising
Dominican Flag Raising
Ukraine Flag Raising

September 14, 2014
September 15, 2014
September 21, 2014
September 29, 2014

Central American Festival
Guatemalan Flag Raising
Honduras Flag Raising
Cuban Flag Raising

October 29, 2014

Turkish Flag Raising

178a
2013 Flag Raising Ceremonies
February 22, 2013
February 24, 2013

Dominican Flag Raising
Lithuanian Flag Raising

March 10, 2013

Tibetan Flag Raising

April 7, 2013
April 30, 2013

United Nations Day Flag
Raising
Vietnamese Flag Raising

May 31, 2013

Pride Flag Raising

June 1, 2013
June 9, 2013

Philippine Independence Day
Portugal Flag Raising

July 5, 2013
July 5, 2013
July 22, 2013

Venezuelan Flag Raising
Cape Verdean Flag Raising
Puerto Rican Flag Raising

August 4, 2013
August 16, 2013
August 24, 2013

Panama Flag Raising
Dominican Flag Raising
Ukraine Flag Raising

September 14, 2013
September 15, 2013
September 21, 2013
September 29, 2013

Central American Festival
Guatemalan Flag Raising
Honduras Flag Raising
Cuban Flag Raising

October 29, 2013

Turkish Flag Raising

179a
2012 Flag Raising Ceremonies
February 16, 2012
February 17, 2012
February 24, 2012

Lithuanian Flag Raising
Kosovo Flag Raising
Dominican Flag Raising

March 10, 2012

Tibetan Flag Raising

April 7, 2012
April 30, 2012

United Nations Day Flag
Raising
Vietnamese Flag Raising

May 18, 2012

Haitian Flag Raising

June 2, 2012
June 8, 2012
June 10, 2012

Philippine Flag Raising
Pride Flag Raising
Portugal Flag Raising

July 5, 2012

Cape Verdean Flag Raising

August 4, 2012
August 16, 2012
August 17, 2012
August 24, 2012

Panama Flag Raising
Dominican Flag Raising
Trinidad & Tobago
Ukrainian Flag Raising

September 9, 2012
September 14, 2012
September 15, 2012
September 16, 2012
September 29, 2012
September 30, 2012

Central American Flag
Raisings
Mexican Flag Raising
Honduras Flag Raising
Guatemalan Flag Raising
Chinese Flag Raising
Costa Rican Flag Raising

October 7, 2012

Frank Chin Flag Raising

180a
October 21, 2012
October 29, 2012

Cuban Flag Raising
Turkish Flag Raising

2011 Flag Raisings Ceremonies
February 16, 2011
February 17, 2011
February 25, 2011

Lithuania Flag Raising
Stephan Kochi
Dominican Flag Raising

March 10, 2011
March 18, 2011

Tibet Flag Raising
Consulate General Canada

April 27, 2011
April 30, 2011

Haitian Flag Raising
Vietnamese Flag Raising

May 13, 2011

Haitian Flag Raising

June 3, 2011
June 4, 2011
June 12, 2011

Pride Flag Raising
Philippine Flag Raising
Portugal Flag Raising

July 5, 2011
July 18, 2011
July 20, 2011

Cape Verdean Flag Raising
Puerto Rican Flag Raising
Columbian Flag Raising

August 6, 2011
August 11, 2011

Panama Flag Raising
Dominican Flag Raising

September 7, 2011
September 10, 2011
September 11, 2011
September 18, 2011

Brazilian Flag Raising
Honduras Flag Raising
Guatemalan Flag Raising
Costa Rican Flag Raising

181a
October 1, 2011
October 2, 2011
October 9, 2011
October 29, 2011

Lydia Lowe (Chinese Flag
Raising)
Cuban Flag Raising
Frank Chin Flag Raising
Turkish Flag Raising

November 11, 2011

Veteran's Day Flag Raising

2010 Flag Raisings Ceremonies
February 16, 2010
February 17, 2010
February 26, 2010

Lithuania Flag Raising
Kosovo Flag Raising
Dominican Flag Raising

March 10, 2010

Tibetan Flag Raising

April 30, 2010

Vietnamese Flag Raising

May 14, 2010

Haitian Flag Raising

June 5, 2010
June 13, 2010
June 13, 2010

Boston Pride Flag Raising
(Linda DeMarco)
Portugal Flag Raising
Philippine Flag Raising

July 5, 2010
July 19, 2010
July 20, 2010
July 28, 2010

Venezuelan Flag Raising
Puerto Rican Flag Raising
Columbian Flag Raising
Peruvian Flag Raising

August 7, 2010
August 24, 2010

Panama Flag Raising
Ukraine Flag Raising

182a
September 5, 2010
Brazil Flag Raising
September 11, 2010 Honduras Flag Raising (Lusi
Garcia)
September 12, 2010 Guatemalan Flag Raising
(David Ovalle)
September 13, 2010 Mexico Flag Raising
September 15, 2010 El Salvador Flag Raising
September 18, 2010 Nicaragua Flag Raising
September 19, 2010 Costa Rican Flag Raising
(Darwin Cordova)
September 25, 2010 Chinese Progressive
Association
October 3, 2010

October 22, 2010
October 29, 2010

Cuban Flag Raising (Regla
Gonzalez)
Chinese Flag Raising (Frank
Chin)
United Nations Flag Raising
Turkish Flag Raising

November 27, 2010

Albanian Flag Raising

October 10, 2010

2009 FLAG RAISINGS
February 16, 2009

Lithuania Flag Raising

March 10, 2009
March 20, 2009

Tibet Flag Raising
France Flag Raising

April 30, 2009

Vietnamese Flag Raising
(Diane Huyhn)

183a
May 15, 2009

Haitian Flag Raising
Ceremony (Wilner Auguste)

June 6, 2009

Boston Pride Flag Raising
(Linda DeMarco)

July 19, 2009
July 20, 2009
July 28, 2009

Columbian Flag Raising
Puerto Rican
Peru (Chrisitian Malpica)

August 12, 2009

Dominican

September 6, 2009
Brazilian Flag Raising
September 12, 2009 Honduras Flag Raising (Luis
Garcia)
September 13, 2009 Guatemala Flag Raising
(David Ovalle)
September 14, 2009 El Salavador Flag Raising
September 20, 2009 Costa Rican Flag Raising
(Elba Cleland)
September 26, 2009 Chinese Progressive Flag
Raising (Hong Jiang)
October 4, 2009
October 10, 2009
October 11, 2009
October 22, 2009
October 29, 2009

Cuban Flag Raising Regla
Gonzalez
Chinese Flag Raising (Frank
Chin)
Nicaraguan Flag Raising
Alfonso Hernandez
United Nations Flag Raising
Alma Morrisson
Turkish Flag Raising Erkut
Gomulu

184a

2008 FLAG RAISINGS:
June 6, 2008
June 23, 2008

Boston Pride Flag Raising
Puerto Rican Flag Raising

July 5, 2008
July 5, 2008
July 28, 2008

Cape Verdean Flag Raising
Venezuelan Flag Raising
Peruvian Flag Raising

August 2, 2008
August 7, 2008
August 22, 2008

Panama Flag Raising
Bolivian Flag Raising
Ukraine Flag Raising

September 6, 2008
September 7, 2008
September 12, 2008
September 13, 2008
September 14, 2008
September 20, 2008

Costa Rican Flag Raising
Brazil Flag Raising
Guatemalan Flag Raising
Honduras Flag Raising
El Salvador Flag Raising
Nicaragua Flag Raising

October 1, 2008

October 23, 2008

Chinese Progressive Flag
Raising
Chinese Flag Raising (Frank
Chin)
United Nations Flag Raisings

November 11, 2008

Veteran's Day Flag Raising

October 4, 2008

These flag raising are subject to change/add,

185a
FLAG RAISINGS 2007:
February 27, 2007

Dominican Flag Raising

March 6, 2007
March 26, 2007

Guyana Flag Raising
Irish Flag Raising

June 10, 2007

Portugal Flag Raising

July 5, 2007
July 20, 2007
July 23, 2007
July 27, 2007

Venezuelan Flag Raising
Columbian Flag Raising
Puerto Rican Flag Raising
Peruvian Flag Raising

August 4, 2007
August 6, 2007
August 24, 2007

Panama Flag Raising
Bolivian Flag Raising
Lloyd Pertiver

September 7, 2007
September 8, 2007
September 14, 2007
September 15, 2007
September 16, 2007
September 22, 2007
September 24, 2007

Brazilian Flag Raising
Nicaraguan Flag Raising
El Salvador Flag Raising
Honduras Flag Raising
Costa Rican Flag Raising
Guatemalan Flag Raising
Ukraine Flag Raising

These Flag Raisings are subject to change/added.
Thanks
FLAG RAISINGS 2006:
February 27, 2006

Dominican Flag Raising

186a
May 18, 2006

Haitian Flag Raising

June 2, 2006
June 11, 2006

Boston Pride Flag Raising
Portugal Flag Raising

July 5, 2006
July 5, 2006
July 20, 2006
July 28, 2006

Cape Verdean Flag Raising
Venezuela Flag Raising
Columbian Flag Raising
Peruvian Flag Raising

August 5, 2006
August 6, 2006
August 13, 2006
August 9, 2006
August 26, 2006

Panama Flag Raising
Bolivian Flag Raising
Ecuador Flag Raising
Dominican Flag Raising
Ukraine Flag Raising

September 2, 2006
September 9, 2006
September 10, 2006
September 13, 2006
September 15, 2006
September 29, 2006

Nicaraguan Flag Raising
Honduras Flag Raising
Costa Rican Flag Raising
El Salvador Flag Raising
Mexico Flag Raising
Chinese Progressive Flag
Raising

October 8, 2006
October 29, 2006

Cuban Flag Raising
Turkish Flag Raising

November 28, 2006

Albanian Flag Raising

FLAG RAISINGS

2005:

June 3, 2005

Boston Pride Flag Raising

187a
June 19, 2005

Israel Independence Flag
Raising

July 5, 2005
July 5, 2005
July 27, 2005
July 28, 2005

Cape Verde Flag Raising
Venezeula Flag Raising
Peru Flag Raising
Acadian Flag Raising

August 8, 2005

Dominican Flag Raising

September 3, 2005
September 7, 2005
September 10, 2005
September 15, 2005
September 23, 2005
September 24, 2005
September 30, 2005

Guatemala Flag Raising
Brazil Flag Raising
Honduras Flag Raising
Mexico Flag Raising
Nicaraguan Flag Raising
El Salvador Flag Raising
Chinese Progressive Flag
Raising

October 2, 2005
October 8, 2005
October 9, 2005
October 29, 2005

Cuban Flag Raising
Chinese Flag Raising
Columbus Day Flag Raising
Turkish American Flag
Raising

November 28, 2005

Albanian Flag Raising

188a
EXCERPTS OF GREGORY T. ROONEY
DEPOSITION TRANSCRIPT,
FILED JULY 8, 2019

DEPOSITION OF [GREGORY] T. ROONEY
Boston City Hall
One City Hall Square
Boston, Massachusetts
March 20, 2019
10:05 a.m.
*

*

*

Q. And what was the result of that search or
compilation of prior flag raisings?
A. We found no past practice of ever having
done that in the past.
Q. Does that also mean you found no evidence
of having denied a flag raising request on religious
grounds before?
A. I don’t believe at the time we were looking
at specific applications, only what had been
approved and on, you know, had actually been on the
flagpoles.
Q. So as part of this exercise, did you try to
find whether any organizations had been denied
requests to raise a flag?
A. It could have been part of the search. I
don’t recall. I know that we were looking at all of the
flag raisings that had occurred and didn’t find any

189a
evidence that one had been—you know, that a
religious flag had ever been raised in the records
that we could find.
Q. If you had found that a religious flag had
been raised in the past, would that have affected
your decision regarding Camp Constitution?
A. I don’t know. It would have certainly been
something that we’d have to consider, but I don’t
know.
*

*

*

Q. And this is an email from Gregory Rooney
to Shurtleff, Hal, September 8, 2017, Subject: Flag
Raising; is that correct?
A.

Yes.

Q.

Do you recognize this email?

A.

Yes.

Q.

And what is this?

A. This is the response that I sent to Mr.
Shurtleff.
Q. And is this your response to him
explaining the denial of the flag raising request?
A.

Yes.

Q. The second sentence reads, “The City of
Boston maintains a policy and practice of

190a
respectfully refraining from flying non-secular flags
on the City Hall flagpoles.” Did I read that correctly?
A.

Yes.

Q. Now up to this point, there had not been
any formal written policy regarding flying nonsecular flags on the flagpoles, correct?
A.

Correct.

Q. So to the extent you’re referring to a policy
here, that would be a new policy, correct?
A.

I was referring to past practice.

Q. Okay. So you say a policy and practice. The
practice refers to what you had determined was the
past practice of the city prior to the Camp
Constitution request?
A.

Yes.

Q. Now when you say “respectfully
refraining,” does that mean you had determined that
the city had declined to fly non-secular or religious
flags in the past?
A. We had no—I had no records of ever
having one had been approved, so.
Q. So as you wrote this, wouldn’t it be fair to
say you didn’t know if one had ever been denied
before on those grounds?
A.

No, I don’t—I can’t say with certainty.

191a
*

*

*

Q. When you allow a flag raising on one of the
City Hall flagpoles, do you usually provide that to
the organization that's raising the flag so they can
get the flag up and down?
A. We assist. It's our crank. It doesn't—it's
not permanently affixed to the pole, so we have to
provide it in order for the flag raising to occur.
Q. Okay. Does a city employee usually
actually do the cranking?
A. I don't attend all the flag raisings. I can't
answer that.
Q. Okay. Are requestors permitted to do it
themselves? In other words, if your department
provides the crank for a particular flag raising, can
the organizer of the flag raising do that part
themself?
A. I honestly don't attend the majority of flag
raisings. I've never paid attention to who was
cranking it. I believe that it's done typically in
conjunction with the organizers. So whether we have
them assisting with them raising or it's done by a
custodian, I can't give you a definitive answer to
that.

(Tr. 1:19–23; 56:11–57:14; 74:3–75:21; 131:11–
132:10.)

